<html>
<title> - INEQUALITY, OPPORTUNITY, AND THE HOUSING MARKET</title>
<body><pre>[Senate Hearing 113-577]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-577


            INEQUALITY, OPPORTUNITY, AND THE HOUSING MARKET

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
           HOUSING, TRANSPORTATION, AND COMMUNITY DEVELOPMENT

                                 of the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING ONGOING CHALLENGES AND DISPARITIES IN THE HOUSING MARKET AND 
                         HOUSING FINANCE SYSTEM

                               __________

                            DECEMBER 9, 2014

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                 Available at: http://www.fdsys.gov/

                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-482 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         RICHARD C. SHELBY, Alabama
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania
JEFF MERKLEY, Oregon                 MARK KIRK, Illinois
KAY HAGAN, North Carolina            JERRY MORAN, Kansas
JOE MANCHIN III, West Virginia       TOM COBURN, Oklahoma
ELIZABETH WARREN, Massachusetts      DEAN HELLER, Nevada
HEIDI HEITKAMP, North Dakota

                       Charles Yi, Staff Director
                Gregg Richard, Republican Staff Director
                       Dawn Ratliff, Chief Clerk
                      Troy Cornell, Hearing Clerk
                      Shelvin Simmons, IT Director
                          Jim Crowell, Editor

                                 ______

   Subcommittee on Housing, Transportation, and Community Development

                 ROBERT MENENDEZ, New Jersey, Chairman

             JERRY MORAN, Kansas, Ranking Republican Member

JACK REED, Rhode Island              BOB CORKER, Tennessee
CHARLES E. SCHUMER, New York         PATRICK J. TOOMEY, Pennsylvania
SHERROD BROWN, Ohio                  MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 TOM COBURN, Oklahoma
JOE MANCHIN III, West Virginia       DEAN HELLER, Nevada
ELIZABETH WARREN, Massachusetts      RICHARD C. SHELBY, Alabama
HEIDI HEITKAMP, North Dakota

              Brian Chernoff, Subcommittee Staff Director

         William Ruder, Republican Subcommittee Staff Director

                                  (ii)




















                            C O N T E N T S

                              ----------                              

                       TUESDAY, DECEMBER 9, 2014

                                                                   Page

Opening statement of Chairman Menendez...........................     1

                               WITNESSES

Wayne T. Meyer, President, New Jersey Community Capital..........     2
    Prepared statement...........................................    23
    Responses to written questions of:
        Chairman Menendez........................................    78
Mabel Guzman, 2014 Chair, Conventional Finance and Policy 
  Committee, National Association of Realtors....................     4
    Prepared statement...........................................    27
    Responses to written questions of:
        Chairman Menendez........................................    83
Julia Gordon, Director of Housing Finance and Policy, Center for 
  American Progress..............................................     6
    Prepared statement...........................................    53
Deborah Goldberg, Special Project Director, National Fair Housing 
  Alliance.......................................................     8
    Prepared statement...........................................    69
    Responses to written questions of:
        Chairman Menendez........................................    85

                                 (iii)

 
            INEQUALITY, OPPORTUNITY, AND THE HOUSING MARKET

                              ----------                              


                       TUESDAY, DECEMBER 9, 2014

                                       U.S. Senate,
      Subcommittee on Housing, Transportation, and 
                             Community Development,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Subcommittee met at 11:20 a.m., in room 538, Dirksen 
Senate Office Building, Hon. Robert Menendez, Chairman of the 
Subcommittee, presiding.

         OPENING STATEMENT OF CHAIRMAN ROBERT MENENDEZ

    Chairman Menendez. This hearing will come to order. Let me 
apologize to our witnesses and to our audience. We had votes 
taking place, so we are starting a little later.
    The housing market was at the epicenter of the financial 
crisis and the Great Recession that followed. Lenders entered 
into risky and unsafe mortgages with bars which were packaged 
and sold to investors, all with a view that housing prices 
would keep bubbling upward. When prices stopped rising and the 
bubble popped, the devastation was broad for families, 
businesses, communities, and our financial system and economy.
    Today, the housing market, much like our economy, is 
rebounding, but important challenges still remain. The number 
of households in foreclosure has fallen from its peak, but it 
still exceeds 600,000 nationwide. The number of homeowners in 
negative equity is also falling as prices have rebounded, but 
over five million homeowners across our country still owe more 
on their mortgages than the value of their homes.
    The national numbers, moreover, do not always tell the 
complete story, as experiences vary considerably across 
geographic areas, demographic groups, and market segments. In 
my home State of New Jersey, for example, nearly 6 percent of 
homeowners with a mortgage are in the foreclosure process, the 
highest rate in the Nation.
    In communities with high concentration of foreclosed 
properties or distressed borrowers, the consequences can be 
devastating and the economic recovery slow. Families looking to 
become homeowners or move up in the market also face 
challenges. During the boom years, lenders made and securitized 
risky loans that borrowers could not afford. But now, it seems 
that borrowers of more modest means, instead of receiving 
modest, responsible loans, are having a hard time getting a 
mortgage at all. First-time home buyers in underserved 
communities, in particular, are feeling the impact.
    Today's hearing will examine challenges such as these that 
still face us in the housing market. I look forward to hearing 
from our witnesses regarding the factors that may be 
contributing to each as well as potential solutions.
    Are there any other Senators who wish to offer an opening 
statement? If not, then let me introduce our witnesses.
    Wayne Meyer is the President of New Jersey Community 
Capital, a community development financial institution based in 
New Brunswick, New Jersey, whose work is well known in our 
State, and I want to thank you for making the trip from New 
Jersey for our hearing today.
    Mabel Guzman is the 2014 Chair of the Conventional 
Financing Committee of the National Association of Realtors and 
former President of the Chicago Association of Realtors, and 
she is testifying today on behalf of the National Association 
of Realtors. We welcome you.
    Julia Gordon is the Director of Housing Finance and Policy 
at the Center for American Progress, where she works on the 
future of housing finance, foreclosure prevention, access to 
sustainable mortgages and affordable rental housing, and other 
housing-related policies. We thank you for coming.
    And, finally, Deborah Goldberg is the Special Project 
Director at the National Fair Housing Alliance, a national 
organization dedicated to ending discrimination in the housing 
market. She plays a lead role in the Alliance's public policy 
work on foreclosure prevention, mortgage lending, and financial 
regulatory and housing finance reform. We thank you for being 
back to the Committee, as well.
    So, let me just advise you all, your full statements will 
be entered into the record, without objection. I would ask you 
to summarize your statement for about 5 minutes or so, so that 
we could enter into a dialogue at the end of your collective 
testimony.
    And with that, Mr. Meyer, we will start with you.

 STATEMENT OF WAYNE T. MEYER, PRESIDENT, NEW JERSEY COMMUNITY 
                            CAPITAL

    Mr. Meyer. Thank you, Senator Menendez and Members of the 
Subcommittee, for this opportunity to speak with you today. My 
name is Wayne Meyer and I am the President of New Jersey 
Community Capital, which is the largest nonprofit community 
development financial institution, or CDFI, in the State of New 
Jersey. I would like to share with you several approaches that 
my organization has been taking to prevent and mitigate 
foreclosures and to stabilize distressed housing markets in New 
Jersey.
    First, I would like to briefly discuss challenges facing 
our State, because while the housing market has begun to turn 
the corner in some places, New Jersey is still very much in a 
housing crisis. The data bears this out. As of June 2014, 5.7 
percent of homes in New Jersey were in foreclosure and 9.3 
percent more were seriously delinquent, the highest rate in the 
Nation. Twelve-point-eight percent of mortgaged homes in the 
State had negative equity, comprising 240,000 homes threatened 
by foreclosure and abandonment. Concurrently, mortgage credit 
has been extremely inaccessible for even stable, moderate-
income New Jersey homebuyers.
    Finally, New Jersey has the fourth-highest rental costs of 
any State, and these costs are rising, even as wages for the 
bottom 50 percent of New Jersey earners has declined by a 
dollar an hour in the past year. As a result, many lower-income 
families are spending half their income on rental housing, 
which is simply unacceptable.
    For New Jersey Community Capital, an equitable housing 
market has been and remains a fundamental pillar for 
stabilizing neighborhoods and increasing the well-being and 
economic mobility of lower-income families. From our 
perspective, without economic mobility, there is no progress.
    In my written testimony, I have discussed four solutions 
that New Jersey Community Capital has developed to combat New 
Jersey's persistent housing crisis. They center around our 
lending strategies, our Mortgage Loan Purchase Program, our 
real estate development arm and strategies, as well as mortgage 
lending. I believe that our holistic approach is one that, with 
the right support and partnerships, could be effective in many 
distressed communities around the country. In the interest of 
time, I would like to really highlight two of those particular 
programs that we believe are really important in addressing 
ongoing housing obstacles and creating opportunities to jump-
start the housing market.
    The first is around lending. In New Jersey, we have 
witnessed an increasing shortage of capital from financial 
institutions to lend to nonprofit community development 
organizations and others who wish to acquire, redevelop, and 
put back into productive use vacant and abandoned housing. 
Every year, New Jersey Community Capital invests millions of 
dollars into the creation and preservation of hundreds of for-
sell and rental affordable housing units in a very difficult 
financial climate. Since the advent of the economic crisis, we 
find that CDFIs like NJCC have taken on even a larger role in 
lending in this certain area.
    Furthermore, there has been a lack of access to mortgage 
credit. So, in response, New Jersey Community Capital is 
partnering with the State's largest credit union to create a 
Credit Union Service Organization which will provide CRA-
qualifying mortgage credit and credit counseling to qualifying 
prospective low- and moderate-income homebuyers that cannot 
access mortgages in their traditional market.
    Second, I would like to talk, if I may, about our ReStart 
Mortgage Loan Purchase Program. Senator Menendez, at a field 
hearing you held in New Jersey in 2012, when you held the field 
hearing in New Jersey, I talked about the need for us to be 
able to acquire mortgages while people were still in their 
homes, to get ahead of the problem, to be in the front end to 
make sure we can preserve home ownership. Over the last 2 
years, New Jersey Community Capital has acquired 800 mortgages 
through FHA's Distressed Asset Stabilization Program in New 
Jersey, and our goal is simple. It is to keep families in their 
homes through principal reduction, bringing the mortgage down 
to the current value of the house and ensuring that the 
borrower's monthly payment does not exceed 35 percent of their 
income. We provide all of our homeowners with high-touch 
financial counseling through partnerships with local approved 
HUD organizations.
    Last, we have found in these pools that approximately 45 
percent of the properties are vacant or tenant-occupied. We 
view these situations as opportunities to repurpose distressed 
properties into new affordable housing opportunities. It is 
especially valuable in today's housing market, in which 
Government housing subsidies are so limited, that we can pass 
on our savings on the mortgage purchases both to homeowners and 
to new affordable housing. To date, we have kept 250 homeowners 
in their homes and provided over $20 million in principal 
reduction, and there has not been one redefault on any of those 
mortgages.
    Briefly, I would just like to talk about what we see as 
several low- or no-cost approaches that can be taken to advance 
the steps to recovery in New Jersey and elsewhere. The first is 
increasing nonprofit access to nonperforming mortgages and REO 
properties through the FHA Distressed Asset Stabilization 
Program and the FHFA program. New Jersey Community Capital has 
relied on the FHA program to acquire 800 mortgages, but more 
and more for-profit entities are winning these pools. To date, 
they have won 88 percent of what the FHA considers to be 
Neighborhood Stabilization Outcome pools, and we believe that 
this has to change.
    Some of our solutions to this challenge include increasing 
direct sales of mortgage pools from FHA to nonprofits in NSO 
areas, awarding extra points to NSO bidders committed to social 
outcomes, and allowing nonprofits the first option to bid on 
NSO pools or other sets of targeted pools. We believe that FHFA 
should follow the lead of the FHA DASP program and incorporate 
the NSOs in their GSE auctions.
    Finally, I would like to talk about the continuing support 
of principal reductions as an effective foreclosure prevention 
strategy. We believe that many of our homeowners are so 
severely underwater that the only way to make sure that they 
stay in their home is through principal reduction. So, we 
advocate for increasing access to funding sources similar to 
the hardest-hit funds, potentially including Department of 
Justice settlement funds, a source that can carry a program 
like ours to thousands more homeowners.
    Thank you, Senator.
    Chairman Menendez. Thank you.
    Ms. Guzman.

STATEMENT OF MABEL GUZMAN, 2014 CHAIR, CONVENTIONAL FINANCE AND 
       POLICY COMMITTEE, NATIONAL ASSOCIATION OF REALTORS

    Ms. Guzman. Thank you, Chairman Menendez and Members of the 
Subcommittee, for the opportunity to testify on behalf of the 
National Association of Realtors. My name is Mabel Guzman and I 
am a broker at @properties in Chicago, Illinois, and I am the 
2014 Chair of the National Association of Realtors Conventional 
Finance and Policy Committee. I am very passionate about the 
role of real estate in public policy, so much so that I took 
time away from my business to be here today.
    In my 17 years as a Realtor, this is thus far the most 
difficult market for homebuyers I have seen. In many respects, 
the U.S. housing market is headed down the wrong path. We 
believe this is due to six major factors.
    First, our economy is still recovering. Employment and 
incomes are improving, but many earners still struggle with 
cash for downpayments and many homes are quickly snagged by 
investors paying cash, leaving little inventory for first-time 
buyers.
    Second, fees are hurting consumers. The overall cost of 
loans are at historic highs. The guarantee fees and loan level 
pricing adjustments charged by GSEs are hurting consumers. 
These policies result in billions of dollars of profits for the 
GSEs, but have had a significantly negative impact on mortgage 
lending.
    Third, despite a healthy portfolio, FHA premiums are very 
high and they require borrowers to pay mortgage insurance for 
the life of the loan with no opportunity to cancel. Quite 
simply, this hamstrings consumer buying power.
    I had the pleasure to work with the Vasquez family, first-
time homebuyers, and they wanted to use FHA as an option to 
purchase and they could not because the fees were exorbitant 
and too expensive. They had two options, either not to buy and 
wait a year to do so and save more money, which was not an 
option because the trends in our city are that prices would 
have been 10 percent higher and they would have been priced out 
of the market. The other option was to do a conventional 
mortgage, which they ended up doing, but they pulled from their 
reserves to be able to make that 5 percent downpayment. Then 
there was the issue of the closing costs. By using those 
reserves, they had less money to be able to pay for closing 
costs. So, I was able to negotiate with a seller that was 
willing to contribute 3 percent toward their closing costs, but 
that took over five offers to make that happen. So, through the 
6-month process, we were able to have success, and now they are 
happy homeowners.
    Fourth, there are significant barriers to condominium 
ownership. We need changes to rules regarding owner occupancy 
ratios, project approval processes, and commercial space. 
Condominiums often represent the most affordable options for 
first-time homebuyers.
    I worked with a young man named Andrew Wikell [phonetic]. 
It took 3 years to find him a condominium under $200,000 in the 
city of Chicago, and we kept expanding our search. For him, it 
was the owner occupancy ratio. If a building had 55 percent 
tenants or nonowner occupied, it would not--he would not be 
able to get any financing on it. Though it was 55 percent 
nonowner occupied, within those units, anywhere from 5 percent 
to 15 and at times 20 percent had no mortgage, so they had no 
risk of default. We felt that it really should have been moved 
out of that ratio and put into owner-occupied status because 
the risk of default did not exist.
    Second, on commercial spaces, only allowing 20 percent is 
very onerous. Developers are creating transient-friendly 
buildings, additionally lifestyle centers, where the owner can 
come down, get a cup of coffee, do their dry cleaning, make a 
copy, even sit down and have a glass of wine. By reducing that 
to 20 percent, it has a double-negative. Number one, they have 
no potion to buy into that building which gives them so many 
amenities outside their other properties that they could 
choose, but second, it reduces commercial space, which creates 
small businesses an opportunity to open in that building and 
create jobs. So, it is a job killer at the same time.
    Fifth, the underwriting process needs to be improved. FHA 
and GSEs have made concessions with respect to lender 
liability. Now, lenders need to improve the quality of their 
underwriting and halt preventable mistakes. In addition, 
Congress and the Administration can improve current credit 
conditions by addressing the 3 percent cap on fees and points.
    And, finally, foreclosure and short sales remain 
problematic for thousands of American families. The GSE and FHA 
alternative asset disposition programs actually reduce home 
purchase opportunities for owner occupants. Foreclosure 
prevention efforts need to be increased before loans are sold 
off to investors. In addition, NAR urges Congress to extend 
mortgage debt forgiveness to distressed homeowners who should 
not have to pay phantom income tax after enduring the stress 
and loss of their home in a short sale. Therefore, we need to 
provide more certainty in the short sale process, as well. We 
support Senator Brown's bill, S. 361, to provide a certain 
answer to distressed homeowners.
    I worked with a client. We started the short sale process 
and we waited 1 year for an approval so that she can realize 
that short sale, and it never happened. Her loan was sold. The 
new investor who purchased that did not want to realize a short 
sale and foreclosed on the client, now adding another unit of 
foreclosure into the market as well as destabilizing a 
condominium property.
    Until we address these issues, our national return to 
prosperity will be jeopardized. Out of the nine previous 
recessions, seven of the recoveries were led by housing.
    On behalf of the one million members of the National 
Association of Realtors, thank you for this opportunity to 
testify and I look forward to your questions.
    Chairman Menendez. Thank you.
    Ms. Gordon.

  STATEMENT OF JULIA GORDON, DIRECTOR OF HOUSING FINANCE AND 
              POLICY, CENTER FOR AMERICAN PROGRESS

    Ms. Gordon. Good morning, Chairman Menendez and Senator 
Warren. My name is Julia Gordon and I direct the Housing 
Finance Team at the Center for American Progress. Thank you so 
much for convening this hearing on the critical topic of 
inequality of opportunity in the housing market.
    Today, our Nation's housing recovery is neither strong nor 
equitably distributed, as Ms. Guzman has described. Not only 
has the mortgage market shrunk nationally, but many 
communities, and especially communities of color, lag far 
behind other parts of the country, with hard-hit neighborhoods 
continuing to suffer the ongoing effects of multiple 
foreclosures, negative equity, vacant homes, and blight. And, 
as more families become renters rather than owners, rents have 
risen to the point where more than half of all renters spend 
more than 30 percent of their gross income on rent, which is 
considered the upper limit of rental affordability.
    Most people of color remain shut out of the conventional 
mortgage market, with more than 70 percent of African Americans 
and about two-thirds of all Latinos having FHA and other 
Government programs as their only option. And, while less than 
20 percent of all homeowners nationally still owe more on their 
mortgage than it is worth--than their home is worth, in the 
hardest-hit zip codes in the Nation, as many as three-quarters 
of all homeowners are still underwater, and in two-thirds of 
these zip codes, African Americans and Latinos account for at 
least half the population.
    Ironically, even as home prices experienced historic 
declines over the past 6 years, the tightness in the credit 
market meant that for too many households, especially families 
of color and lower-wealth families, they miss what could 
otherwise have been an ideal opportunity to access affordable 
and sustainable home ownership, and in many of these 
communities that already lost significant wealth due to the 
foreclosures, wealth continues to be exported outside the 
community as it flows to landlords who do not live there.
    It is not too late to turn this situation around, but we 
must focus our efforts on enabling more families to join the 
ranks of home ownership. At the same time, we must ensure that 
expansion of access not lead to any of the predatory and 
abusive market practices that led to the crisis. So, I do urge 
you as you hear calls to exempt more market participants from 
the Dodd-Frank mortgage protections, that we think very 
carefully about that. We believe that access can be increased 
significantly under the current rules.
    So, while there is no one silver bullet, there are many 
dials and levers we think we can move to increase access 
without opening the door to predatory or unsafe lending. First 
and foremost, Congress should complete comprehensive reform of 
the housing finance system. Uncertainty concerning the fate of 
Fannie and Freddie continues to weigh heavily on the market. S. 
1217, the legislation passed by this Committee, provided a very 
useful framework, but did not sufficiently place the goal of 
access to affordable, sustainable credit at the center of the 
new system's purpose.
    Until that effort is completed, FHFA and FHA have a great 
deal of power to make positive change. Just yesterday, FHFA 
released the news that Fannie and Freddie will offer a low-
downpayment product for first-time homebuyers, a sorely needed 
first step in opening the conventional market to lower-wealth 
borrowers.
    We further recommend that companies update the credit score 
model used by their automated underwriting systems to improve 
the reliability of scores and the availability of scores for 
tens of millions of consumers, especially consumers of color.
    Additionally, FHFA should set strong housing goals and duty 
to serve requirements that push the enterprises to lead the 
primary market instead of lagging it, as they have been doing. 
They should pool for risk and set pricing based on what is 
needed to cover expected losses rather than continuing what has 
been a failed attempt to revive the private label market using 
unnecessarily high fees.
    To help struggling communities, FHFA should provide 
troubled borrowers with principal reduction modifications, 
which are the most successful form of assistance. It should 
also instruct Fannie and Freddie to consider direct purchase of 
forced place hazard insurance to protect both consumers and 
taxpayers from the kickbacks and inflated costs associated with 
mortgage servicers purchasing that insurance.
    FHFA should direct Fannie and Freddie to begin contributing 
immediately to the Housing Trust Fund and Capital Magnet Fund, 
which will help provide affordable rental housing for extremely 
low-income families.
    As for FHA, which is now on track to fully replenish its 
reserves by 2016, we recommend revisiting the impact that 
premiums are having on access to credit and considering whether 
some reductions could provide sufficient additional volume to 
offset any cost to the fund.
    Both FHFA and FHA should ensure that any bulk sales of 
distressed mortgages promote both home retention and 
neighborhood stability. If designed responsibly, we believe 
these sales can offer better loan modifications, support 
neighborhood revitalization, and limit losses to taxpayers. 
But, if loans are simply passed off to the highest bidder 
without any protections, we will have missed an extraordinary 
opportunity.
    To further the work of fixing the broken mortgage servicing 
system, FHFA and FHA should join with CFPB and other prudential 
regulators to improve servicing rules further, revisit soon the 
issue of servicer compensation, and find a way to require 
sustainable modifications to homeowners after HAMP expires.
    Finally, as Ms. Guzman mentioned, Congress must extend the 
Mortgage Debt Relief Act, at least through the end of 2015.
    Thank you again for inviting me to talk today. Together, we 
can work to create a more robust, fairer housing market that 
drives economic growth and promotes opportunities for America's 
families.
    Chairman Menendez. Thank you.
    Ms. Goldberg.

   STATEMENT OF DEBORAH GOLDBERG, SPECIAL PROJECT DIRECTOR, 
                 NATIONAL FAIR HOUSING ALLIANCE

    Ms. Goldberg. Thank you, Mr. Chairman. Good morning. Good 
morning, Members of the Subcommittee. Thank you for the 
opportunity to testify here today. My name is Debby Goldberg. I 
am a Special Project Director at the National Fair Housing 
Alliance, or NFHA. NFHA works with its 220 members in 37 States 
and the District to provide equal access to housing for 
millions of people.
    My written testimony touches on a number of topics, but my 
testimony here this morning will focus on the broken system for 
maintaining and marketing foreclosed properties, particularly 
in communities of color, and the long-term impact of these 
problems.
    Home ownership has long been a key to opportunity in this 
country, a path into the middle class. It has provided millions 
of families the means to create economic stability and build 
wealth. But, households of color have not experienced the 
benefits of home ownership to the same degree as their White 
counterparts, and for many households of color, home ownership 
is a thing of the past. Since 2008, five million families who 
were homeowners have lost their homes to foreclosure, and 
communities of color have been particularly hard hit.
    In April 2009, NFHA began an investigation into the 
marketing and maintenance of foreclosed properties, or REOs. In 
partnership with 17 of our members, we have inspected 3,726 
foreclosed properties in 29 metro areas and 22 States. Some of 
these are in predominately White neighborhoods, others in 
predominately Black and/or Hispanic neighborhoods. Many of 
these are stable communities where the rate of home ownership 
is high. At each house, our investigators evaluate more than 30 
aspects of maintenance and marketing, including curb appeal, 
structural integrity, signage, indications of water damage, and 
the condition of the paint, siding, gutters, and downspouts.
    We have found that REOs in White neighborhoods were well 
cared for and well maintained, well marketed. They were more 
likely to have neatly manicured lawns, securely locked doors, 
and attractive professional ``for sale'' signs out front. 
Someone driving down the street would be unlikely ever to know 
that the property was for sale because of a foreclosure.
    In contrast, REOs in communities of color were more likely 
to have overgrown yards, trash on the premises, unsecured 
doors, and broken or boarded windows. They appeared abandoned, 
blighted, and unappealing to potential homebuyers, even though 
they were located in stable neighborhoods where the surrounding 
homes were well maintained.
    Further, these maintenance deficiencies were cumulative. 
That is, REOs in communities of color were more likely to have 
a greater number of deficiencies than those in White 
communities. These cumulative deficiencies lead to a host of 
problems. They can cause health problems, both physical and 
mental. They attract vagrants and criminal activity and may be 
fire and safety hazards. They also contribute to violent crime 
in a community. Research shows that for every 1 percent 
increase in the foreclosure rate in a census tract, violent 
crimes increase by 2.33 percent. All of these problems place an 
increased burden on municipal fire, police, health care, and 
other resources.
    At the same time, these poorly maintained REOs bring down 
property values, resulting in lower tax revenues for 
municipalities, even as they must expend more resources to cope 
with the problems created by the REOs. We have also found that 
poorly maintained REOs linger on the market longer before being 
sold and are more likely to be sold to investors, transferring 
wealth out of the community.
    Managing REOs differently based on the racial composition 
of the neighborhood in which they are located is a violation of 
the Federal Fair Housing Act. The Federal agencies responsible 
for overseeing the activities of banks, the GSEs, and other 
investors have both the authority and the obligation to ensure 
that they do not violate the Fair Housing Act in their 
maintenance and marketing of REO properties. Effective 
oversight can help stem the kind of problems our investigations 
uncovered. To date, only the Federal Reserve Board has taken 
action in this area.
    In our report, we outline a series of recommendations for 
addressing these problems and ensuring that communities of 
color have an opportunity to share in the economic recovery. 
One of these is for Congress to play an active role in 
oversight, both to shine a spotlight on the problems where they 
exist and to hold accountable Federal agencies with the 
responsibility to help prevent and solve these problems.
    Further, we believe it is critical to create a path back to 
home ownership for families harmed by the foreclosure crisis 
and have described some of the steps necessary to do this. So 
many of these families are families of color, and they will 
constitute half of the potential homebuyers over the next 
decade. Helping them exercise that potential is not only the 
right thing to do, it is an economic imperative for our Nation.
    Thank you for the opportunity to testify here today. I look 
forward to your questions.
    Chairman Menendez. Thank you all for your testimony. There 
is a lot of ground to cover here, so let me start.
    Several of you have discussed how mortgage borrowers' 
credit scores have tightened sharply in recent years, and not 
only compared to the precrisis boom years, but also tighter 
than the more normal period before the boom. During the run-up 
to the crisis, we saw many instances of homeowners who once 
would have received modest, affordable loans instead receiving 
much riskier loans than they could possibly afford. And now it 
seems the response has been, instead of going back to matching 
the creditworthy borrower at the lower end of the distribution 
with affordable loans, these borrowers are being cut out of the 
market entirely.
    So, my question for any or all of you is what factors do 
you think are driving that trend? To what extent are the 
broader economic factors as opposed to tighter mortgage lending 
standards affecting this? And, to the extent that creditworthy 
borrowers are having a tougher time right now getting a 
mortgage, how has the impact differed across different 
populations or segments of the market? Who has felt it the 
most? So, one is why is it happening? Two, what are the 
factors? Are there factors beyond just having the pendulum 
swing the opposite way, and who is getting the worst of it?
    Ms. Guzman.
    Ms. Guzman. Yes. With regard to what is happening, is 
currently, banks have credit overlays. CFPB put out actually 
very rational rules that mitigate risk to any qualified 
borrower, but banking comes in. If there is a 41 percent DTI, 
debt-to-income ratio, which is the CFPB rule, they will say 
they need 43 percent. So, that eliminates 10 percent right 
there.
    Then, if they look at a credit score, 650 maybe being the 
average on a consumer, they will say, well, we need 680 or 700. 
That eliminates another subsection right there. And, credit--
that number has nothing to do with risk. It is, rather, they 
have a lot of revolving debt or not. Many consumers actually 
prefer to pay cash, and we are looking at FICO 9, which is one 
of the new models that would actually help and introduce more 
borrowers into the market.
    The credit overlays do need to be removed, or buffers, as 
they say, because we have already gone through a sense of 
reform, you could say, with the CFPB. And, by the elimination 
of that, you would still have good creditworthy borrowers, 
rational lending, and you would see a reintroduction of opening 
that pool and access to more borrowers into the American dream.
    Chairman Menendez. Does anyone else want to opine? Ms. 
Gordon.
    Ms. Gordon. If I could pick up on the fact that the lenders 
have these overlays and talk about why they have the overlays, 
it would be hard for us to know exactly why, because every time 
we talk to lenders about it, we hear a different story, 
depending on what problem we are working to solve.
    For a long time, the concern had to do with the 
representation of warranty framework or the indemnification 
framework, lenders concerned about being forced to buy back 
their loans. Both FHA and FHFA have been doing their best to 
provide lenders with more certainty in that area. But, as soon 
as you hear more certainty in that area, you hear the lenders 
talk about other regulatory risks. You hear they talk about the 
DOJ settlements.
    There are a whole variety of reasons lenders have been 
putting forward about why they are not lending and it is very 
difficult to tell exactly what policymakers can do to change 
the fact that, at the moment, some of the biggest lenders, some 
of the biggest banks, simply do not appear to really want to 
ramp up their mortgage businesses, which is why I do think it 
is really important for us to focus on alternative mortgage 
channels, to focus on credit unions, CDFIs, smaller 
institutions. While, typically, the answer to that is, well, 
you can never scale that up to the point where it matters, I 
think that we would be doing ourselves a disservice if we did 
not really try to scale the efforts of the more mission-based 
organizations that have a desire and willingness to be in the 
mortgage business and to serve the communities that we are 
talking about.
    And, in terms of who is being left out the most, you know, 
low-wealth borrowers, but in particular, borrowers of color are 
being very, very deeply hurt, and I want to strongly support 
what the CFPB is trying to do in terms of collecting more and 
better HMDA data. We really need that data to understand what 
is going on. I would also urge CFPB to add a few more data 
fields and think about how we can also be keeping track of 
things like housing counseling and loan modifications, as well 
as the origination data.
    Chairman Menendez. I have several other questions. I only 
got to one. You all expounded significantly on it. But, in 
deference to my colleagues, I am going to come back a little 
later.
    Senator Warren.
    Senator Warren. Thank you, Mr. Chairman, and thank you all 
for being here today. Thank you for calling this hearing.
    You know, home ownership remains the principal way for most 
families to build economic security. But, access to mortgage 
credit is very tight. Only about half as many new mortgages 
were approved in 2012 as back in 2001, well before lending 
standards were loosened up in the run-up to the financial 
crisis.
    Now, Fannie and Freddie are responsible for a huge portion 
of the secondary mortgage market and that means their standards 
have a major influence on what mortgages are actually offered 
in the primary market. Since the crash of 2008, trouble with a 
mortgage or short-term job loss has left millions of Americans 
with dings on their credit scores, and moderate-income 
families, African American and Hispanic families, have been hit 
especially hard.
    But, instead of taking that into account in loosening 
credit score standards, Fannie and Freddie have gone in the 
other direction. In 2012, the average credit score associated 
with a mortgage purchased by Fannie or Freddie was over 760. 
That is more than 50 points higher than the average credit 
score associated with mortgages they purchased back in the 
early 2000s, and more than 50 points higher than the average 
credit score of the average American. To be blunt, Fannie and 
Freddie have put home ownership out of the reach of millions of 
creditworthy families.
    So, Ms. Gordon, I just wanted to start with you. Do you 
agree that Fannie and Freddie's credit standards have played a 
key role in keeping many Americans out of home ownership?
    Ms. Gordon. Well, the answer is yes, but it is not just 
their credit standards per se. The whole direction of Fannie 
and Freddie's policies since the conservatorship has been 
extremely conservative and not aimed at performing their 
chartered mission of serving all markets all times.
    Senator Warren. Fair enough. I just wanted to focus in, 
though, in particular, on credit scores. It is an easy piece to 
get a hold of and an easy piece to talk with Fannie and Freddie 
about. We have got other aspects, I promise, we will----
    Ms. Gordon. Sure. Absolutely, on the credit scores. I mean, 
it is partly because of the overlays, partly because they are 
using the old FICO model, and, you know, with a heavy reliance 
on automated systems as opposed to manual underwriting, they 
have some important exemptions from some of the QM standards 
but often are not able to use the compensating factors or do 
not want to use them.
    Senator Warren. Well, that is right, and the data would 
suggest they are not using them----
    Ms. Gordon. Right.
    Senator Warren. ----right? And, Ms. Guzman, you are out 
there doing real estate. Would you agree with that?
    Ms. Guzman. Absolutely.
    Senator Warren. OK.
    Ms. Guzman. Absolutely. When we look at the HMDA filings in 
2006, 56.8 percent of African American and Black borrowers had 
an Experion credit score of 650 or less. When we are looking at 
FICO 9, this will result in increased acceptance of mortgage 
applicants. But, we also believe VantageScore is another model 
that they need to be using. First of all, again, that number, 
650 or 675, does not indicate risk. It just means how much 
credit they have available to them.
    Senator Warren. Right.
    Ms. Guzman. With VantageScore, it takes into account rental 
payments, utility payments, and maybe even possibly, with many 
Latinos in our market, they send their children to parochial 
school. That is a big nut they have to pay on education every 
month. They should be using other methodology and have 
innovation within the organization to actually look at this and 
say, yeah, we need to now expand the way we give credit or how 
we determine who is a creditworthy borrower.
    Senator Warren. Good. I think that is really valuable, and 
offering a lot of approaches that Fannie and Freddie could be 
using. You know, with Fannie and Freddie keeping credit so 
tight, especially at a time when housing is more affordable 
than it has been before, then it is bad for families, it is bad 
for the housing market, and it is bad for the economy across 
the board.
    So, I want to ask about one other thing, and that is since 
the Government's Home Affordable Mortgage Program, HAMP, began 
in 2009, more than 1.3 million homeowners have received a loan 
modification, and many of these modifications reduced the 
interest rates, which, in turn, lowered the homeowners monthly 
payments and helped people stay in their homes. About 90 
percent of these modifications were designed so that interest 
rates would begin resetting and gradually increasing after 5 
years.
    The first reset started last year, and according to an 
analysis of Treasury data by the Special Inspector General for 
TARP, after all of these resets are completed, the median 
monthly mortgage payment will increase by more than 20 percent 
for these families. Monthly payment increases will be even 
higher for those who needed the most help and, thus, received 
the steepest initial discounts in their interest rates.
    Now, researchers at Urban Institute's Housing Finance 
Policy Center have estimated that the impact of these resets 
will hit hardest in 2016 and 2017, and that as a result, we may 
see redefaults of about 10 percent among this group. That 
translates to about 100,000 families defaulting in the next 
couple of years.
    So, Mr. Meyer, I wanted to start with you. I was pleased to 
see that last week, Treasury announced plans to enhance the 
existing HAMP modification to avoid some of the problems that 
these resets will cause. Has New Jersey Community Capital 
looked at ways to help these families stay in their homes if 
they default again?
    Mr. Meyer. Yes, Senator. Thank you. We believe that it is 
important to engage with principal forgiveness and to make sure 
that the mortgage is right-sized to give the homeowner the best 
chance of success. But, a really important part, an important 
component of our program is a really high-touch financial 
counseling component, and it is not just to develop a mortgage 
resolution plan to keep the homeowner in their home, but it is 
also to support the homeowner on a go-forward basis. So, our 
counselors are staying with the homeowner after the mortgage is 
modified for a period of 12 to 18 months to make sure that they 
stay on track. And, although our track record right now is 2 
years, we have modified hundreds of mortgages and have not yet 
had one redefault.
    Senator Warren. Good for you. Thank you, Mr. Meyer.
    I am going to follow the good example set by the Chair and 
quit there, but I do want to come back at some point to what 
Treasury should be doing about this on the modifications, as 
well. Thank you.
    Chairman Menendez. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair, and thank you all 
for your concern and interest day to day in this challenge of 
reestablishing home ownership as a major driver of wealth for 
middle-class families.
    Ms. Gordon, I thought I would ask you a question, and it is 
a little unfair, because I have not briefed you in advance, but 
are you familiar with IDA programs, Individual Development 
Account programs? This is something that I became interested in 
in Oregon. I started the first IDA program that was west of the 
Mississippi, essentially in which low-income families, if they 
save toward home ownership, they get a matching grant under the 
program to enable them to buy a house, pay closing costs, 
downpayment, and so forth. And, it has had a very strong 
success rate in home ownership. I also worked previously with 
Habitat for Humanity, where we worked with very low-income 
families to buy homes.
    And, the reason I raise this is when we look at the home 
mortgage interest deduction, it is our major home ownership 
program, but it does not extend to low-income families, and let 
me give an example of that. You buy a $200,000 house. You pay 4 
percent interest--that is $8,000 of interest--at the beginning 
of the mortgage. It gets less over time. And, yet, the standard 
deduction currently is $12,400. So, you do not get one dime of 
help.
    And, one of the things that I have put forward periodically 
is the idea of adding on to the home mortgage interest 
deduction and with a grant program for those who do not take 
advantage of it. For example, if we were to have--we could kind 
of create a systematic IDA, still requiring matching funds if a 
homeowner was to take advantage of it for closing and 
downpayment, but take a value equivalent, kind of the value 
that they would have if they could have utilized the home 
mortgage interest deduction at a middle-class tax rate and give 
it as an annual grant or tax credit.
    Is that something you have taken a look at? This is where 
it is unfair, but the general idea--do you see where I am 
headed with the suggestion--to enable home ownership----
    Ms. Gordon. Right.
    Senator Merkley. ----not taking away anything from anyone 
else, but to help empower home ownership among lower-income 
families.
    Ms. Gordon. I do see where you are headed and I think it is 
a very interesting idea to talk about. I do have to say that we 
have recommended actually converting the mortgage interest 
deduction into a credit so that we solve the problem of this 
enormous subsidy. I mean, the amount we spend on the mortgage 
interest deduction every year is bigger than the entire HUD 
budget, which is, you know, incredible when you think about it, 
and it really is benefiting those in the upper parts of the 
income scale. And, so, we do think converting it to a credit 
and capping it would help direct that subsidy to the people who 
need it the most.
    But, knowing that reform of that particular deduction is 
challenging, to say the least, and that comprehensive tax 
reform may be on the table, but will also be challenging to 
accomplish, you know, thinking about ways to tax advantage 
programs that help lower-income borrowers get into housing is 
very important and I would love to talk to you more about that.
    Senator Merkley. Thank you, because I think we spent about 
$70 billion on the mortgage interest deduction.
    Ms. Gordon. Yeah. Yeah.
    Senator Merkley. It would take just a few billion dollars 
to provide these credits at the lower end. So, I like to think 
of it as ``yes plus'' if you will, the possibility.
    I also wanted to--does anyone else want to make any 
comments on that?
    Ms. Goldberg. I would add just one thing, which is that I 
think it is a very interesting idea, as well, and agree that 
the way we handle the mortgage interest deduction definitely 
disfavors people with modest means, which often means people of 
color.
    But, I also want to say that I think it is important for us 
not to fixate on downpayment. The downpayment is a huge hurdle 
for people of modest means to get into home ownership, and the 
truth is that if we look back beyond this most recent period of 
trouble in the mortgage market, we find that we actually know 
how to make low downpayment loans that are very sustainable, 
affordable and sustainable. If you do it right, with the right 
product, it helps to have housing counseling along with it, and 
we have a long history, actually, of being able to make low 
downpayment loans to low- and moderate-income people that are 
extremely successful, and we need to remember that history and 
revive that approach. Then, the IDA program will get you a lot 
farther and there will be fewer people who need that kind of 
help to get over the hurdle of getting into home ownership.
    Senator Merkley. Yes, fair point, Deborah. But, even with 
low downpayment loans, the downpayment and the closing costs 
together can still be a substantial hurdle to undertake.
    Ms. Goldberg. That is right.
    Senator Merkley. But, the type of thing I was just 
describing does not help just with the downpayment. It helps on 
an annual basis when you do not utilize the mortgage interest 
deduction as an alternative----
    Ms. Goldberg. The ongoing cost----
    Senator Merkley. As ongoing costs, yes. And, so, it mimics 
the effect of the mortgage interest deduction, if you will.
    I am out of time. So many questions, so little time. Thank 
you all very much.
    Chairman Menendez. Well, we are going to have another 
round, so if you want to stick around, you will maybe have--if 
your schedule permits. But, let me--and I know Senator Reed is 
going to be returning shortly. He has a very significant 
interest.
    Let me--there is so much here. First of all, Ms. Goldberg, 
I am glad you raised the history of the low downpayment program 
and its efficacy and its success. I think it is going to be 
under siege in the next Congress, so we are going to have to 
remind people about the facts, not the creation of the image, 
and that is going to be a challenge.
    I want to get, since part of the focus of why I wanted this 
hearing, in addition to where we are at and what our challenges 
are, is also to drive here a point that I think is very real, 
and that is, certainly for many families, the whole essence of 
home, in addition to being the place that we nurture our 
families and raise them, represents the most significant, or in 
some cases the only source of savings. And, for half of 
American families, for example, home equity accounts for at 
least 60 percent of their net worth, including nearly 70 
percent for the typical Latino family and about 60 percent for 
African American families, and almost 80 percent for families 
in the bottom 25th percent of income earners.
    So, with those numbers in mind, what is the implication of 
the current credit conditions for savings, wealth building, and 
income mobility? It seems to me that that is rather 
challenging. And, one of the things that we just--I think I 
perceive from this last election is despite every major 
macroeconomic indicator, you know, the 6 consecutive years of 
private job sector growth, the lowest unemployment in 6 years, 
the lowest deficit in 6 years, the lowest deficit as a percent 
of the economy by 40 years, the low gas prices, I mean, I could 
go on and on and on, but what is the reality for most families, 
is that incomes have been stagnant. If you add to that, then, 
the inability to have the single most significant source of 
asset and wealth to be stuck or not attainable, then you are 
creating an even more caste set of circumstances in our 
society. So, I would like to hear some of you address that, 
anyone who wishes to.
    Ms. Goldberg. Sure. Yes, it is absolutely true. 
Particularly for families of color, home equity has tended to 
be the largest single asset that they have. It is an asset that 
can be passed intergenerationally and that has been used very 
powerfully in many moderate-income neighborhoods around the 
country. Those neighborhoods were particularly devastated by 
the foreclosure crisis. They were the first neighborhoods 
targeted. They were equity stripped before we even invented 
some of the toxic products that eventually took down the whole 
superstructure. It has left people of color in a very bad 
position in terms of wealth. I mean, if Whites lost about a 
quarter of their net worth over the course of the crisis, 
African Americans and Latinos lost 50 or 60 percent of their 
net worth. It is really--it is really frightening and the 
disparity is huge.
    You know, also, going forward in the mortgage market, the 
majority of family formation is going to be people of color, 
and if we want to have a healthy mortgage market, if the White 
baby boomers want to someday sell their houses, we are going to 
have to find a way for people of color who are now even lower 
wealth than they were before the crisis to be able to come in 
and buy these houses.
    And, honestly, I think this is a national emergency and 
that we need to think very creatively and boldly about how we 
solve this problem.
    Chairman Menendez. And, as some of you others answer, I 
wonder if you have any policy considerations for how we improve 
access to affordable home ownership for creditworthy borrowers. 
I do not want to lose sight that we are still looking for 
creditworthy borrowers. Ms. Guzman and then Mr. Meyer.
    Ms. Guzman. Well, absolutely. I was--I participated in the 
Neighborhood Stabilization Program, which targeted 25 
communities in the city of Chicago, and predominately 
communities of color that were hardest high by foreclosures. A 
lot of those properties were bought through that program, and 
the first initial round was $55 million and Realtors played a 
big role helping the NSP recipient to actually buy a lot of 
those properties and then reintegrate them into the market. 
Additionally, they set up programs where first-time borrowers 
would have counseling. And, additionally, they would help them 
with closing costs. But, at the end, there were 2,000 units 
that were purchased. It is now a national model.
    And, on the competitive bid for the NSP on the second 
round, it was $98 million was awarded to the city because of 
the success of the program, and it continues to grow. Four 
thousand units of housing were created, 75 percent rental, 
because, again, the market was in freefall. But, many 
communities were stabilized, and mostly in communities of 
color.
    It is wealth building. It is a wealth builder. It changes 
the dynamic of a family. To have prosperity, economic self-
reliance, we really do need to reintroduce these borrowers back 
into their communities to create that stabilization and also 
economic prosperity for themselves.
    Chairman Menendez. Mr. Meyer.
    Mr. Meyer. I agree that wealth building is such a 
challenge, and Senator, I may even take it a step further. In a 
lot of the neighborhoods where we work, more than 50 percent of 
the renters pay more than 50 percent of their income toward 
housing, which leaves them with very little other room for 
food, for health, for education. So, it is not just about 
wealth building. It is also about being able to put your 
housing costs into line with your income.
    So, what Ms. Guzman's point was around, the NSP program, I 
agree, that was a significant program. But, we are in an age of 
limited, shrinking Government resources. So, in New Jersey, for 
example, we receive $65 million of NSP monies. I think we did 
maybe a little less than 300 units with these funds, which is 
not a lot. And one of the policy changes we can make is to 
increase access to FHA mortgages, because through that alone, 
we have bought 800 mortgages at a discount. So we are able to 
repurpose 300 of these properties that are vacant or tenant-
occupied for just a fraction of the cost of doing 300 units 
through NSP. I think that is a significant consideration.
    So, then the challenge becomes how do we put into the hands 
of nonprofits and others the inventory of assets that can 
create these opportunities for low- and moderate-income 
families rather than only selling them into private equity 
firms. I think DASP is a great opportunity to do that. I really 
do believe that. And, I think this opportunity is going to pass 
us if we do not act quickly on it.
    Chairman Menendez. In this regard--and I want to turn back 
to Senator Warren, but just to keep this train of thought while 
we have it--Ms. Gordon, in your testimony, you discussed the 
FHFA's recent announcement about allowing Fannie and Freddie to 
resume backing well underwritten loans with downpayments as low 
as 3 percent in cases where borrowers can demonstrate their 
creditworthiness and ability to repay and with other 
compensating factors. What is the track record for well 
underwritten loans with lower downpayments with other 
compensating factors?
    Ms. Gordon. The track record is good. I mean, at Fannie and 
Freddie themselves, the difference in performance between a 3-
percent down and a 5-percent down is almost indistinguishable, 
and we have worked with the Center for Community Self-Help--I 
actually used to work there--where we had a portfolio of many, 
many thousands of mortgages that were low-downpayments 
mortgages made to families with nontraditional credit histories 
or thin files and that were properly underwritten and were 
safe, sustainable 30-year fixed-rate mortgages, and we actually 
had a grant to follow very closely the performance of those 
mortgages and so we have been tracking them carefully 
throughout the crisis, and that portfolio of loans, which, 
really, many people might have looked at and said, really, do 
you want to make these loans, they have performed better than 
any other cohort of loans except for the very prime fixed-rate 
mortgages. They have performed better than adjustable rate 
prime. They have performed better than any all day or subprime 
categories.
    Chairman Menendez. So, these were not the drivers of the 
crisis.
    Ms. Gordon. These were not the drivers of the crisis.
    Chairman Menendez. I ask, because we are going to hear the 
opposite of that.
    Senator Warren.
    Senator Warren. Well, what does it mean when you say you 
are going to hear the opposite?
    Chairman Menendez. No, no----
    [Laughter.]
    Chairman Menendez. No, no, we are comrades in arms on here.
    Senator Warren. We certainly are on this one.
    So, I want to actually, though, ask you about another part 
of this. I want to raise another issue, and that is when a 
Fannie- or Freddie-owned mortgage goes into default, Fannie or 
Freddie buys the property and then resells it, and last year 
alone, Fannie sold more than $2.8 billion worth of property. 
So, when these notes are sold to homeowners rather than to 
investors or absentee landlords, families do better, 
neighborhoods do better.
    So, FHFA has a First Look policy that gives families and 
individuals first crack at buying these repossessed properties 
before the bidding is opened up to investors, but the policy is 
not working. The houses are priced so high during the First 
Look period--significantly above market value, according to 
many reports that we hear--that regular buyers do not really 
have a shot at this. The prices come down only later, when 
investors are moving in.
    So, I thought I would start with you again, Ms. Guzman. As 
a Realtor, you have firsthand experience with the difficulties 
that borrowers are facing in today's housing market. How do you 
think Fannie and Freddie could better ensure that these notes 
end up in the hands of owner-occupants?
    Ms. Guzman. Well, it is beyond the First Look. I mean, 
getting the First Look and then being able to submit an offer 
right away, also, in a timely response on that offer, is 
completely different than the First Look, let the clock run out 
10 days later, then it is a multiple-bidding process. That 
seems--you know, they say they want to support owner occupancy, 
but we find that it really kind of confounds everything.
    As I said, working with several buyers, it has been a 
multiple offer process. You know, they are writing five, six 
offers just to get into housing. The Vasquez family, I mean, 
with their three children, it ended up that we did not even get 
into a Fannie Mae property. We actually worked with a private 
seller and it worked out just fine.
    But, the First Look, it has to be more than First Look. It 
has to be First Look, first bid.
    Senator Warren. Good.
    Ms. Guzman. Give them a crack, and then after that, if it 
does not succeed, then, fine. Then go ahead and reintroduce it 
to the public and let the private market go at it. But, it has 
to be First Look, first bid.
    Senator Warren. Good. Thank you.
    Anybody else want to add on the First Look? Ms. Goldberg.
    Ms. Goldberg. So, our recommendation would be to extend the 
First Look period longer, but also, that any time the price 
drops, there should be a new First Look period----
    Senator Warren. Oh, interesting.
    Ms. Goldberg. ----so that, once again, people who want to 
live in the home as opposed to use it as an investment have an 
opportunity to take a shot at it.
    And, in addition, we would recommend that we remove the 
incentives for the preference for cash offers. We understand 
that a lot of times the real estate agents who list these 
properties are paid incentives to move things quickly. This 
means that when they get two offers, one of which requires the 
buyer to get a mortgage and the other one of which is a cash 
offer, if they're going to get a bigger commission if they move 
the property quickly, then they're going to go for the cash 
offer that can settle immediately without having to worry about 
whether and when the mortgage is going to come through.
    When it comes to both foreclosed properties and 
nonperforming loans that are under the control of either 
Government agencies, such as HUD, or Government-controlled 
entities, such as the GSEs, we need to be looking at these as 
resources to help stabilize communities. That means our 
approach to disposing of these assets needs to be mindful of 
both the bottom line for the agencies involved and also the 
bigger neighborhood stabilization efforts that are really 
needed. Those help shore up all the other mortgages and all the 
other properties in those same neighborhoods.
    So, we should make some changes to the First Look process 
so that we do not create incentives for investors and cash 
offers to get a preference. We actually have a settlement with 
Wells Fargo as a result of some of our REO work and a complaint 
that we filed with HUD under the Fair Housing Act. That 
settlement includes provisions addressing the First Look 
process. It mandates that any time there is a cash offer to buy 
a Wells REO and at the same time there is an offer from a 
prospective owner occupant that is as good or better but 
requires financing, the noncash offer must get preference. We 
would recommend that this be instituted across the board in 
First Look programs.
    Senator Warren. Thank you----
    Ms. Guzman. I need to respond to that.
    Senator Warren. I will let Ms. Guzman respond, and then Mr. 
Meyer.
    Ms. Guzman. I think it is ultimately, when offers come in 
and they are cash and/or if they are financed, we always 
recommend the financed deal, because, actually, it is a better 
price. So, we do not actually lean toward the cash investor 
ever. We want it to be----
    Senator Warren. You mean, we, the real estate----
    Ms. Guzman. We, the real estate, the Realtors----
    Senator Warren. The Realtors----
    Ms. Guzman. I have represented REO properties for Bank of 
America and I have friends who worked on Fannie Mae properties, 
as well, and what it comes down to is that the investor--that 
person on the end that you do not see is making a decision to 
go with cash, even though we believe that the financed deal is 
a better deal. It is a better price. But, they do not want to 
wait. They do not want to wait. They would rather go ahead, 
especially, in many cases, just go with cash, because they 
figure it is going to be a clean deal and that is it.
    Senator Warren. Same outcome.
    Ms. Guzman. Yes.
    Senator Warren. Mr. Meyer.
    Mr. Meyer. Senator, we have a fair amount of experience 
with the First Look Program, both with Fannie Mae and also 
through the National Community Stabilization Trust, and our 
experience is that they need more time. It would be helpful. 
But, we also advocate for a last look, because all too often, 
the price does come down and then the homes ends up in the 
hands of an investor. But the homeowner or nonprofit could have 
purchased it first if they had more time to do so.
    And, I have an example of that. About 2 years ago, I was 
working with Fannie Mae on a bulk transaction where we were 
going to buy 40 properties in a very targeted neighborhood and 
we thought it was an opportunity for us to really increase home 
ownership and also build neighborhoods. We could not get to an 
agreement on price. At the end of the day, they ended up 
selling it for less. You know, they ended up breaking it up and 
selling it into the market, but the price kept dropping and 
dropping and dropping. And, of course, nothing good happens 
when these properties sit on the market vacant. So I urge the 
consideration of a ``last look'' where homeowners and 
nonprofits have a final opportunity to buy before the 
properties end up in the hands of investors.
    I think another area where we can have success--and I 
really do believe this--we entered into a direct sale of 
nonperforming mortgages from FHA--it was to help with Sandy 
recovery. We purchased 517 mortgages. We paid a premium. The 
Office of Management and Budget calculated that premium. But, 
it was worth it for us to be able to get control of those 
assets and be able to repurpose them for the community 
stabilization outcomes we thought important: number one, 
keeping family in their home, and number two, when houses were 
vacant, to to offer them as affordable housing opportunities.
    I would urge that this direct sale approach continue to be 
developed, both at FHA and FHFA, and that they tighten the 
neighborhood stabilization outcomes to make sure that these 
properties do end up being used for community stabilization 
purposes.
    Senator Warren. Well, I want to thank you all for these 
comments. They are very helpful.
    You know, I just think it is very important that the First 
Look Program actually work to help keep homeowners in homes and 
to help stabilize communities, not, as you say, a box to be 
checked off before the property gets shipped over to investors. 
So, thank you. It is really important. And, I appreciate all 
the ideas you have got for how it is that this program could be 
changed to make it more effective for families and more 
effective for communities. Thank you.
    Thank you, Mr. Chairman.
    Chairman Menendez. Thank you.
    One last question. Ms. Goldberg, you know, I guess maybe I 
know this or knew it, but hearing it from you is really 
bothersome to me, and that is the question of the differences 
on how foreclosed homes are treated in different communities. 
And, if a foreclosed property is less well managed in 
communities that are already facing challenges, does that not 
create a self-fulfilling prophecy that it is going to make it 
harder for it to recover at the end of the day?
    Ms. Goldberg. That is right, and it has a tremendous impact 
not only on the people who lost their homes, obviously, but on 
all the surrounding properties and then on the larger community 
and the resources available to the city to provide the kinds of 
services that are needed.
    You know, it has been estimated that the foreclosure crisis 
and the loss in value of property as a result is going to lead 
to about $2.2 million in wealth drained out of communities 
across the country, and half of that, $1.1 trillion--did I say 
trillion? I meant trillion. One-point-one trillion----
    Chairman Menendez. Around here, millions, you know, get 
lost, so----
    Ms. Goldberg. Yeah----
    [Laughter.]
    Ms. Goldberg. One-point-one trillion is expected to be 
drained from communities of color. So, the way these properties 
are managed and maintained and marketed is a huge piece of 
that. And making the First Look program work for prospective 
owner occupants is important, as well, because one of the 
things we found in our investigation is that certain 
neighborhoods become targeted by the owners of the REOs--
whoever those may be, whether that is a bank or a GSE or some 
other investor--they become targeted as investor communities 
and then they put less money into fixing that house up and 
maintaining that house. And, so, then it adds to your self-
fulfilling prophecy because those homes then become less 
attractive to a homeowner who is going to have to put a bundle 
of money into it to make it the kind of house they want to live 
in.
    And, so, dealing with these problems, creating the kinds of 
standards that we really need for marketing and for maintenance 
of these properties, making sure that the companies that are 
hired to do that work on the ground have the qualifications, 
making sure that the Federal agencies who oversee this whole 
process take that responsibility seriously and conduct that 
oversight, conduct enforcement where it is needed, that is a 
big piece of solving the puzzle, as well.
    Chairman Menendez. So, this was your entity's own 
investigation.
    Ms. Goldberg. That is right. We worked with 17 of our 
members across the country, but, yes.
    Chairman Menendez. Well, and you also said that this was a 
violation of the Fair Housing----
    Ms. Goldberg. That is right. So, that gives us another tool 
for addressing the problem.
    Chairman Menendez. Well, maybe we need an Inspector 
General's report.
    It is unimaginable to me that with challenges already 
existing in communities like this, that there would be added 
with another challenge in which their properties would become 
less marketable at the end of the day as a result of a 
purposeful neglect, because you have to think of it as 
purposeful at the end of the day. It is obviously a judgment by 
those who own the REOs to treat them in a different way.
    Ms. Goldberg. That is right.
    Chairman Menendez. If that is the findings, then we need to 
act upon that. That is very insightful.
    Well, with the thanks of the Committee for all of your 
insight, this record is going to be open for 7 days. I feel 
that there may be questions coming to you, so we would ask you 
to answer them as expeditiously as possible so we can complete 
the record.
    And, with that, this hearing is adjourned.
    [Whereupon, at 12:28 p.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
                  PREPARED STATEMENT OF WAYNE T. MEYER
                President, New Jersey Community Capital
                            December 9, 2014
Introduction
    Senator Menendez and Members of the Subcommittee, thank you for 
this opportunity to speak with you about New Jersey Community Capital's 
efforts to advance the housing and foreclosure recovery. I am honored 
that our experience may be of value in your consideration of solutions 
for communities across the Nation that continue to struggle with the 
devastation of the foreclosure crisis.
    My name is Wayne Meyer, and I am the President of New Jersey 
Community Capital, which is the largest nonprofit community development 
financial institution, or CDFI, in the State of New Jersey. I would 
like to share with you several approaches that my organization has been 
taking to prevent and mitigate foreclosures and to stabilize distressed 
housing markets in New Jersey. But first, I think it is important to 
discuss the challenges facing our State, because while the housing 
market has begun to turn the corner in some places, New Jersey is still 
very much in a housing crisis.
Challenges
Ongoing Foreclosures
    As of June 2014, 5.7 percent of homes in New Jersey were in 
foreclosure and 9.3 percent more were seriously delinquent. \1\ Those 
are the highest rates in the Nation. 12.8 percent of mortgaged homes in 
the State had negative equity--that equals 240,000 additional homes 
still threatened by foreclosure and abandonment. \2\ Moreover, 
foreclosures are actually increasing in New Jersey due to its prolonged 
foreclosure process: in October 2014, foreclosure auctions across the 
State were 118 percent higher than in the prior year, the third highest 
jump in the Nation. \3\
---------------------------------------------------------------------------
     \1\ CoreLogic. National Foreclosure Report, June 2014.
     \2\ CoreLogic. Equity Report, Second Quarter 2014.
     \3\ RealtyTrac. U.S. Foreclosure Market Report, October 2014.
---------------------------------------------------------------------------
    These numbers reflect dire outcomes, especially in low-income 
areas: hundreds of thousands of families facing the severe negative 
outcomes of debt and displacement; communities facing high vacancies 
and declining property values and their dire consequences on public 
health and safety; and a State facing major budget deficits in large 
part due to the crisis, which affects all of its residents.
Barriers to Stable Housing
    It is also worth noting the barriers faced by many lower-income 
families trying to recover from the crisis and to regain housing 
stability. First, mortgage credit has become increasingly inaccessible: 
over the last 2 years, almost 98 percent of new mortgages have been 
extended to buyers with credit scores over 640, which is out of reach 
to even most financially stable moderate-income families, and while 
Fannie Mae and Freddie Mac's new guidelines will relax mortgage credit 
standards, the impact of these changes will take time to take effect. 
\4\ In New Jersey, the number of available home purchase loans 
decreased by 55.1 percent from 2001 to 2012, the second largest decline 
in the country. \5\ So stable home ownership is less and less of an 
option for recovering families.
---------------------------------------------------------------------------
     \4\ Joe Light, ``Mortgage Lenders Set To Relax Standards'', Wall 
Street Journal, Nov. 28, 2014.
     \5\ Laurie S. Goodman, Jun Zhu, and Taz George, ``Where Have All 
the Loans Gone? The Impact of Credit Availability on Mortgage Volume'', 
Journal of Structured Finance 20, No. 2 (2014).
---------------------------------------------------------------------------
    At the same time, New Jersey has the fourth highest rental costs of 
any State, and these costs are rising, \6\ even as wages for the bottom 
50 percent of New Jersey wage earners has declined by a dollar per hour 
in the past year. \7\ As a result, many more lower-income families are 
spending over 50 percent of their income on rental housing, in turn 
causing even greater economic and housing insecurity, with impacts that 
span generations. This cycle is hurting families across the State 
today, and without effective interventions, they will hurt thousands of 
additional families as foreclosures continue to release debt-ridden 
households into a high-cost rental market with extremely insufficient 
affordable housing options.
---------------------------------------------------------------------------
     \6\ National Low-Income Housing Coalition. Out of Reach 2014, 2014 
State Summary.
     \7\ Legal Services of New Jersey. Assessing New Jersey's Progress 
in Combatting Poverty, September 2014.
---------------------------------------------------------------------------
Solutions
    For New Jersey Community Capital, an equitable and healthy housing 
market has always been and remains a fundamental pillar for stabilizing 
neighborhoods and increasing the well-being and economic mobility of 
lower income families. As first and foremost a community development 
lender, we annually invest millions of dollars into the creation and 
preservation of hundreds of affordable housing units, both for sale and 
rental. In a difficult financial climate, we have diversified funding 
sources and created new medium-term lending products to continue to 
provide flexible capital for this purpose.
    But we know that this is not enough--development capital by itself 
does not prevent foreclosures or make mortgage credit more accessible, 
nor does our lending activity begin to approach the scale necessary to 
meet New Jersey's growing unmet affordable rental housing needs. So we 
have taken up the task of innovating additional solutions to 
stabilizing New Jersey's housing markets.
ReStart
    The first of these solutions is a program we call ReStart. In 2012, 
we leveraged major investments from several financial partners to 
acquire two ``NSO targeted'' pools of nonperforming mortgages through 
the FHA's Distressed Asset Stabilization Program, a total of 261 
mortgages in the areas of Newark, NJ, and Tampa, FL. A year later, we 
partnered with private investors to directly purchase a pool of 517 
additional nonperforming FHA mortgages in the nine New Jersey counties 
most impacted by Superstorm Sandy. Cumulatively, the total unpaid 
principal balance on these mortgages was over $190 million.
    We were the only nonprofit to successfully win bids for multiple 
DASP mortgage pools, and the only thus far to complete a direct 
purchase from FHA. We are also the loss mitigation manager for a 
private purchaser of DASP pools in both Florida and North Carolina. We 
are using the provision of Hardest Hit Funds from each State and our 
existing mortgage resolution infrastructure to manage and resolve all 
occupied homes under the mortgages in their pools, a total of more than 
300 homes that will be stabilized.
    Through ReStart, we are striving to produce 100 percent positive 
outcomes for homeowners and properties under the mortgages we acquire 
or manage. We first look to provide principal reductions to the 
distressed homeowners still occupying the homes, preventing their 
foreclosure and displacement. We are generally able to reduce the 
mortgages to 100 percent of current market value, with mortgage 
payments at under 35 percent of monthly income. We also provide these 
homeowners with high-touch financial counseling through local HUD-
approved agencies, ensuring that they are stabilized for the long-term. 
So far, we have provided over 250 successful principal reductions, 
totaling over $18 million in forgiven principal, to families in need.
    Mortgage modifications are just one component of the ReStart 
program, and not every home is owner-occupied, and not every occupant 
is in a position to sustain ownership. For homeowners who cannot or 
choose not to pursue a mortgage modification, we offer deeds-in-lieu of 
foreclosure and transitional assistance to help them attain new 
affordable housing. And for units that either were vacant or tenant-
occupied--which account for about 45 percent of the units under 
mortgages we acquired--or become vacant over the course of the program, 
we are working with local community developers and contractors to 
rehabilitate them into new quality affordable housing opportunities.
CAPC
    Our second major community stabilization innovation is Community 
Asset Preservation Corporation, or CAPC, which we incorporated as a 
real estate affiliate in 2009. The foreclosure crisis has almost 
entirely impacted one-to-four-family homes, but in the State of New 
Jersey, there has been a dearth of affordable housing developers with 
the capacity to compete with speculators to acquire these abandoned 
real-estate-owned homes at a scale large enough to begin to reverse 
trends of neighborhood decline.
    Over the last 5 years, CAPC has used its capacity and expertise to 
acquire over 320 housing units, the vast majority of which have been 
clusters of single-family properties, and it has partnered with local 
community developers in order to return them to productive affordable 
housing. CAPC has also developed the capacity to manage many of these 
properties as rental housing, which is a critical and otherwise unmet 
function that both ensures the productive occupancy of these units and 
meets the needs of the growing number of low-to-moderate income renters 
in New Jersey.
    CAPC will be serving a critical role in ReStart by acquiring and 
fostering the redevelopment of a number of the vacant ReStart 
properties. CAPC has also partnered with the City of Newark to serve as 
the lead redeveloper for 156 vacant properties that are primarily 
clustered in four distressed neighborhoods that the City is targeting 
for revitalization. CAPC is continuing to work with local partners to 
redevelop and reoccupy these units. It has also begun a series of 
trainings to help local contractors build their capacity to partner on 
this effort and in other local redevelopments, and it has committed to 
providing the majority of the construction jobs through this program to 
local workers.
Mortgage Bank
    Our next major step is the collaborative expansion of a Credit 
Union Service Organization (CUSO) to provide direct access to stable 
mortgage credit and credit counseling to qualifying prospective low- to 
moderate-income homebuyers that cannot access mortgages in the 
traditional market. We are currently developing a partnership with a 
major New Jersey-based credit union to build this platform.
    The CUSO will originate and service CRA-qualifying mortgages for 
potential low-to-moderate income buyers of formerly abandoned 
properties that we have redeveloped into affordable housing through 
ReStart or CAPC or have financed through our loan products, as well as 
buyers of other affordable for-sale homes across New Jersey. Each of 
these buyers will be required to complete credit counseling through an 
NJCC-approved agency, which NJCC will compensate for services, and 
therefore the buyers will be pre-approved for the available mortgage 
products. NJCC and its partners will also provide eligible homebuyers 
with access to downpayment assistance programs and other subsidies. We 
believe we can launch this critical effort within the next year.
Needs
    Between our flexible lending products and the programs I have 
outlined for you today, New Jersey Community Capital is seeking to 
foster the comprehensive stabilization of New Jersey's distressed 
families and communities: not only providing financing for rental 
housing, but directly developing and managing it on a large scale; not 
only preserving home ownership, but creating new pathways to it. And we 
believe that these are models that could be replicated in distressed 
communities across the country.
    But for these efforts to operate on the scale necessary to really 
bring New Jersey another step closer to recovering from its persistent 
foreclosure crisis, they require partnerships and resources from 
Federal and State government and from private financial institutions. 
Decision makers in each sector can together provide large-scale access 
to distressed mortgages and vacant properties and can make available 
substantial financial resources that will produce both social outcomes 
and substantial direct and indirect returns on investment. Today, I 
would like to suggest several low-cost or no-cost approaches that 
Federal legislators and agencies could take to advance these steps to 
recovery, in New Jersey and elsewhere.
Improving Access to Nonperforming Mortgages
    To expand ReStart to more homeowners and more vacant properties, 
NJCC has relied on access to discounted pools of nonperforming FHA 
mortgages offered through DASP program auctions. The DASP program has 
been a huge and vital resource in our efforts to scale up our 
foreclosure recovery efforts. The program has preserved homes, 
minimized foreclosures, protected property values, and promoted broad-
based community stability, and from our perspective, it is one of the 
last remaining foreclosure recovery programs to preserve and create 
home ownership for low- to moderate-income communities at significant 
numbers.
    However, this program has become increasingly dominated by profit-
driven private investors, which have won bids on 98 percent of DASP 
loans, including 88 percent in designated Neighborhood Stabilization 
Outcomes (NSO) pools. We believe that it is critical that FHA refine 
the DASP auctions to make them more accessible to nonprofits and 
community-based organizations. Thus far, studies of the program have 
shown that nonprofits and community-based organizations have produced 
far more positive outcomes for homeowners and for communities.
    There are several straightforward solutions to this challenge. FHA 
could complete more direct sales of these mortgages to nonprofits, 
especially in NSO areas, where positive neighborhood outcomes such as 
foreclosure prevention and affordable housing creation are of 
especially high importance. Also, FHA could tighten NSO requirements by 
awarding additional points to those committed to social outcomes, or it 
could set aside certain mortgage pools on which socially motivated 
nonprofits would have the first option to bid. Finally, FHA could 
heighten minimum NSO outcomes, such as requiring that a certain portion 
of vacant properties be redeveloped and sold or rented as affordable 
housing.
Continuing Programs To Finance Principal Reductions
    Studies have shown that principal reductions are more effective 
than almost any other foreclosure prevention strategy, especially when 
paired with counseling. And these modifications benefit everyone 
involved: the homeowners, the neighborhoods, the mortgagees, and the 
local and State governments. But funds that are critical for producing 
affordable principal reductions have been difficult to access, and even 
more so now that Hardest Hit Funds are no longer available. We hope 
that similar funds can be made available for affordable principal 
reductions in places like New Jersey where the foreclosure crisis is 
still ongoing, including Department of Justice Settlement Funds. If 
more available, these funds could carry a program like ReStart to 
thousands more distressed homeowners.
    An alternative approach would be to incentivize financial 
institutions to partner with nonprofits to directly provide principal 
reductions to distressed homeowners under mortgages they are servicing. 
We are currently working with one major financial institution to 
directly acquire over 500 mortgages located in communities we serve, 
but this transaction is just one of many that could occur if greater 
incentives were in place. These incentives could take the form of CRA 
credits or a number of other benefits.
    We also believe that similar incentives--CRA credits perhaps being 
the best example--could spur financial institutions to increase access 
to stable mortgage credit for qualifying low-to-moderate-income 
families who are truly ready for home ownership. This could include the 
purchase of nonperforming mortgages that are modified and stabilized 
through programs like ReStart, as well as mortgages that have been 
seasoned though a program like our developing CUSO and would attain 
long-term success by being transferred into the conventional mortgage 
market.
Expanding the CDFI Bond Guarantee Program
    Lastly, while we have used our existing resources and creativity to 
expand our provision of capital for affordable rental housing 
development, we simply do not have sufficient access to long term 
capital that is truly necessary for large-scale rental housing 
investments. The CDFI Bond Guarantee Program has the potential to be a 
truly momentous program in transforming the ability of CDFIs like ours 
to foster the large-scale creation of affordable rental housing, an 
especially severe need in places like New Jersey. The extension and 
expansion of this program will be transformative for the communities we 
serve.
Conclusion
    In conclusion, I would once again like to thank the Members of the 
Subcommittee for their time and attention to this critical issue of 
saving our neighborhoods from the detrimental impact of foreclosures. 
And I would like to acknowledge Senator Menendez' leadership in helping 
residents of our at-risk communities across our State. I hope this 
conversation can continue, as I believe that, with the right set of 
policies and programs, we can truly stabilize our distressed 
communities, to the benefit of everyone.

                   PREPARED STATEMENT OF MABEL GUZMAN
    2014 Chair, Conventional Finance and Policy Committee, National 
                        Association of Realtors
                            December 9, 2014
                            
                            
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                            
                            
                            
                    PREPARED STATEMENT OF JULIA GORDON
  Director of Housing Finance and Policy, Center for American Progress
                            December 9, 2014
    Good morning Chairman Menendez, Ranking Member Moran, and Members 
of the Subcommittee. My name is Julia Gordon, and I direct the housing 
finance team at the Center for American Progress, a nonpartisan think 
tank dedicated to improving the lives of Americans through progressive 
ideas and action. Thank you so much for convening this hearing on the 
critical topic of inequality and opportunity in the housing market. I 
greatly appreciate the opportunity to testify today about the state of 
our housing recovery and its relationship to the well-being of families 
and the broader economy.
    Research and our lived experience confirm the link between housing 
and opportunity in this country, from the many benefits of home 
ownership for families and communities to the central role of the 
housing economy on economic vitality. A healthy housing market, when 
coupled with appropriate protections to ensure responsible and 
sustainable lending, offers opportunities for young people to begin 
building wealth through home ownership, for growing families to access 
good schools and high-opportunity neighborhoods, and for older people 
to choose whether to age in place or seek a smaller or more supportive 
environment.
    Yet at present, our Nation's housing recovery is neither strong nor 
equitably distributed. Not only has the mortgage market shrunk 
nationally, but many communities, especially communities of color, lag 
far behind other parts of the country, with hard-hit neighborhoods 
continuing to suffer the ongoing effects of multiple foreclosures, 
negative equity, vacant homes, and blight. We have turned back the 
clock nearly 20 years on home ownership rates, and rental costs are 
soaring relative to incomes. \1\
---------------------------------------------------------------------------
     \1\ Prashant Gopal, ``U.S. Homeownership Rate Falls to the Lowest 
Since 1995'', Bloomberg, April 29, 2014, available at http://
www.bloomberg.com/news/2014-04-29/u-s-homeownership-rate-falls-to-the-
lowest-since-1995.html; Joint Center for Housing Studies of Harvard 
University, ``America's Rental Housing: Evolving Markets and Needs'', 
(2013) Table A-1, available at http://www.jchs.harvard.edu/sites/
jchs.harvard.edu/files/ahr2013_appendix_tables.pdf.
---------------------------------------------------------------------------
    Historically, the housing sector has led economic recoveries 
following downturns. Unfortunately, the market is not yet strong enough 
now to play that role, which is one of the reasons why the overall 
recovery still has a lot farther to go. While we have had 57 months of 
consecutive private sector job growth, too many people are still out of 
work or underemployed, small business formation remains depressed, \2\ 
and consumer demand has not rebounded sufficiently. The combination of 
stagnant wages and rising costs for basic needs, including housing, has 
squeezed the budgets of all families in America, with the result that 
entering or even staying in the middle class has become increasingly 
difficult. \3\
---------------------------------------------------------------------------
     \2\ U.S. Census Bureau, ``Business Dynamics Statistics'', 
available at http://www.census.gov/ces/dataproducts/bds/.
     \3\ Center for American Progress, ``The Middle-Class Squeeze'', 
(2014), available at https://www.americanprogress.org/issues/economy/
report/2014/09/24/96903/the-middle-class-squeeze/.
---------------------------------------------------------------------------
    Despite this bleak picture, we see many options for policy choices 
that can help strengthen the housing market, aid struggling families, 
and revitalize hard-hit neighborhoods. In this testimony, we provide a 
set of recommendations to help. While no single recommendation is a 
silver bullet, taken together, we believe we could move the dial 
significantly. Many of these recommendations do not require legislative 
action, but can be accomplished by regulatory agencies, while others 
would require Congress to act.
    To increase access to safe and affordable credit, we recommend:

  a.  Congress should complete comprehensive reform of the housing 
        finance system.

  b.  The Federal Housing Finance Agency should play a powerful role in 
        increasing access to credit.

  c.  As a provider of credit to so many underserved populations, the 
        Federal Housing Administration should continue to improve 
        access to and affordability of credit.

  d.  Congress and regulators should support alternative mortgage 
        channels, innovative products to reach underserved borrowers, 
        and effective housing counseling.

  e.  Congress should extend the Mortgage Forgiveness Debt Relief Act, 
        and it should convert the mortgage interest deduction to a tax 
        credit.

  f.  Regulators should collect better mortgage data to help identify 
        problems and potential solutions in the market.

    In addition, to assist struggling families and neighborhoods, we 
recommend:

  a.  FHA should improve its Distressed Asset Sale Program to better 
        promote home retention and neighborhood stability.

  b.  FHFA should take additional steps to aid struggling homeowners 
        and communities.

  c.  The Consumer Financial Protection Bureau should continue to 
        improve its servicing rules.

  d.  Policymakers should take steps to help renters, particularly very 
        low-income renters.
Background: The State of the Housing Market
    Overall, the national mortgage market today is significantly 
smaller than it was before the Great Recession, both in terms of 
overall volume and home sales. \4\ The national home ownership rate has 
dropped from close to 70 percent to 64 percent. Cash investors made 29 
percent of all purchases in 2013, way above their historic norm of 10-
12 percent. \5\ Housing starts remain depressed, and even optimistic 
projections for 2015 remain well below levels seen before the housing 
boom. \6\
---------------------------------------------------------------------------
     \4\ Johnathan Miller, ``Real-Estate Appraisals Are Bubbly Again'', 
Bloomberg View, December 4, 2014, available at http://
www.bloombergview.com/articles/2014-12-04/back-to-inflated-realestate-
appraisals.
     \5\ Realtytrac, ``Short Sales and Foreclosure Sales Combined 
Accounted for 16 Percent of U.S. Residential Sales in 2013'', Press 
Release, January 22, 2014, available at http://www.realtytrac.com/
content/news-and-opinion/december-and-year-end-2013-us-residential-and-
foreclosure-sales-report-7967.
     \6\ Bill McBride, ``Preliminary: 2015 Housing Forecasts'', 
Calculated Risk, October 31, 2014, available at http://
www.calculatedriskblog.com/2014/10/preliminary-2015-housing-
forecasts.html; Census Bureau data shows we averaged more than 1.5 
million annual housing starts between 1998 and 2002.
---------------------------------------------------------------------------
    Additionally, access to credit remains tight. For a conventional 
home purchase mortgage, the average FICO score is 754. While FHA credit 
is easier to obtain, with average credit scores for purchase money 
mortgages around 680, it is still tighter than historical norms. \7\ 
The Urban Institute estimates that approximately 1.2 million fewer 
purchase mortgages were made in 2012 than would have been the case had 
credit availability remained at pre-bubble 2001 levels. \8\ Testimony 
today from the National Association of Realtors provides considerable 
additional detail on the size and condition of the market. \9\
---------------------------------------------------------------------------
     \7\ Ellie Mae, ``Origination Insight Report: October 2014'', 
(2014) available at http://www.elliemae.com/origination-insight-
reports/Ellie_Mae_OIR_OCTOBER2014.pdf; Historical FHA data available in 
HUD's FHA Single-Family Mutual Mortgage Insurance Fund Programs 
Quarterly Reports to Congress, available at http://portal.hud.gov/
hudportal/HUD?src=/program_offices/housing/rmra/oe/rpts/rtc/
fhartcqtrly.
     \8\ Laurie Goodman, Jun Zhu, and Taz George, ``Where Have All the 
Loans Gone? The Impact of Credit Availability on Mortgage Volume'', 
(Washington: Urban Institute, 2014, available at http://www.urban.org/
publications/413052.html.
     \9\ Statement of the National Association of Realtors before the 
United States Senate Committee on Banking, Housing, and Urban Affairs 
Subcommittee on Housing, Transportation, and Community Development, 
``Inequality and the Housing Market'', December 9, 2014.
---------------------------------------------------------------------------
    In terms of specific populations, home ownership rates for young 
people (ages 25-34) are among the lowest in decades. \10\ While that 
could in part be explained by the timing of the Great Recession and by 
the later ages at which this demographic group is forming families, 
even 35 to 54 year olds (Generation X)--which should be in their prime 
home ownership years--have a home ownership rate lower than expected. 
\11\
---------------------------------------------------------------------------
     \10\ HUD, ``U.S. Housing Market Conditions Historical Data''.
     \11\ Jed Kolko, ``The Recession's Lost Generation of Homeowners 
Isn't Millennials--It's the Middle-Aged'', Trulia Trends, July 16, 
2014, available at http://www.trulia.com/trends/2014/07/recessions-
lost-generation/.
---------------------------------------------------------------------------
    The health of the mortgage market is also important for the Baby 
Boomer generation, many of whom will soon be seeking to sell their 
homes. The Bipartisan Policy Center estimates that Echo Boomers--those 
born between 1981 and 1995--will drive 75 to 80 percent of owner-
occupied home acquisition before 2020 as Baby Boomers sell off their 
homes. \12\ Homes are significant reservoirs of wealth, and a lack of 
sufficient effective demand for homes could significantly affect the 
retirement security and the ability to remain independent for these 
families.
---------------------------------------------------------------------------
     \12\ Bipartisan Policy Center, ``Demographic Challenges and 
Opportunities for U.S. Housing Markets'', March 2012, available at 
http://bipartisanpolicy.org/library/report/demographic-challenges-and-
opportunities-us-housing-markets.
---------------------------------------------------------------------------
    Perhaps most troubling, home ownership rates for people of color 
have dropped dramatically, with Latinos falling by 9 percent from their 
peak, and African Americans by 13.7 percent. \13\ Because the majority 
of families formed in America going forward will be families of color, 
a steep reduction in the numbers of Latinos and African Americans 
buying homes spells trouble for the housing market for decades to come. 
\14\
---------------------------------------------------------------------------
     \13\ Calculations based on U.S. Census Bureau Housing Vacancies 
and Homeownership data, available at http://www.census.gov/housing/hvs/
data/histtabs.html.
     \14\ Daniel McCue, ``Baseline Household Projections for the Next 
Decade and Beyond'', (Cambridge: Harvard Joint Center for Housing 
Studies, 2014), available at http://www.jchs.harvard.edu/sites/
jchs.harvard.edu/files/w14-1_mccue_0.pdf.
---------------------------------------------------------------------------
    The drop in home ownership rates plays a significant role in the 
ever-increasing wealth disparities between Whites and people of color. 
The median White household lost 29 percent of their home-equity-based 
wealth between 2005 and 2011, while the median African American 
household and the median Hispanic household lost 38 percent and 55 
percent of their home-equity wealth, respectively. \15\ Loss of home 
equity translates directly in overall asset reductions, especially for 
households of color, since their homes are their largest asset (for 
African American families, homes account for more than half of all 
wealth, compared to 39 percent for Whites). \16\ Specifically, Whites 
lost about 26 percent of their net worth during this period, while 
African Americans lost 50 percent and Hispanics lost 61 percent. \17\
---------------------------------------------------------------------------
     \15\ Center for American Progress calculation based on 2005 and 
2011 Survey of Income and Program Participation data, adjusted for CPI-
U.
     \16\ Thomas Shapiro, Tatjana Meschede, and Sam Osoro, ``The Roots 
of the Widening Racial Wealth Gap: Explaining the Black-White Economic 
Divide'', (Waltham, MA: Institute on Assets and Social Policy, 2013) 
available at http://iasp.brandeis.edu/pdfs/Author/shapiro-thomas-m/
racialwealthgapbrief.pdf.
     \17\ Center for American Progress calculation based on 2005 and 
2011 Survey of Income and Program Participation data, adjusted for CPI-
U.
---------------------------------------------------------------------------
    Today's lending patterns mirror our long history of unequal access 
to mortgage credit for low- and moderate-income and minority 
communities and borrowers. Census tracts with low levels of any type of 
home purchase lending are disproportionately minority (45 percent on 
average, compared to 33 percent in other areas) and lower-income (with 
an average income of 82 percent of area median income vs. 107 percent 
of AMI in other areas). \18\ In 2013, African Americans received only 
4.8 percent of home purchase mortgages, despite making up 13 percent of 
the population, and Hispanics received 7.3 percent of these loans, 
despite constituting 17 percent of the population. \19\ Minority 
households disproportionately lack access to the more affordable 
mortgage credit offered in the conventional market, as 70 percent of 
home purchase loans made to African Americans and 63 percent of these 
loans made to Hispanics in 2013 were Government supported. \20\
---------------------------------------------------------------------------
     \18\ Low-lending census tracts defined as those with fewer 
originated home purchase loans per owner-occupied home than the median 
(2.15 percent) in 2012. Center for American Progress analysis based on 
2012 HMDA data for applications for conforming loans for the purchase 
of 1-4 family owner-occupied units.
     \19\ Clea Benson and Alexis Leondis, ``Lending to Minorities 
Declines to a 14-Year Low in U.S.'', Bloomberg, September 24, 2014, 
available at http://www.bloomberg.com/news/2014-09-24/lending-to-
minorities-declines-to-a-14-year-low-in-u-s-.html.
     \20\ Neil Bhutta and Daniel R. Ringo, ``The 2013 Home Mortgage 
Disclosure Act Data'', (Washington: Federal Reserve, 2014), available 
at http://www.federalreserve.gov/pubs/bulletin/2014/pdf/2013_HMDA.pdf.
---------------------------------------------------------------------------
    Recently, the Urban Institute's Housing Finance Policy Center 
developed a groundbreaking methodology for measuring the tightness of 
credit in the housing market. \21\ This technique better accounts for 
the changing credit profile of applicants over time, an important 
adjustment because far fewer applicants with weaker credit profiles are 
applying for mortgages than did during the housing bubble (2004-07) or 
the more normal period of lending activity that preceded it (1998-
2003). Most notably, in the conventional sector, \22\ only 8 percent of 
conventional borrowers in the post-crisis period were of lower credit 
quality compared to 29 percent in the pre-bubble years, before the rise 
of the irresponsible practices that led to the crisis. This tightness 
in the conventional sector has a disproportionate impact on borrowers 
of color, who find themselves relegated to the more expensive 
Government-backed channels or locked out of the mortgage market 
altogether.
---------------------------------------------------------------------------
     \21\ Wei Li and Laurie Goodman, ``A Better Measure of Mortgage 
Application Denial Rates'', (Washington: The Urban Institute, 2014), 
available at http://www.urban.org/UploadedPDF/2000031-A-Better-Measure-
of-Mortgage-Application-Denial-Rates.pdf.
     \22\ The conventional channel includes GSE, bank portfolio, and 
private-label securities executions. The Government channel consists of 
FHA, VA, and USDA loans guaranteed by Government agencies.
---------------------------------------------------------------------------
    At the same time, while home prices nationally have rebounded from 
the lows reached during the Great Recession, price recovery has been 
remarkably uneven, with some geographies still deeply underwater. Not 
only are 8.7 million (17 percent) of homeowners underwater nationally, 
\23\ but in the 395 hardest-hit zip codes, between 43 percent and 76 
percent of homeowners are underwater. \24\ More than 70 percent of 
these zip codes have incomes below the national median, and in two-
thirds of them, African Americans and Latinos account for at least half 
the population.
---------------------------------------------------------------------------
     \23\ Zillow, ``Negative Equity Causing Housing Gridlock, Even as 
It Slowly Recedes'', (2014) available at http://www.zillow.com/
research/2014-q2-negative-equity-report-7465/.
     \24\ Peter Dreier and others, ``Underwater America: How the So-
Called Housing `Recovery' Is Bypassing Many American Communities'' 
(Berkeley, CA: Haas Institute for a Fair and Inclusive Society, 2014).
---------------------------------------------------------------------------
    The combination of tremendous home price declines, widespread 
negative equity, and the impact of the recession on unemployment 
resulted in the worst foreclosure crisis since the Great Depression. 
Since the start of the crisis, there have been 5 million completed 
foreclosures. Even today, with foreclosure rates much lower, about 
630,000 homes are currently in some stage of the foreclosure process 
while more than 1.6 million borrowers are seriously delinquent. \25\ 
Foreclosures have cost homeowners, neighborhoods, and investors dearly. 
A typical foreclosure costs borrowers up to $7,000 in administrative 
costs alone, \26\ costs investors more than $75,000, \27\ reduces the 
value of neighboring homes, \28\ and burdens local governments through 
reduced property taxes and increased anti-blight expenditures. \29\ A 
recent study even linked foreclosures to declines in neighbors' health. 
\30\ Weakness in the housing market deprives our economy of the 
economic multiplier effects of a strong housing market, including 
additional construction jobs, consumer demand for household-related 
items, and local and State tax revenue. The stubborn persistence of 
negative equity also continues to depress aggregate consumer demand for 
all goods and services, with significant macroeconomic consequences; 
homeowners with high levels of debt relative to the value of their 
assets have experienced larger declines in consumption than less highly 
leveraged homeowners, even after taking into account declines in net 
worth. \31\ Additionally, fewer small businesses are being founded in 
the aftermath of the Great Recession, \32\ which is not surprising 
given that roughly one in four small-business owners uses home equity 
as a source of capital or collateral. \33\
---------------------------------------------------------------------------
     \25\ Corelogic, ``National Foreclosure Report: March 2014'', 
(2014) available at http://www.corelogic.com/research/foreclosure-
report/national-foreclosure-report-march-2014.pdf; Corelogic, 
``National Foreclosure Report: August 2014'', (2014) available at 
http://www.corelogic.com/research/foreclosure-report/national-
foreclosure-report-august-2014.pdf.
     \26\ HUD, ``Economic Impact Analysis of the FHA Refinance Program 
for Borrowers in Negative Equity Positions'', available at http://
www.hud.gov/offices/adm/hudclips/ia/ia-refinancenegativeequity.pdf. 
Family Housing Fund, ``Cost Effectiveness of Mortgage Foreclosure 
Prevention'', (1995) available at http://www.fhfund.org/_dnld/reports/
MFP_1995.pdf.
     \27\ HUD, ``Economic Impact Analysis of the FHA Refinance Program 
for Borrowers in Negative Equity Positions''.
     \28\ Massachusetts Institute of Technology, ``How Foreclosures 
Hurt Everyone's Home Values'', Press release, July 20, 2010, available 
at http://newsoffice.mit.edu/2010/housing-prices-0720.
     \29\ William C. Apgar, Mark Duda, and Rochelle Nawrocki Gorey, 
``The Municipal Cost of Foreclosures: A Chicago Case Study'', 
(Minneapolis: Homeownership Preservation Foundation, 2005), available 
at http://www.nw.org/network/neighborworksProgs/
foreclosuresolutionsOLD/documents/2005Apgar-DudaStudy-FullVersion.pdf.
     \30\ Dina ElBoghdady, ``Foreclosures May Raise Neighbors' Blood 
Pressure, Study Finds'', Washington Post, May 12, 2014, available at 
http://www.washingtonpost.com/business/economy/study-foreclosures-may-
raise-neighbors-blood-pressure/2014/05/12/5f519952-da03-11e3-bda1-
9b46b2066796_story.html; Mariana Arcaya, M. Maria Glymour, Prabal 
Chakrabarti, Nicholas A. Christakis, Ichiro Kawachi, and S.V. 
Subramanian, ``Effects of Proximate Foreclosed Properties on 
Individuals' Systolic Blood Pressure in Massachusetts'', 1987-2008. 
Circulation, May 2014.
     \31\ Karen Dynan, ``Is a Household Debt Overhang Holding Back 
Consumption?'' (Washington: Brookings Institution, 2012), available at 
http://www.brookings.edu//media/projects/bpea/spring%202012/
2012a_dynan.pdf; Atif Mian and Amir Sufi, ``House of Debt'', University 
of Chicago Press, 2014.
     \32\ U.S. Census Bureau, ``Business Dynamics Statistics''.
     \33\ Mark E. Schweitzer and Scott A. Shane, ``The Effect of 
Falling Home Prices on Small Business Borrowing'', (Federal Reserve 
Bank of Cleveland, 2010), available at http://www.clevelandfed.org/
research/commentary/2010/2010-18.cfm.
---------------------------------------------------------------------------
    Finally, the decline in home ownership has led to an increase in 
renters, placing significant upward pressure on rent prices. As of 
2012, more than half of all renters spend more than 30 percent of their 
income on housing, which is the historical upper limit of rent 
affordability. More than a quarter of all renters spend more than half 
of their gross income on rent, significantly reducing their ability to 
pay for food, child care, health care, and other necessities. \34\ 
While the number of households experiencing ``worst case'' housing 
needs--either because they live in severely inadequate housing or spend 
more than half of their income on rent--has increased, Congress has 
repeatedly cut rental assistance programs, and the share of households 
eligible for these benefits that actually receive them has continued to 
fall. \35\
---------------------------------------------------------------------------
     \34\ Center for American Progress analysis of Minnesota Population 
Center, ``Integrated Public Use Microdata Series'', available at 
https://usa.ipums.org/usa/ (last accessed June 2014).
     \35\ Doug Rice, ``Better Federal Policy Needed To Address Rental 
Affordability Crisis'', Off the Charts Blog, July 2, 2014, available at 
http://www.offthechartsblog.org/better-federal-policy-needed-to-
address-rental-affordability-crisis/.
---------------------------------------------------------------------------
Policy Recommendations
Increase Access to Safe and Affordable Credit
    Ironically, even as home prices experienced historic declines over 
the past 6 years, the tightness in the credit market meant that far too 
many households--especially families of color and lower-wealth 
families--missed what could otherwise have been an ideal opportunity to 
access affordable and sustainable home ownership, build family wealth 
and security, and provide better opportunities for their children. Too 
many communities that lost significant wealth due to foreclosures are 
now failing to rebuild it through home ownership; as more people rent, 
and especially as more formerly owner-occupied homes transition to 
long-term rental, payments that could be contributing to rebuilding 
residents' wealth continue to flow to investors, many of whom live 
outside the community.
    It is not too late to turn this situation around, but we must focus 
our efforts on enabling more families to join the ranks of home 
ownership. While there is no one silver bullet, there are many dials 
and levers that can help increase access without opening the door to 
predatory or unsafe lending.
    At the same time, it is critical to ensure that any expansion of 
access not lead to the same predatory and abusive market practices that 
led to the crisis. While the Dodd-Frank Act created strong protections 
for mortgages, and while the Consumer Financial Protection Board (CFPB) 
has tried to set a sensible, moderate course in implementing those 
protections, some industry participants continue to fight for broader 
and more exemptions from Dodd-Frank's mandate for creditors to assess a 
borrower's ability to repay a mortgage loan. An exemption for an entire 
class of assets, such as portfolio loans, is overly broad and would 
undermine existing incentives that deter creditors from ignoring the 
damage caused by making unaffordable loans.
    Moreover, we do not believe the Dodd-Frank rules will adequately 
protect consumers unless all market participants, including brokers, 
appraisers, lenders, securitizers, and investors, bear liability for 
noncompliance. Additionally, while we commend regulators involved in 
the so-called QRM rulemaking for choosing not to impose a downpayment 
requirement, which we believe would have unfairly excluded lower-wealth 
households from home ownership, we support the overall risk retention 
rule as an important tool to provide securitizers with skin in the 
game.
            A. Congress should complete comprehensive reform of the 
                    housing finance system.
    One thread that runs throughout most policy recommendations about 
easing tight credit is the need to provide as much certainty as 
possible to market participants and stakeholders. Perhaps the largest 
of such uncertainties is the fate of mortgage giants Fannie Mae and 
Freddie Mac, which have now been under conservatorship for more than 6 
years.
    Some advocate for simply returning to the system we had before the 
crisis, where Fannie and Freddie's private shareholders profited from 
an implicit Government guarantee with minimal capital requirements. 
While we agree the conservatorship should not last forever, it is 
critical that in the process of ending it, we fix the misaligned 
incentives that resulted in the GSE's financial crisis and that we 
create an explicit, priced, and paid-for Government guarantee to 
protect the taxpayer.
    In our view, S. 1217 provided a very useful framework for this 
conversation. However, the legislation as passed by the Senate Banking 
Committee lacked a number of essential elements that we have 
recommended, particularly with respect to access to and affordability 
of credit. \36\ Placing the goal of access to affordable, sustainable 
credit at the center of the new system's purpose will provide the 
greatest benefit in the long run not only to families but also to 
lenders and investors, and will also protect taxpayers from future 
bailouts.
---------------------------------------------------------------------------
     \36\ Testimony of Julia Gordon before the Senate Committee on 
Banking, Housing, and Urban Affairs, ``Essential Elements of Housing 
Finance Reform'', (2013) available at https://www.americanprogress.org/
issues/housing/report/2013/09/12/74041/essential-elements-of-housing-
finance-reform/.
---------------------------------------------------------------------------
    We look forward to working with the 114th Congress to craft a 
housing finance system that can take this country into the future 
smoothly and successfully.
            B. The Federal Housing Finance Agency can play a powerful 
                    role in increasing access to credit.
    While comprehensive housing finance reform proceeds through the 
legislative process, we urge the Federal Housing Finance Agency (FHFA) 
to use its extraordinary powers of conservatorship to promote a robust, 
inclusive mortgage market that provides liquidity for the broadest 
possible range of credit needs.
    1. FHFA should use its housing goals and duty to serve rulemakings 
to expand access to populations that are being left out of the housing 
recovery.
    Given the GSE's dominance in the secondary market, their appetite 
for mortgages essentially determines whether the mortgages will be made 
at all by the primary market. Understanding this dynamic, Congress has 
charged FHFA with advancing access to credit by setting specific goals 
for the GSEs to meet in supporting underserved borrowers and 
communities and by asking the GSEs to provide ``leadership to the 
market in developing loan products and flexible underwriting guidelines 
to facilitate a secondary market,'' supporting very low- to moderate-
income families in the areas of manufactured housing, affordable 
housing preservation, and rural markets. \37\
---------------------------------------------------------------------------
     \37\ Public Law 110-289, Sec 1129.
---------------------------------------------------------------------------
    Housing Goals: In recent years, FHFA has failed to set strong goals 
that push the Enterprises to responsibly innovate and serve broadly, 
instead setting single-family goals that allow the Enterprises to lag 
the primary market's performance. During this time, whole segments of 
the market have moved to FHA or have not been served at all. In 2012, 
for example, the Enterprises financed only 16 percent of home purchase 
loans originated in low-income and minority census tracts, a quarter of 
home purchase loans to African Americans, and under one-third of home 
purchase loans to Hispanics or Latinos. \38\
---------------------------------------------------------------------------
     \38\ Center for American Progress analysis of 2012 Home Mortgage 
Disclosure Act Data for applications for conforming loans for the 
purchase of 1-4 family owner-occupied units.
---------------------------------------------------------------------------
    This year's goals rulemaking is an important opportunity to push 
the Enterprises to support low- and moderate-income communities. We 
recommend that FHFA set strong single- and multifamily benchmarks for 
GSE performance, including a 27 percent goal for low-income home 
purchase lending; take strong and predictable enforcement action that 
considers the performance of the overall market when the Enterprises 
fail to meet the housing goals; and establish subgoals for small 
multifamily properties and reporting requirements for single-family 
rental. \39\
---------------------------------------------------------------------------
     \39\ For more detail, see Center for American Progress and 
Consumer Federation of America, ``Comments on the Proposed Rule on the 
Enterprises' Housing Goals 2015-2017'', (2014) available at http://
www.consumerfed.org/pdfs/CAP-CFA-Comments-on-the-Enterprises-Housing-
Goals-2015-2017.pdf.
---------------------------------------------------------------------------
    Duty To Serve: Although more than 6 years have passed since 
Congress asked FHFA to create this requirement for the GSEs, the rule 
proposed in 2010 has not been finalized or implemented. Because the 
housing market and the financial status of the Enterprises has evolved 
significantly in the intervening years, we urge FHFA to re-propose the 
rule and once again take public comment. The proposal should encourage 
responsible innovation and give the Enterprises strong incentives to 
serve broadly and lead the market. \40\
---------------------------------------------------------------------------
     \40\ For a fuller set of recommendations, see Center for American 
Progress and others, ``Re: Enterprise Duty to Serve'', (2014), 
available at http://www.consumerfed.org/pdfs/CAP-letter-FHFA-on-Fannie-
and-Freddie.pdf.
---------------------------------------------------------------------------
    FHFA can make a significant contribution to greater affordability 
in the manufactured housing area by using the duty to serve rule to 
push the market toward more responsible practices in the area of 
chattel lending (the majority of manufactured housing is titled as 
chattel rather than real property, meaning that buyers often lack basic 
consumer protections). \41\ In the affordable housing preservation and 
rural markets, we similarly believe that the Enterprises can actively 
support these markets through new products, flexible underwriting, 
affirmative outreach, and other activities, including grants to and 
partnerships with high-performing nonprofits devoted to this work.
---------------------------------------------------------------------------
     \41\ Consumer Financial Protection Bureau, ``Manufactured-Housing 
Consumer Finance in the U.S.'', (2014), available at http://
www.consumerfinance.gov/reports/manufactured-housing-consumer-finance-
in-the-u-s/.
---------------------------------------------------------------------------
    2. FHFA should adjust its pricing to pool risk and to charge only 
for its actual risk, thereby making loans more affordable, and should 
align pricing policies with private mortgage insurer counterparty 
requirements.
    We consider it critical that FHFA return to a pricing structure 
that is transparent, countercyclical (or, at the very least, not 
procyclical), and takes full advantage of the Enterprises' unique 
ability to pool risk.
    After the inception of the conservatorship, Fannie and Freddie 
instituted across-the-board risk based pricing through a system of loan 
level price adjustments, or LLPAs. The LLPAs charge different prices 
for different loans depending on the profile of both the loan and the 
borrower. This change from more of a risk pooling approach occurred at 
a time when housing prices were dropping, foreclosure rates were 
rising, and the Enterprises were in dire straits financially. FHFA also 
was concerned about the financial woes of private mortgage insurer 
counterparties, many of which struggled or even went under financially 
during the crisis and could not pay all their claims.
    Today, the Enterprises are in a very different financial condition, 
having returned to profitability due to a very strong book of new 
loans, a decline in foreclosure rates, an increase in home prices, and 
numerous big-dollar settlements with financial institutions. These 
profits also have enabled them to use deferred tax assets, further 
improving their financial position. At the same time, the private 
mortgage insurers also have returned to financial health, and FHFA is 
now instituting a set of capital and management requirements for those 
companies that will significantly reduce the Enterprises' exposure to 
counterparty risk.
    Yet the LLPAs remain in force, where they play a significant role 
in driving less wealthy borrowers out of the conventional market and 
making loans for those borrowers more expensive--which in and of itself 
increases the risk of the loans. We recommend that FHFA immediately 
discontinue use of the LLPAs and return to the historical norm.
    Additionally, we do not believe additional increases to the base g-
fee are required at this time. FHFA has justified these increases by 
claiming they are needed to encourage the return of private label 
securitization. Yet, analysts believe current fees more than cover 
outstanding risk, \42\ and even the dramatic increase in g-fee over the 
past several years has not succeeded in ``crowding in'' private 
capital, although it has undoubtedly driven business to FHA, which 
carries a 100 percent explicit Government guarantee.
---------------------------------------------------------------------------
     \42\ See, e.g., joint comment letter from 23 industry and consumer 
groups, available at https://www.fhfa.gov//AboutUs/Contact/Pages/input-
submission-detail.aspx?RFIId=164; Laurie Goodman, Jim Parrott, Ellen 
Seidman, and Jun Zhu, ``Guarantee Fees--An Art, Not a Science'', 
(Washington: Urban Institute, 2014) available at http://www.urban.org/
publications/413202.html.
---------------------------------------------------------------------------
    As we recommended in our comment letter to FHFA, \43\ we think FHFA 
should price based on what is needed to cover expected losses and 
costs--including a justifiable level of capital and revenue to support 
its cost--and protect the taxpayer in the event of stress scenarios, 
rather than on pursuing particular market shares for non-GSE entities 
or sectors.
---------------------------------------------------------------------------
     \43\ Center for American Progress, Consumer Federation of America, 
and the Mortgage Finance Working Group, ``Re: Request for Input on 
Guarantee Fees'', (2014), available at http://www.consumerfed.org/pdfs/
CAP-CFA-g-fee-comment-final-9-8-14.pdf.
---------------------------------------------------------------------------
    Similarly, while we support the overall effort to impose meaningful 
requirements on private mortgage insurer counterparties, we have 
serious concerns about the financial requirements as proposed. \44\ 
Because the cost of private mortgage insurance by definition falls on 
lower-wealth borrowers, first time homebuyers, and borrowers of color, 
the PMIERs are as important, if not more important, than guarantee fees 
when it comes to affordable credit. In our view, the proposed 
requirements will unnecessarily raise the cost of credit for the very 
borrowers for whom the GSE mission is most important, and we suggest 
that significant adjustments be made before finalizing these 
requirements. It is also critical to coordinate g-fees and LLPAs with 
the private mortgage insurance requirements.
---------------------------------------------------------------------------
     \44\ For specific recommendations, see Center for American 
Progress and others, ``Re: Private Mortgage Insurance Eligibility 
Requirements'', (2014), available at http://www.consumerfed.org/pdfs/
CAP-PMIER-sign-on-letter-9-8-14.pdf.
---------------------------------------------------------------------------
    3. Providing a 97 LTV product is a good start, and FHFA also should 
provide public, loan-level data on past efforts to promote access to 
credit.
     We support the recently announced policy change permitting Fannie 
and Freddie to buy mortgages with as little as 3 percent down under 
certain circumstances. Properly underwritten, low-downpayment mortgages 
with long-term, fixed-interest rates have performed well even 
throughout the Great Recession. The predatory mortgages that brought 
down Wall Street's house of cards sometimes included low downpayments, 
but also layered multiple risks--such as exploding interest rates, 
exorbitant fees, and steep prepayment penalties--with little or no 
underwriting. Most of these practices are now prohibited by the Dodd-
Frank mortgage rules.
    We also generally support FHFA's intention in its strategic plan to 
ask the Enterprises to ``assess whether there are additional 
opportunities to reach underserved creditworthy borrowers.'' \45\ Prior 
to conservatorship, the Enterprises undertook diverse efforts to 
promote access to affordable mortgage credit, with flexible 
underwriting standards for core affordability products such as 
MyCommunityMortgage as well as specialized products that met the 
particular needs of borrowers, such as SmartCommute and Construction-
to-Permanent mortgages. They also worked to serve harder-to-serve 
markets, such as community land trusts, tribal lands, and small 
multifamily properties, and partnered with diverse entities in support 
of their affordable housing mission, including nonprofits, housing 
counseling agencies, Housing Finance Agencies and Community Development 
Financial Institutions.
---------------------------------------------------------------------------
     \45\ Federal Housing Finance Agency, ``FHFA Strategic Plan for 
FY2015-2019'', (2014) available at http://www.fhfa.gov/AboutUs/Reports/
Pages/FHFA-Strategic-Plan-for-FY-2015-2019.aspx.
---------------------------------------------------------------------------
    However, in considering how Fannie and Freddie should proceed, FHFA 
should instruct the Enterprises to conduct detailed analyses of their 
past efforts to promote access to affordable mortgage credit to use in 
designing effective programs for the future. In addition to analyzing 
previous efforts, we encourage FHFA to make release to the public 
performance data on affordable lending efforts so that external 
stakeholders working in the housing finance field can understand better 
how to reach underserved borrowers and communities. We commend the 
Enterprises for releasing loan characteristic and performance data on a 
large number of their acquisitions in recent years, \46\ but data 
released so far is limited to single-family, 30-year, fixed-rate, full 
documentation, fully amortizing mortgages.
---------------------------------------------------------------------------
     \46\ See Freddie Mac's Single Family Loan-Level Dataset at http://
www.freddiemac.com/news/finance/sf_loanlevel_dataset.html and Fannie 
Mae's Single-Family Loan Performance data at http://www.fanniemae.com/
portal/funding-the-market/data/loan-performance-data.html.
---------------------------------------------------------------------------
    4. FHFA should require Fannie Mae and Freddie Mac to update the 
credit score model used by their automated underwriting systems.
    Currently, the Enterprises require the use of a ``classic'' FICO 
credit score--i.e., FICO 04--in their automated underwriting systems. 
\47\ However, newer scoring models, including both FICO 09 and 
VantageScore, have made some critical changes that will improve the 
reliability of scores and/or allow the scoring of tens of millions of 
consumers.
---------------------------------------------------------------------------
     \47\ See Fannie Mae Selling Guide, B3-5.1-01, General Requirements 
for Credit Scores, available at https://www.fanniemae.com/content/
guide/selling/b3/5.1/01.html (last accessed December 2014).
---------------------------------------------------------------------------
    These newer models no longer consider paid collection items, 
including medical debt collections, and give less weight to unpaid 
medical debts. Given that the CFPB has found that the presence of 
medical debt on a credit report results in a credit score that is 
typically lower by ten points than it should be, and for paid medical 
debt, up to 22 points lower than it should be, \48\ and given that 
about 35 percent of Americans--or 77 million--have debt collection 
items on their credit reports, \49\ about half of which are for medical 
debt, \50\ this is a critical issue.
---------------------------------------------------------------------------
     \48\ Consumer Financial Protection Bureau, ``Data Point: Medica 
Debt and Credit Scores'', (2014) available at http://
files.consumerfinance.gov/f/201405_cfpb_report_data-point_medical-debt-
credit-scores.pdf.
     \49\ Caroline Ratcliff and others, ``Delinquent Debt in America'', 
(Washington: Urban Institute, 2014) available at http://www.urban.org/
publications/413191.html.
     \50\ Robert Avery, Paul Calem, Glenn Canner, and Raphael Bostic, 
``An Overview of Consumer Data and Credit Reporting'', Fed. Reserve 
Bulletin 89(2)(2003); Ernst & Young, The Impact of Third-Party Debt 
Collection on the National and State Economies (2012), available at 
www.acainternational.org/files.aspx?p=/images/21594/
2011acaeconomicimpactreport.pdf.
---------------------------------------------------------------------------
    In addition, these newer models are better able to deal with 
consumers with limited credit history, or ``thin file'' consumers. For 
example, FICO 09 has enhancements to better assess thin file consumers, 
and VantageScore claims to be able to score an additional 30 to 35 
million thin file consumers. \51\
---------------------------------------------------------------------------
     \51\ VantageScore, ``VantageScore 3.0: Better Predictive Ability 
Among Sought-After Borrowers'', (2013), available at http://
www.vantagescore.com/images/resources/VantageScore3-0_WhitePaper.pdf.
---------------------------------------------------------------------------
    While Fannie Mae and Freddie Mac have already agreed to study the 
issue, we do not believe more research is necessary to demonstrate the 
advantages of alternative models. Instead, FHFA should instruct them to 
modernize their systems forthwith.
            C. As a provider of credit to so many underserved 
                    populations, FHA should continue to improve access 
                    to and affordability of credit.
    The Federal Housing Administration (FHA) has played a crucial role 
in supporting our economic recovery, preventing not only even more 
catastrophic home price declines but also a double-dip recession. While 
this support came at a cost to the agency's capital ratio, a 
combination of strong management and improvement in the economy has put 
the agency on track to fully replenish its reserves by 2016. FHA has 
particularly supported first-time homebuyers and buyers of color, who 
are all currently poorly served by the conventional market. The 
following are three suggestions for FHA to help expand affordable 
credit further.
    1. FHA should reassess its insurance premium structure to see if it 
is possible to reduce premiums.
    As noted above, FHA has of necessity focused very heavily in recent 
years on making programmatic changes to help replenish its insurance 
fund. While such a focus is important, we believe the fund is strong 
enough at this point for FHA to reconsider the pricing of mortgage 
insurance premiums. Forty percent of the agency's home purchase loans 
made in the second half of 2013 qualified as high cost, which--despite 
otherwise providing fixed rate, long-term credit--can in and of itself 
make a loan more risky. \52\ If FHA's fees are not set correctly, its 
customers, who are more likely to be minority and first time 
homebuyers, will be saddled with additional unnecessary expenses, 
perpetuating an unequal mortgage market. Additionally, the dramatic 
increases in premiums appears to be driving borrowers away from FHA, 
reducing its volume significantly, and with FHA operating as the only 
program available for many lower-wealth borrowers and borrowers of 
color, we fear those borrowers will not find other alternative credit 
sources.
---------------------------------------------------------------------------
     \52\ Bhutta and Ringo, ``The 2013 Home Mortgage Disclosure Act 
Data''.
---------------------------------------------------------------------------
    While we do not believe we have sufficient information at this time 
to recommend a specific change to the premium structure, we strongly 
encourage FHA to examine the impact its premiums are having on access 
to credit and to consider whether some reductions could provide 
sufficient additional volume to offset any harm to the fund.
    2. FHA should complete its work to provide clarity to lenders and 
reduce overlays.
    To address lender concerns about indemnification, FHA has proposed 
a new system for detecting defects in loan quality and holding lenders 
accountable for such defects. In this proposal, FHA more clearly 
identifies and classifies defects in loan applications, establishes 
severity levels of such defects and provides a more objective approach 
to analyzing appropriate cures for defects. We support this effort and 
believe it is extremely important, although we believe more work is 
required to clarify and align definitions and to further reduce 
subjectivity in defect and cure classifications. Additionally, we 
believe it would be sensible for FHA to work closely with FHFA to align 
its policies protecting lenders, such as providing a 3-year window of 
clean payment history for indemnification with exceptions for fraud, 
data inaccuracies, and compliance with responsible lending practices.
            D. Congress and regulators should support alternative 
                    mortgage channels, innovative products to reach 
                    underserved borrowers, and effective housing 
                    counseling.
    Many communities hardest hit by the housing crisis and the economic 
downturn have long been either underserved or not served by traditional 
financial institutions that could provide safe and affordable credit. 
Similarly, for many borrowers, the most popular mainstream products 
will always be difficult to access. For this reason, we recommend 
taking steps to strengthen alternative mortgage channels and experiment 
with safe but innovative products to reach more borrowers.
    The strong need for alternative lenders in underserved communities 
can be attributed to years of discrimination, redlining, and market 
failures in which mainstream financial institutions lacked incentives 
to lend to projects where the aggregate social return was positive. 
Community Development Financial Institutions (CDFIs) and Housing 
Finance Agencies (HFAs), which combine deep knowledge of local 
communities' needs with safe, targeted products, can identify and 
assist potential homeowners, and CDFIs can also provide business and 
consumer loans, investments, and retail banking services to 
neighborhoods that need critical economic catalysts to overcome years 
of disinvestment.
    Congress and regulators should consider whether there are changes 
to regulations such as the Community Reinvestment Act (CRA) that can be 
used to strengthen these institutions. For example, changing the way 
that financial institutions subject to CRA receive credit for investing 
in CDFIs could provide a win-win solution for banks unwilling to take 
risks on certain populations, especially since CDFIs and nonprofits 
receive special treatment in the Dodd-Frank mortgage rules to enable 
them to better serve lower-income families. Similarly, sources of 
funding such as recent settlements between Government agencies and 
large banks could be directed to helping alternative mortgage channels 
scale their operations.
    Similarly, a typical mortgage product is not always accessible to 
some households due to the downpayment requirements or fear of placing 
assets in a first loss position. Shared equity/shared appreciation 
approaches can provide a middle ground between renting and traditional 
home ownership. In general, these products share certain common 
features: owner occupancy of residential properties, initial 
affordability, and sharing of risk and equity/appreciation. These 
strategies can potentially support modest individual asset accumulation 
while protecting consumers against home price declines while also 
providing more stability to the macroeconomy in times of market 
disruption. \53\ Congress and regulators should consider how to 
encourage safe experimentation with alternative products.
---------------------------------------------------------------------------
     \53\ Atif Mian and Amir Sufi, ``House of Debt''.
---------------------------------------------------------------------------
    Finally, it is critical to support housing and credit counseling to 
help more people achieve sustainable home ownership. Whether counseling 
a first-time homebuyer to avoid predatory loans, negotiating a 
modification that will allow a distressed homeowner to stay in their 
home, helping a low-income family find affordable rental housing, or 
helping a homeless person find emergency shelter, nonprofit housing 
counselors are advocates for housing consumers, especially those from 
traditionally underserved communities such as communities of color, 
low- and moderate-income communities, and the elderly. A growing body 
of research demonstrates that those who receive housing counseling 
realize better outcomes than similarly situated people who do not. \54\
---------------------------------------------------------------------------
     \54\ Neil S. Mayer and Kenneth Temkin, ``Pre-Purchase Counseling 
Impacts on Mortgage Performance: Empirical Analysis of NeighborWorks 
America's Experience'' (Washington: Neighborworks America, 2013); 
Marvin M. Smith et al., ``The Effectiveness of Pre-Purchase 
Homeownership Counseling and Financial Management Skills'', 
(Philadelphia: Federal Reserve Bank of Philadelphia, 2014); Kenneth M. 
Temkin et al., ``National Foreclosure Mitigation Counseling Program 
Evaluation: Final Report, Rounds 3 Through 5'', (Washington: 
Neighborworks and the Urban Institute, 2014).
---------------------------------------------------------------------------
    Recently, FHA proposed a program entitled ``Homeowners Armed With 
Knowledge'' (HAWK) that would offer reductions on the upfront and 
annual mortgage insurance premiums (MIPs) to FHA borrowers who 
participate in a specified housing counseling curriculum. Other 
Government agencies such as VA and USDA could create the same type of 
program, and FHFA could work with Fannie and Freddie to create a 
similar incentive structure in the secondary market through 
preferential pricing for counseled mortgages. Borrowers could yield 
additional incentives if they committed to post-purchase counseling, as 
well. Bonus points could be awarded under the goals that would incent 
this kind of proven, safe and sustainable lending. Additionally, 
Congress should grant HUD's Office of Housing Counseling the authority 
to accept funds from private entities to be distributed and used for 
housing counseling activities.
            E. Congress should extend the Mortgage Forgiveness Debt 
                    Relief Act, and it should convert the mortgage 
                    interest deduction to a tax credit.
    Mortgage Forgiveness Debt Relief Act: When a lender forgives 
mortgage debt through a short sale, a principal reduction modification, 
or even after a foreclosure, the amount that the borrower no longer 
owes counts as taxable income to the borrower unless it fits into an 
exemption in the tax code. Given the deep inappropriateness of this 
result for those losing their homes, Congress created a tax code 
exemption in 2007 entitled the Mortgage Forgiveness Debt Relief Act. 
For the past several years, the MDRA has been extended on a year-to-
year basis.
    The MDRA has been crucial to virtually every effort to assist 
troubled homeowners and restore the housing market to health. However, 
this past year, the MDRA was not extended. Consequently, the number of 
short sales dropped, adding to the continued woes of the housing 
market. What's more, principal reduction is less valuable to homeowners 
if they must pay tax on the forgiven debt, which hampers loss 
mitigation efforts. Congress must extend the MDRA not just until the 
end of 2014, but at least until the end of 2015. Ideally, this 
exemption would become permanent. \55\
---------------------------------------------------------------------------
     \55\ See Mark Goldhaber and Julia Gordon, ``Extend and Broaden the 
Mortgage Debt Relief Act Now'', American Banker, September 5th, 2012, 
available at http://www.americanbanker.com/bankthink/extend-and-
broaden-mortgage-debt-relief-act-now-1052364-1.html; see also Laurie 
Goodman and Ellen Seidman, ``The Mortgage Forgiveness Debt Relief Act 
Has Expired--Renewal Could Benefit Millions'', (Washington: The Urban 
Institute, 2014), available at http://www.urban.org/UploadedPDF/413025-
Mortgage-Forgiveness-Debt-Relief-Act-Has-Expired.pdf.
---------------------------------------------------------------------------
    Mortgage Interest Deduction: The Federal Government spends $70 
billion a year on the mortgage interest deduction--more than a trillion 
dollars over a 10-year period and more than the entire HUD budget. \56\ 
Yet, the benefit of the mortgage interest deduction is heavily skewed 
to households in upper-income tax brackets. As a taxpayer's income 
increases, their tax rate increases and so does the value of the 
deduction. In addition, the mortgage interest deduction is only 
available to those who are able to itemize deductions, rather than 
taking the standard deduction. According to the Tax Policy Center's 
analysis of 2010 data, less than a third of taxpayers itemize their 
deductions, and the majority of those who itemize fall in the top 
income tax brackets. \57\
---------------------------------------------------------------------------
     \56\ See http://www.whitehouse.gov/sites/default/files/omb/budget/
fy2015/assets/hist04z1.xls; http://www.whitehouse.gov/sites/default/
files/omb/budget/fy2015/assets/teb2015.xls.
     \57\ Benjamin H. Harris and Daniel Baneman, ``Who Itemizes 
Deductions?'' (Washington: Tax Policy Center, 2011), available at 
http://www.taxpolicycenter.org/UploadedPDF/1001486-Who-Itemizes-
Deductions.pdf.
---------------------------------------------------------------------------
    As part of comprehensive tax reform, we recommend replacing the 
current mortgage interest deduction with a tax credit. Our proposal 
would gradually phase out the current deduction and replace it with an 
18 percent nonrefundable tax credit. \58\ The effect of this change 
would be to provide the same benefit to all taxpayers, rather than a 
much larger benefit to those with higher incomes. Increasing the value 
of the credit to low- and moderate-income taxpayers not only increases 
fairness and access to home ownership, but also contributes to economic 
growth, since it puts more money in the hands of a large number of 
families who typically need to spend every dollar they earn just to get 
by.
---------------------------------------------------------------------------
     \58\ Roger Altman and others, ``Reforming Our Tax System, Reducing 
Our Deficit'', (Washington: Center for American Progress, 2012) 
available at https://www.americanprogress.org/issues/tax-reform/report/
2012/12/04/46689/reforming-our-tax-system-reducing-our-deficit/.
---------------------------------------------------------------------------
            F. Regulators should collect better mortgage data to help 
                    identify problems and potential solutions in the 
                    market.
    As a free and public database, the Home Mortgage Disclosure Act 
(HMDA) provides critical data to housing market participants and 
stakeholders, especially to nonprofits and other entities without 
access to expensive proprietary databases. However, the HMDA database 
has long suffered from some key omissions, both in terms of who is 
reporting data and what data are reported.
    Recently, the CFPB issued a set of proposed changes to HMDA, 
including changes to definitions of covered institutions and 
transactions as well as the addition of the proposed new fields would 
improve the usefulness and quality of the HMDA data. We strongly 
support the CFPB's efforts. In addition to their proposals, we 
recommend additional data enhancements that would be of great benefit 
to researchers and community groups in the efforts to promote fair 
access to credit, while also helping equip regulatory and enforcement 
agencies with fair lending compliance.
    For example, we think the CFPB should take further steps to 
simplify the reporting requirement to one eligibility standard, should 
add further fields on various topics such as denials and language/race, 
and collect information on loan modifications and housing counseling. 
\59\
---------------------------------------------------------------------------
     \59\ For more information, see Center for American Progress, 
Center for Responsible Lending, and others, ``Re: Consumer Financial 
Protection Bureau's Amendments to Regulation C'', (2014) available at 
http://www.responsiblelending.org/mortgage-lending/research-analysis/
HMDA-Comment-Final-10-29-14.pdf.
---------------------------------------------------------------------------
Assist Struggling Families and Neighborhoods
            A. FHA should improve its Distressed Asset Sale Program to 
                    better promote home retention and neighborhood 
                    stability.
    Since 2012, the FHA has been selling distressed loans in bulk prior 
to foreclosure in order to save money and potentially provide these 
borrowers with a last chance to save their homes. The Distressed Asset 
Stabilization Program has auctioned about 100,000 loans over the past 2 
years, and the FHA still insures about a half million seriously 
delinquent loans that could be eligible for the program. The FHA's 
program sells some loan pools with almost no strings attached, while 
others are sold through a special ``neighborhood stabilization'' 
channel that requires the buyers to help families and neighborhoods. 
The loans sold through neighborhood stabilization auctions tend to be 
geographically concentrated, while the loans sold through the national 
auctions are dispersed among many States.
    This summer, the FHA released outcome data about these pools for 
the first time since the program's inception. \60\ Nearly one quarter 
of loans sold through the neighborhood stabilization outcome auctions 
and resolved have resulted in the homeowners staying in their homes, at 
least for the time being. Another 35 percent of families have avoided 
foreclosure through a short sale or similar outcome. Loans that were 
sold in pools without requirements and later resolved, on the other 
hand, had a markedly different outcome. Less than 9 percent of those 
families remained in their homes, and 21 percent avoided foreclosure. 
In short, the data demonstrate that imposing even relatively modest and 
flexible requirements on auctioned loan pools can lead to much better 
outcomes for households and neighborhoods. The geographic concentration 
of the loans sold through the neighborhood stabilization auctions may 
also make it easier for note buyers to service the portfolio.
---------------------------------------------------------------------------
     \60\ Federal Housing Administration, ``Quarterly Report on FHA 
Single Family Loan Sales: Data as of May 30, 2014'', (2014) available 
at http://portal.hud.gov/hudportal/documents/
huddoc?id=report082814.pdf.
---------------------------------------------------------------------------
    Distressed mortgage sale programs, if designed responsibly, can 
limit the damage of the foreclosure crisis by helping homeowners to 
access foreclosure alternatives, supporting neighborhood home prices, 
and limiting losses to taxpayers. However, if loans are simply passed 
off to the highest bidder without any built-in protections for 
homeowners and neighborhoods, we will have missed an extraordinary 
opportunity to support the housing recovery.
    Thus, as the FHA moves forward with more auctions, we suggest the 
following four overarching recommendations to promote home retention 
and neighborhood stability while still helping the agencies save 
taxpayer dollars.

  <bullet> FHA should impose a set of basic requirements on all buyers 
        in all pools. First, the agency should require all buyers to 
        work with existing homeowners to keep them in their homes if 
        possible through a sustainable, permanent loan modification 
        (perhaps using the HAMP program). When a loan modification is 
        not possible, buyers should be required to pursue short sales 
        or deeds in lieu of foreclosure before foreclosing on a 
        property. For properties that go to REO, FHA should require 
        that the investor provide an opportunity for owner-occupant 
        purchase before either selling to another investor or 
        transforming into long-term rental. Reasonable requirements of 
        this nature may have less of an impact on price than FHA may 
        fear, both because the loans with requirements have sold for 
        similar prices to those with no requirements and because demand 
        for all of these pools is only growing with time. \61\
---------------------------------------------------------------------------
     \61\ Heather Perlberg and John Gittelsohn, ``Hedge Funds Boost 
Bad-Loan Prices as U.S. Sales Increase'', Bloomberg News, August 11, 
2014.

  <bullet> FHA should help nonprofits participate effectively in the 
        bidding process because neighborhood-based nonprofits often 
        produce the best outcomes for families and neighborhoods. To 
        the extent that nonprofits lack either capital or capacity, we 
        believe the best option is for FHA to provide a preference to 
        private investors that partner with nonprofits and have a track 
---------------------------------------------------------------------------
        record of serving homeowners effectively.

  <bullet> Before placing loans in a sale pool, FHA should ensure that 
        mortgage servicers have fully complied with the agency's 
        requirements for attempting to assist borrowers and that the 
        home is still occupied before placing a loan into distressed 
        mortgage sale programs. Reports from buyers and from consumer 
        representatives indicate that some loans are moving into the 
        program before servicers have completed their work with 
        homeowners, and that many homes are vacant when the buyer takes 
        possession of them. The Government should be careful that 
        servicers are prevented from using the program to evade their 
        contractual responsibilities.

  <bullet> FHA should collect and share more detailed performance data 
        about the programs so the public can fully understand their 
        effectiveness. The agency took roughly 2 years to publish its 
        first set of outcomes, and that information is very limited. 
        These agencies have an obligation to track in detail what 
        happens to the loans after they are sold and to share this 
        information with the taxpayers, neighborhoods, and local 
        governments.
            B. FHFA should take additional steps to aid struggling 
                    homeowners and communities.
    As with respect to access to credit, FHFA's singular role in the 
housing market provides them with many opportunities to support 
struggling families and communities. Over the past several years, the 
agency has made improvements to the HARP refinancing program and to 
their own Servicing Alignment Initiative that have provided assistance 
to many borrowers, but there are many additional steps they can take to 
ensure that both homeowners and neighborhoods are better protected.
    1. To assist performing borrowers, improve the HARP program to 
reach more people.
    The Obama administration's HARP program has already helped over 2.7 
million households refinance their mortgages and could reach many more 
with a few targeted improvements. The Responsible Homeowner Refinancing 
Act of 2013 would require that Fannie Mae and Freddie Mac eliminate all 
upfront participation fees to borrowers; that the same benefits be 
available to all eligible lenders, including waivers of certain 
representations and warrantees; and that all borrowers with Fannie- and 
Freddie-backed mortgages will be notified about the program, its 
eligibility requirements, and participating lenders. \62\ These changes 
could help more homeowners take advantage of low interest rates, lower 
their monthly mortgage payment, and reduce the risk that they will 
default on their mortgage.
---------------------------------------------------------------------------
     \62\ The Responsible Homeowner Refinancing Act of 2013 (S. 249), 
available at https://www.congress.gov/bill/113th-congress/senate-bill/
249/text.
---------------------------------------------------------------------------
    2. FHFA should join Treasury and FHA in extending the GSE Home 
Affordable Modification Program (HAMP) at least to 2016.
    Some months ago, Treasury announced it would extend its HAMP 
modification program at least through 2016. We urge FHFA to ensure that 
HAMP will continue to be available to Fannie and Freddie borrowers as 
long as HAMP is available to private label borrowers. Moreover, when 
HAMP expires (and especially if FHFA does not require the GSEs to 
extend HAMP to 2016), FHFA should require Fannie and Freddie to 
implement a new proprietary modification that includes measures to 
ensure affordability, which the current Standard Modification does not 
do.
    3. To assist troubled borrowers, participate in the HAMP principal 
reduction alternative and enable borrowers who lose their homes through 
a short sale or foreclosure to buy back their homes at fair market 
value.
    We are encouraged that FHFA's strategic plan expresses a commitment 
to ``develop and actively promote home retention and loss mitigation 
programs.'' Unfortunately, FHFA still prohibits the Enterprises from 
engaging in one of the most effective forms of loss mitigation: 
principal reduction. Numerous studies have demonstrated that principal 
reductions help keep troubled borrowers in their homes more effectively 
than loan modifications alone. \63\ Additionally, the Congressional 
Budget Office has estimated that allowing principal reductions through 
HAMP on loans guaranteed by the Enterprises would result in savings for 
the taxpayer. \64\
---------------------------------------------------------------------------
     \63\ See, e.g., Standard and Poor's, ``The Best Way To Limit U.S. 
Mortgage Redefaults May Be Principal Forgiveness'', (2012) available at 
http://www.standardandpoors.com/ratings/articles/en/us/
?articleType=HTML&assetID=1245335672295; Andrew Haughwout, Ebiere Okah, 
and Joseph Tracy, ``Second Chances: Subprime Mortgage Modification and 
Re-Default'', Federal Reserve Bank of New York Staff Reports (2010) 
available at http://www.newyorkfed.org/research/staff_reports/
sr417.pdf; Roberto G. Quercia and Lei Ding, ``Loan Modifications and 
Redefault Risk: An Examination of Short-Term Impacts'', CityScape 
(2009) available at http://ccc.unc.edu/contentitems/loan-modifications-
and-redefault-risk-an-examination-of-short-term-impacts/.
     \64\ Congressional Budget Office, ``Modifying Mortgages Involving 
Fannie Mae and Freddie Mac: Options for Principal Forgiveness'', (2013) 
available at http://www.cbo.gov/publication/44115.
---------------------------------------------------------------------------
    Lifting this prohibition should be an FHFA priority. FHFA could 
either design its own principal reduction modification or use the HAMP 
Principal Reduction Alternative (HAMP-PRA). If FHFA is worried about 
strategic default, HAMP-PRA requires a borrower to be delinquent or in 
imminent default, to demonstrate a hardship, and to meet various other 
criteria related to the size of the loan, owner-occupancy, etc. The 
modification must be both net-present-value positive and affordable by 
the borrower. Working through HAMP also would provide access to 
Treasury incentive payments and related Treasury programs such as the 
second-lien modification program (2MP). HAMP-PRA also allows an 
investor to create a shared appreciation modification, where any gains 
upon sale would be shared by the investor and homeowner, as some 
Senators have recommended. \65\
---------------------------------------------------------------------------
     \65\ https://www.congress.gov/bill/113th-congress/senate-bill/
2854?q=%7B%22search%22%3A%5B%22Preserving+American+Homeownership+Act%22%
5D%7D
---------------------------------------------------------------------------
    FHFA has previously raised concerns about the operational burdens 
associated with implementing principal reduction. While these concerns 
are valid and real, Treasury has offered to pay the additional 
administrative costs required to implement HAMP-PRA and to free up 
human and technical resources that would accelerate implementation of 
this program.
    If FHFA will not provide principal reduction, or for homeowners for 
whom a new principal reduction program would not come in time, we 
encourage FHFA to continue to explore additional ways to enable former 
homeowners to buy back their homes at fair market value. Recently, FHFA 
announced that it will permit former homeowners who have gone through a 
foreclosure or deed-in-lieu to buy back their house at fair market 
value if they are able to obtain financing through a channel other than 
the GSEs. However, most homeowners whose homes are already in the REO 
portfolio are not likely to be in a position to return to their home or 
to obtain financing to do so, given the damage to their credit score 
and the need to have already moved out.
    Instead, FHFA should focus on enabling mission-based organizations 
to assist troubled underwater borrowers in a short sale transaction 
whereby homeowner can repurchase their own home if they can afford the 
mortgage at the fair market value. Sometimes called a ``structured 
short sale,'' this transaction provides a way for borrowers to right-
size their mortgage without forcing them through a foreclosure or 
risking an eviction. Borrowers should still be required to meet the 
GSE's existing hardship requirements for obtaining a short sale.
    4. If and when Fannie Mae or Freddie Mac sell nonperforming loans 
in bulk, FHFA should require that these sales actively promote home 
retention and neighborhood stability.
    Between them, Fannie Mae and Freddie Mac hold close to 700,000 
seriously delinquent loans. \66\ Many of these loans have languished 
for years, with foreclosures in process or imminent. Observers had long 
speculated that Fannie and Freddie would sell these loans to investors 
at a discounted rate to minimize Enterprise losses, as the Federal 
Housing Administration, or FHA, has been doing. Confirming this 
speculation, this past August, Freddie Mac auctioned its first pool of 
nonperforming loans. \67\
---------------------------------------------------------------------------
     \66\ Federal Housing Finance Agency, ``Foreclosure Prevention 
Report: May 2014'', (2014) available at http://www.fhfa.gov/AboutUs/
Reports/ReportDocuments/ForeclosurePreventionReportMay2014FINAL.pdf.
     \67\ Nick Timiraos, ``Freddie Mac To Sell $659 Million in 
Defaulted Home Loans Sale Is a First for the Mortgage Finance Giant 
Under Government Control'', The Wall Street Journal, August 1, 2014.
---------------------------------------------------------------------------
    We encourage FHFA to follow the recommendations we outlined above 
for FHA in making home retention and neighborhood stability an explicit 
goal for any further Enterprise note sales. In particular, we recommend 
that FHFA impose on purchasers meaningful post-sale requirements aimed 
at home retention and neighborhood stabilization, including an explicit 
loss-mitigation waterfall; encourage sales to nonprofit or other 
entities who will prioritize these goals; and collect and regularly 
share data on outcomes. \68\ Especially given strong investor demand 
for nonperforming loans, we do not think such requirements would unduly 
impact investor bids for the loans.
---------------------------------------------------------------------------
     \68\ To view CAP's full recommendations on how FHA should improve 
the DASP program, see Sarah Edelman, Julia Gordon, and Aashna Desai, 
``Is the FHA Distressed Asset Stabilization Program Meeting Its 
Goals?'' (Center for American Progress: 2014), available at http://
www.americanprogress.org/issues/housing/report/2014/09/05/96531/is-the-
fha-distressed-asset-stabilization-program-meeting-its-goals/.
---------------------------------------------------------------------------
    5. FHFA should instruct Fannie and Freddie to reform their approach 
to lender-placed (force-placed) insurance.
    FHFA has recognized that abuses within the lender-placed insurance 
market--the insurance a lender must obtain on behalf of a homeowner if 
a homeowner's property insurance lapses--are burdensome not only for 
consumers but also for Fannie Mae and Freddie Mac. The GSEs spent $360 
million on lender-placed insurance premiums in 2012 alone, according to 
the FHFA Office of Inspector General. \69\ The costs of forced-placed 
insurance are exorbitant because mortgage servicers often receive 
kickbacks--in the form of free or below-cost services, commissions or 
bonuses--from insurance companies. Homeowners, and the GSEs when a 
homeowner loses their home to foreclosure, are responsible for paying 
the FPI bill.
---------------------------------------------------------------------------
     \69\ FHFA Office of Inspector General, ``FHFA's Oversight of 
Enterprises Lender-Placed Insurance Costs'', (2014) available at http:/
/fhfaoig.gov/Content/Files/EVL-2014-009.pdf.
---------------------------------------------------------------------------
    FHFA took an important step last year to lower FPI costs by 
prohibiting mortgage servicers from collecting commission from 
insurance companies for buying FPI. FHFA also included lowering FPI 
costs as an objective in the GSEs 2014 performance scorecard. However, 
these steps alone will not bring down the costs of FPI since insurance 
companies, and mortgage servicers are likely to find new ways to 
exchange kickbacks. FHFA must consider a more comprehensive approach to 
prevent the kickbacks between insurance companies and mortgage 
servicers, and we recommend they consider allowing the GSEs to purchase 
insurance directly, instead of reimbursing mortgage servicers. Cutting 
out the middle man could help protect consumers and taxpayers from 
inflated costs.
            C. The Consumer Financial Protection Bureau should continue 
                    to improve CFPB servicing rules.
    The CFPB's servicing rules provide essential procedural protections 
that promote better servicing outcomes for homeowners, investors, and 
communities. The recent proposed amendments to that rule make 
substantial improvements in crucial areas including transfers of 
servicing, bankruptcy, and access to the loss mitigation system for 
subsequent hardships. They also make important strides in protecting 
homeowners who seek assistance following death or divorce of a 
cohomeowner.
    However, there are still some basic building blocks to servicing 
reform that are not yet in place. First, servicer compensation reform 
has been sidetracked and must be revived. As long as servicers profit 
at the expense of homeowners and investors, the system will not 
reliably produce healthy outcomes for the housing market and 
communities regardless of the rules or enforcement thereof. Regulators 
must come together to develop a framework to modernize and rationalize 
servicer compensation.
    Second, with the eventual sunset of the Home Affordable 
Modification Program (HAMP), policymakers need to find a way to require 
loss mitigation and to require sustainable modifications to homeowners 
that also benefit investors. Loss mitigation before HAMP did not always 
happen, and when it did, it did not always promote long-term home 
retention. Without rules in place, it is possible--perhaps even 
likely--that the system will soon forget the lessons of the crisis. To 
the extent that CFPB does not or cannot mandate loss mitigation and a 
substantive requirement for loan modifications, Congress and other 
regulators should step in to ensure that such a requirement is 
developed.
    Third, we encourage CFPB to continue to address issues that remain 
outstanding in other follow-up actions to their servicing rules. For 
example, current rules do not yet clarify what homeowners need to 
submit to have their request for assistance reviewed. In addition, 
borrowers who do not speak English as their native language continue to 
face significant problems communicating orally and in writing with 
mortgage servicing companies.
            D. Policymakers should take steps to help renters, 
                    particularly very low-income renters.
    1. FHFA should capitalize the Housing Trust Fund and Capital Magnet 
Fund.
    In the Housing and Economic Recovery Act of 2008 that created FHFA, 
Congress created a mechanism by which Fannie and Freddie would 
capitalize the Housing Trust Fund and Capital Magnet Fund, both sources 
of subsidy to produce affordable housing for very low-income families. 
After FHFA put Fannie and Freddie into conservatorship, however, it 
prohibited the companies from contributing these funds at all.
    While this prohibition may have been justified when the Enterprises 
were drawing on taxpayer funds to stay afloat, now that they have 
returned to profitability, there is no justification for continuing the 
prohibition. We believe that FHFA has both the right and the 
responsibility to direct the Enterprises to begin contributing to these 
funds right away.
    2. Congress should extend the Low-Income Housing Tax Credit.
    Since its creation in 1986, the Low-Income Housing Tax Credit, or 
LIHTC, has leveraged more than $100 billion in private investment 
capital through a dollar-for-dollar reduction in a developer's tax 
liability, providing critical financing for the development of more 
than 2.5 million affordable rental homes. \70\ The program annually 
supports 95,000 jobs and finances approximately 90 percent of all 
affordable rental housing. Moreover, it is a critical resource to 
transform communities suffering from blight. \71\
---------------------------------------------------------------------------
     \70\ LISC, ``The Low Income Housing Tax Credit'', (2013), 
available at http://www.lisc.org/docs/resources/policy/
Policy_Brief_LIHTC.pdf.
     \71\ Ibid.
---------------------------------------------------------------------------
    Ever since the minimum Housing Credit rate expired at the end of 
2013, Housing Credit developments have been underwritten using a 
floating rate, which has hovered near 7.5 percent. The tax extenders 
package from the House would provide a minimum 9 percent credit rate 
through January 1, meaning there are essentially no housing deals that 
will benefit from this provision. Congress should extend the Housing 
Credit's 9 percent minimum credit rate floor for 2 years until the end 
of 2015 so at least 1 year would have the full benefit.
    3. Congress should protect important programs for affordable 
housing from budget cuts.
    In 2012, 75 percent of extremely poor households paid more than 
half of their meager incomes for housing. This results in little left 
over for groceries, medication, transportation, and other of life's 
necessities. It also is a strong determinant of homelessness, which is 
much more expensive than rental assistance to mitigate.
    HUD's rental assistance programs (public housing, project-based 
Section 8, and housing choice vouchers), which serve about 5 million 
extremely low income households, are facing a big threat next year: 
sequestration. HUD programs, although they serve the poorest 
households, are not exempt from sequestration's impacts. Sequestration 
has already led to 100,000 fewer low-income families receiving housing 
vouchers. \72\ As a result of sequestration and other austerity 
measures enacted since 2011, nondefense discretionary funding in FY14 
was about 15 percent below 2010 levels, adjusted for inflation. Without 
action to stop sequestration, in FY16 nondefense discretionary programs 
will decline to 3.1 percent of GDP--equal to the lowest level in at 
least 50 years. These programs already serve only one quarter of those 
eligible, and it is critical not to cut these budgets further. \73\ 
Congress must protect these most vulnerable residents from losing one 
of the few forms of housing assistance currently available.
---------------------------------------------------------------------------
     \72\ Douglas Rice, ``Sequestration's Rising Toll: 100,000 Fewer 
Low-Income Families Have Housing Vouchers'', (Washington: Center on 
Budget and Policy Priorities, 2014), available at http://www.cbpp.org/
cms/index.cfm?fa=view&id=4229.
     \73\ Rice, ``Better Federal Policy Needed To Address Rental 
Affordability Crisis''.
---------------------------------------------------------------------------
    Additionally, we recommend a renewed commitment of funding to the 
HOME Investment Partnerships program. This program creates affordable 
housing for people in need nationwide--since 1992 over one million 
homes. It does so by giving States and localities the flexibility to 
deploy scarce resources to the affordable housing challenges particular 
to their communities. HOME leverages other resources almost four to 
one, and frequently is critical gap financing for Low Income Housing 
Tax Credit properties.
    4. Congress and agencies should act to encourage renters to 
increase their savings.
    Another opportunity for addressing inequality in our housing market 
lies in developing programs that effectively encourage renters to build 
assets. Renter households in the United States have a median net worth 
of about $5,100, while households that own homes have a median net 
worth of more than $170,000. \74\ This inequality remains true when 
comparing renters with incomes comparable to their homeowner 
counterparts. \75\ A significant cause of this phenomenon is the fact 
that mortgage payments typically represent a form of ``forced 
savings,'' while renting lacks a similar mechanism to encourage 
households to save. The proportion of the population who rents is 
expected to grow in the coming years, portending an increase in our 
Nation's already large wealth inequality.
---------------------------------------------------------------------------
     \74\ Joint Center for Housing Studies, ``The State of the Nation's 
Housing 2013: Appendixes'', (2013) Table A-6, available at http://
www.jchs.harvard.edu/sites/jchs.harvard.edu/files/
son2013_chap7_appendix_tables.pdf.
     \75\ Joint Center for Housing Studies, ``America's Rental Housing: 
Evolving Markets and Needs'', (2013), available at http://
www.jchs.harvard.edu/sites/jchs.harvard.edu/files/
jchs_americas_rental_housing_2013_1_0.pdf.
---------------------------------------------------------------------------
    Addressing this issue will not be easy, but research and experience 
suggest there are ways we can encourage more renters to save. HUD's 
Family Self-Sufficient Program, which escrows into a separate account 
the increased portion of rent a public housing tenant would be expected 
to pay if their income increases, has proven to be a powerful savings 
vehicle for many participating households. \76\ We support legislative 
efforts to enhance and extend this program to more groups of renters 
receiving some kind of Government assistance. \77\
---------------------------------------------------------------------------
     \76\ Hannah Emple, ``Asset-Oriented Rental Assistance: Next 
Generation Reforms for HUD's Family Self-Sufficiency Program'' 
(Washington: New America Foundation, 2013); Planmatics, Inc. and Abt 
Associates Inc., ``Evaluation of the Family Self-Sufficiency Program: 
Prospective Study'' (U.S. Department of Housing and Urban Development, 
Office of Policy Development and Research, 2011).
     \77\ See the Family Self-Sufficiency Act (S. 454), introduced by 
Sens. Reed and Blunt.
---------------------------------------------------------------------------
    Programs implemented by nonprofits and for-profit landlords alike 
likewise show promise in promoting savings among renting households. 
And behavioral economics research suggests that an effective renter 
savings program would make savings automatic, make participation easy, 
give short-term rewards for saving and, if possible, provide a match 
for savings. \78\ As more families rent rather than own homes, it is 
critical to ramp up the policy discussion about how to make it easier 
for renters to build wealth.
---------------------------------------------------------------------------
     \78\ This research is summarized in David Abromowitz and Sarah 
Edelman, ``As More Households Rent, How Can We Encourage Them to 
Save?'' (Washington: Center for American Progress, 2014), available at 
https://www.americanprogress.org/issues/housing/report/2014/09/10/
96706/as-more-households-rent-how-can-we-encourage-them-to-save/.
---------------------------------------------------------------------------
Conclusion
    In the aftermath of the Great Recession, policymakers face some 
important choices. We can tolerate a weaker housing market in which 
fewer families build wealth through home ownership, more lower-income 
renters must choose between decent housing and other necessities, and 
too many communities lack access to safe and affordable mortgage 
credit. Alternatively, we can work to create a healthier and more 
equitable housing market by promoting sustainable home ownership, 
affordable rental housing, and stronger neighborhoods. Choosing the 
latter will require action by a wide array of policymakers and market 
participants, which is challenging. Ultimately, however, by working 
together, we can create a more robust, fairer housing market that 
drives economic growth and promotes opportunity for America's families.
    Thank you again for inviting me to testify today. I look forward to 
continuing to engage with you on these and other issues.
                                 ______
                                 
                 PREPARED STATEMENT OF DEBORAH GOLDBERG
        Special Project Director, National Fair Housing Alliance
                            December 9, 2014
    Good morning, Mr. Chairman and Members of the Subcommittee. Thank 
you for the opportunity to testify here today on ``Inequality, 
Opportunity, and the Housing Market''. My name is Debby Goldberg, and I 
am a Special Project Director at the National Fair Housing Alliance 
(NFHA). Founded in 1988, and headquartered in the District of Columbia, 
the National Fair Housing Alliance is a consortium of more than 220 
private, nonprofit fair housing organizations, State and local civil 
rights groups, and individuals from 37 States and the District of 
Columbia. Through comprehensive education, advocacy, and enforcement 
programs, NFHA seeks to provide equal access to housing for millions of 
people.
    The title for this hearing is one that resonates with NFHA and its 
members. We work at the intersection of housing and opportunity, and we 
are very mindful of the impact that where people live has on so many 
aspects of their lives. It determines whether they have access to good 
schools, good jobs, quality health care, good transportation, a healthy 
environment, and so much more--the kinds of resources and opportunities 
that we all need to flourish. As Americans, we believe strongly that 
everyone should have access to opportunity, regardless of the color of 
their skin, their gender, their ancestry, the language they speak, 
where they worship, or whether they have children. Unfortunately, the 
reality often differs from this ideal, as we can see clearly in the 
housing market.
    My testimony today will focus on widespread problems in the 
maintenance and marketing of foreclosed properties, particularly in 
communities of color, and the long-term impact of those problems. It is 
based on a 5 year investigation conducted by the National Fair Housing 
Alliance. I will also describe some of the patterns and practices that, 
over many decades, created the conditions in which these problems could 
take root. Finally, I will draw some lessons for future policies and 
programs that are suggested by the conclusions of our investigation.
Why Homeownership Matters
    Home ownership has long been the key to opportunity in this 
country--a path into the middle class. Home ownership has provided 
millions of families the means to create economic stability and build 
wealth. Families have used the equity in their homes to send their kids 
to college, start or expand small businesses, weather economic 
hardships, fund retirement, and pass along wealth to the next 
generation.
    But home ownership rates in the U.S. vary tremendously by race and 
national origin, and have done so for many decades. According to the 
Census Bureau, \1\ in 1994, some 70 percent of White households were 
homeowners, while for both Black and Hispanic households the rate was 
closer to 42 percent. In 2004, the White home ownership rate hit a high 
of 76 percent, while the rates for Black and Hispanic households rose 
to 49 percent. At the end of the third quarter of this year, the White 
home ownership rate had fallen to 72.6 percent, and the rates for 
Blacks and Hispanics were 42.9 percent and 45.6 percent, respectively. 
As these figures illustrate, while home ownership rates have risen and 
fallen for all homeowners, the gap between home ownership rates for 
White households and others has remained remarkably constant. 
Households of color have not experienced the benefits of home ownership 
to the same degree as their White counterparts.
---------------------------------------------------------------------------
     \1\ See ``Quarterly Homeownership Rates by Race and Ethnicity of 
Householder: 1994 to Present'', available at http://www.census.gov/
housing/hvs/data/histtabs.html.
---------------------------------------------------------------------------
    There are many factors that explain these differences. They include 
policies of the Federal Government, enacted many decades ago, that 
provided access to affordable home ownership for White families while 
denying it to their Black counterparts. Foremost among these were the 
early policies of the Federal Housing Administration (FHA). FHA fueled 
the expansion of the suburbs in the post-World War II era, insuring 
construction loans for companies building new subdivisions, as long as 
they agreed not to sell any of the houses to Black families. Similarly, 
FHA's insurance for individual mortgages made long term, fixed rate, 
low downpayment loans available to White families of modest means, but 
excluded Black families from obtaining similar mortgages. \2\ This 
practice came to be known as ``redlining.'' FHA has long since changed 
its policies, and has become an important source of mortgage financing 
for many families, including families of color. But the policies it 
adopted in its early years laid the foundation for the differences in 
home ownership rates that we see today. And the policy changes alone 
have not eliminated the gap.
---------------------------------------------------------------------------
     \2\ For a more detailed description of the racially exclusionary 
policies of the FHA and other Government agencies, see Richard 
Rothstein, ``The Making of Ferguson: Public Policies at the Root of Its 
Troubles'', Economic Policy Institute, October 15, 2014, available at 
http://www.epi.org/publication/making-fguson/.
---------------------------------------------------------------------------
    These Federal Government policies were adopted by those in the 
private sector, and for decades, inner city communities, communities of 
color, and low- and moderate-income communities were redlined--denied 
access to affordable, sustainable mortgages from mainstream financial 
institutions.
    During this past decade, communities of color that had previously 
been starved for credit were flooded with subprime and other 
unsustainable mortgages, a phenomenon that some have called ``reverse 
redlining.'' According to the Federal Reserve Board, in 2005-2006--the 
peak subprime lending years--more than 53 percent of the home purchase 
loans made to African Americans nationwide were subprime loans, as were 
more than 49 percent of the refinance loans made to these borrowers. 
African American borrowers were 3 times more likely to get a subprime 
home purchase loan and 2 times more likely to get a subprime refinance 
loan than White borrowers. During those same years, more than 46 
percent of the home purchase loans made to Latino borrowers were 
subprime, as were more than 34 percent of the refinance loans made to 
Latinos. They were 2.5 times more likely to get a subprime home 
purchase loan and more than 1.5 times more likely to get a subprime 
refinance loan than White borrowers. \3\
---------------------------------------------------------------------------
     \3\ Avery, Robert B., Kenneth P. Brevoort, and Glenn B. Canner, 
``Higher-Priced Home Lending and the 2005 HMDA Data'', Federal Reserve 
Bulletin, available at http://www.federalreserve.gov/pubs/Bulletin/
2006/hmda/default.htm; and ``The 2006 HMDA Data'', Federal Reserve 
Bulletin vol. 93, December 21, 2007, available at http://
www.federalreserve.gov/pubs/bulletin/2007/07index.htm.
---------------------------------------------------------------------------
    These differences cannot be explained by the creditworthiness of 
the borrowers. A Wall Street Journal analysis of subprime loans made in 
2005-2006 found that more than half of the borrowers (55 percent in 
2005, 61 percent in 2006) would have qualified for a prime mortgage. 
\4\ Evidence from several fair lending cases brought by the Department 
of Justice found that some lenders steered thousands of African 
American and Latino borrowers into subprime loans even though they were 
qualified for prime mortgages. \5\
---------------------------------------------------------------------------
     \4\ Brooks, Rick and Ruth Simon, ``Subprime Debacle Traps Even 
Very Creditworthy'', Wall St. Journal, December 3, 2007.
     \5\ See, for example, the cases brought by DOJ against Bank of 
America's Countrywide unit and Wells Fargo. Details available at http:/
/www.justice.gov/crt/about/hce/whatnew.php.
---------------------------------------------------------------------------
    These subprime loans, and other exotic mortgage products offered 
during the early and mid-2000s proved to be expensive and 
unsustainable. They contained many risky features, such as high upfront 
costs, negative amortization and adjustable payments that caused 
monthly payments to rise rapidly. They were targeted and heavily 
marketed to borrowers for whom they were not a suitable product, 
particularly borrowers of color. And they defaulted at historic rates. 
Research from the Federal Reserve Bank of San Francisco found that more 
than 35 percent of the subprime first lien mortgages originated in 2006 
defaulted within the first 24 months, compared to just over 10 percent 
of prime first lien mortgages originated in the same year. \6\
---------------------------------------------------------------------------
     \6\ Amromin, Gene, and Anna L. Paulson, ``Default Rates on Prime 
and Subprime Mortgages: Differences and Similarities'', Profitwise News 
and Views, Federal Reserve Bank of San Francisco, September, 2010.
---------------------------------------------------------------------------
    The result has been a deluge of foreclosures--an estimated 5 
million since 2008. \7\ Just as subprime lending was concentrated in 
communities of color, so have foreclosures been concentrated in these 
communities. Neighborhoods that were targeted for subprime lending have 
become neighborhoods with high rates of foreclosure. In 2011, the 
Center for Responsible Lending (CRL) found that, ``Nearly 25 percent of 
loans in low-income neighborhoods and 20 percent of loans in high-
minority neighborhoods have been foreclosed upon or are at high risk of 
default.'' \8\ CRL's research also found that, ``Approximately one 
quarter of all Latino and African American borrowers have lost their 
home to foreclosure or are seriously delinquent, compared to just under 
12 percent for White borrowers.'' As these statistics suggest, in many 
communities of color, there are now large numbers of vacant, foreclosed 
properties, also known as REOs (Real Estate Owned properties).
---------------------------------------------------------------------------
     \7\ CoreLogic estimates that 4.4 million foreclosures were 
completed between 2008 and May, 2013. It estimates another 594,000 
foreclosures were completed between June, 2013, and May, 2014. See 
CoreLogic National Foreclosure Report, May, 2013, available at http://
www.corelogic.com/research/foreclosure-report/national-foreclosure-
report-may-2013.pdf, and CoreLogic National Foreclosure Report, May, 
2014, available at http://www.corelogic.com/research/foreclosure-
report/national-foreclosure-report-may-2014.pdf.
     \8\ Bocian, Debbie Gruenstein, Wei Li, Carolina Reed, and Roberto 
G. Quercia, ``Lost Ground, 2011: Disparities in Mortgage Lending and 
Foreclosures'', Center for Responsible Lending, November 2011.
---------------------------------------------------------------------------
NFHA's REO Investigations
    Several years into the foreclosure crisis, NFHA began to hear 
complaints about the neglect of REO properties and the negative impact 
of those properties on the surrounding neighborhoods. This prompted us 
to begin investigating the REO maintenance and marketing practices of 
major lenders and the Government Sponsored Enterprises (GSEs). Since 
April, 2009, in partnership with 17 of our members, NFHA has inspected 
3,726 foreclosed properties in 29 metropolitan areas and 22 States. 
Some of these properties are located in predominantly White 
neighborhoods. Others are located in predominantly Black and/or 
Hispanic neighborhoods. Many of these neighborhoods are stable 
communities where the rate of home ownership is high. At each house, 
our investigators evaluate more than 30 aspects of maintenance and 
marketing, including curb appeal, structural integrity, signage, 
indications of water damage and the condition of the paint, siding, 
gutters, and downspouts.
Our Findings
    The findings of our investigation are detailed in the report, ``Zip 
Code Inequality: Discrimination by Banks in the Maintenance of Homes in 
Neighborhoods of Color'', a copy of which is attached to my testimony. 
This is the third report NFHA has issued since our investigations began 
in 2009, and unfortunately, the findings described in this report are 
as troubling as our earlier ones. What we found in many cases was that 
the system for managing REO properties in communities of color was 
broken. The companies that were hired to do the on-the-ground work of 
maintaining and marketing foreclosed properties failed to do their jobs 
properly. The banks, owners and investors who hired those on-the-ground 
companies failed to manage and oversee their work. And, for the most 
part, the Federal agencies with supervisory responsibility in this area 
failed to provide the guidance and oversight needed. The problem was 
particularly acute in communities of color, with a negative impact on 
the families who lost their homes to foreclosure, the families in the 
surrounding homes, and the cities in which those homes were located. In 
all of these ways, these neglected properties are a drag on our broader 
economic recovery. Because the problems are most acute in communities 
of color, they constitute a violation of the Federal Fair Housing Act, 
which prohibits discrimination in all aspects of housing, including 
marketing and maintenance, on the basis of race, color, religion, sex, 
national origin, family status, or disability. The Fair Housing Act 
also requires Federal agencies with housing and community development 
programs and activities to administer those programs and activities in 
a manner ``affirmatively to further'' the purposes of the Act. That is, 
in a manner to combat the problems associated with segregation and take 
steps to overcome them. The Fair Housing Act provides both a mandate 
and a tool for dealing with the kinds of problems we found with 
foreclosed homes in communities of color across the country.
    Some of the highlights of our findings are described below.
    We found that REO properties in White neighborhoods were well-cared 
for and well-marketed. They were more likely to have neatly manicured 
lawns, securely locked doors, and attractive, professional ``For Sale'' 
signs out front. These properties tended to be maintained to the 
standards of other homes in the neighborhood and attractive to real 
estate agents and potential homebuyers. Someone driving down the street 
would likely never know that the property was for sale because of a 
foreclosure.
    In contrast, REO properties in communities of color were more 
likely to have overgrown yards, trash on the premises, unsecured doors, 
and broken or boarded windows. These properties were not maintained to 
the standards of nearby homes. They appeared abandoned, blighted, and 
unappealing to potential homebuyers, even though they were located in 
stable neighborhoods where the surrounding homes were well maintained.
    Overall, our investigation found that, compared to REO properties 
in White communities, REOs in communities of color were:

  <bullet> 2.2 times more likely to have significant amounts of trash 
        and debris on the premises;

  <bullet> 2.3 times more likely to have unsecure, broken, or damaged 
        doors;

  <bullet> 2.0 times more likely to have damaged, broken, or boarded 
        windows;

  <bullet> 2.1 times more likely to have holes in the structure; and

  <bullet> 1.3 times more likely to lack a professional ``for sale'' 
        sign.

    In some cities, the disparities were much starker. For example:

  <bullet> In Memphis, TN, REOs in communities of color were 8.8 times 
        more likely to have significant amounts of trash and debris 
        littered throughout the property than REOs in White 
        communities.

  <bullet> In Hampton Roads, VA, REOs in communities of color were 6 
        times more likely to have unsecured, damaged, or boarded doors 
        than REOs in White communities.

  <bullet> In Miami, FL, REOs in communities of color were 3.7 times 
        more likely to have overgrown grass or dead leaves on the 
        property than REOs in White communities.

  <bullet> In Kansas City, MO/KS, REOs in communities of color were 3.6 
        times more likely to have damaged, broken or boarded windows 
        than REOs in White communities.

    Further, these maintenance deficiencies were cumulative. That is, 
REOs in communities of communities of color were more likely to have a 
greater number of deficiencies than those in White communities. In our 
investigation, 43.2 percent of REOs in White communities had fewer than 
5 deficiencies, compared to only 21.7 percent of those in communities 
of color. Conversely, 32 percent of the REOs we inspected in 
communities of color had 10 or more deficiencies, compared to only 12.4 
percent of those in White communities.
    In other words, REOs in communities of color were much more likely 
to have a great many deficiencies--such as large quantities of trash, 
broken or unsecured doors and/or windows, holes in the roof, missing or 
damaged gutters and downspouts, overgrown lawns and invasive plants, 
graffiti, damaged siding, and exposed or damaged utilities--than those 
in White communities.
Poor Maintenance Causes Many Problems
    These cumulative deficiencies lead to a host of problems. For 
example, they can cause health problems, both physical and mental. REOs 
with unsecured doors and windows invite trespassers and vandals, as 
well as rodents, insects, cats, dogs, and wildlife. These, in turn, can 
increase the risk of disease, and may also be triggers for asthma for 
nearby residents. There are other health consequences, as well. Recent 
research published by the American Heart Association found that living 
near a foreclosed home that remains vacant for some period of time 
increases a person's chance of developing high blood pressure. People 
who live near vacant properties may feel an increased sense of social 
isolation, affecting their psychological well-being. They are also less 
likely to walk, run, and play outside, with further health 
consequences.
    Poorly maintained REOs may also cause safety problems. They attract 
vagrants and criminal activity, and may be fire and safety hazards. 
Some of the REOs visited in NFHA's investigation have become the houses 
where people party on the weekends or engage in illicit activities, or 
where squatters take over. They also contribute to violent crime in a 
community. Research shows that for every 1 percent increase in the 
foreclosure rate in a census tract, violent crimes increase by 2.33 
percent. \9\
---------------------------------------------------------------------------
     \9\ Immergluck, Dan, ``The Impact of Single-Family Mortgage 
Foreclosures on Neighborhood Crime'', Vol. 21, No. 6 in Housing 
Studies, 851-866, http://www.prism.gatech.edu/di17/HousingStudies,pdf.
---------------------------------------------------------------------------
    All of these problems place an increased burden on municipal fire, 
police, health care, and other resources. At the same time, their poor 
condition depresses the value not only of these properties, but also 
the surrounding homes, even those that are occupied and well-
maintained. This results in lower tax revenues for municipalities, even 
as they must expend more resources to cope with the problems created by 
the REOs. It is not surprising that a number of cities have taken legal 
action in an effort to recoup the increased costs they experience in 
dealing with vacant, poorly maintained REOs. One example is the City of 
Los Angeles, which has sued both Deutsche Bank and U.S. Bancorp over 
their failure to comply with municipal building codes in their 
maintenance of foreclosed homes in that city.
Investor Purchases of REOs
    The poor maintenance and ineffective marketing of REO properties in 
communities of color also have an impact on who ultimately purchases 
these properties. In order to understand this relationship better, NFHA 
tracked the sales of REOs that were part of its earlier investigations 
in two Maryland Counties, Montgomery and Prince George's, and in 
Memphis, TN. In Maryland, we found that investors purchased 59 percent 
of REO properties that were poorly maintained (had 10 or more 
deficiencies), compared to 36 percent of those that were well 
maintained. Owner-occupants purchased 46 percent of the well maintained 
REOs, compared to only 12 percent of those that were poorly maintained. 
Because of the higher incidence of poor maintenance in communities of 
color, 52 percent of the REO properties whose sales we tracked in those 
communities were purchased by investors, compared to 33 percent of 
those in White communities.
    We found similar outcomes in Memphis. There, 70 percent of the REOs 
with 10 or more deficiencies were sold to investors, compared to 46 
percent of those that were well-maintained. Fifty-one percent of the 
well maintained properties were sold to owner-occupants, compared to 
only 20 percent of the poorly maintained REOs. In communities of color, 
70 percent of the REOs were sold to investors, compared to 18 percent 
in White communities. Twenty-four percent of REOs in communities of 
color were sold to owner-occupants, compared to 78 percent in White 
communities.
The Role of the Fair Housing Act
    The Federal Fair Housing Act requires banks, trustees, investors, 
servicers, and any other responsible party to maintain and market 
properties that are for sale or rent without regard to the race or 
national origin of the residents of a neighborhood. It is illegal to 
treat a neighborhood differently because of the race or national origin 
of the residents. Moreover, the law obligates banks, trustees, 
investors, and servicers to monitor the actions of vendors engaged in 
performing housing-related transactions to ensure that those third 
party entities comply with fair housing laws and obligations. Banks, 
trustees, investors and servicers who fail to ensure that the REOs they 
own and for which they are responsible are maintained and marketed 
without regard to the race or national origin of the residents of the 
neighborhood may be violating the Act.
    The Fair Housing Act also requires Federal agencies (including 
those with regulatory or supervisory responsibility over financial 
institutions) with programs or activities related to housing and 
community development to conduct those programs and activities in a 
manner that affirmatively furthers the purposes of the Act. Those 
purposes are two-fold: to eliminate discrimination from the housing 
market, and to overcome the negative effects of entrenched segregation. 
The subprime lending that was targeted to communities of color and the 
subsequent surge in foreclosures in those communities has exacerbated 
the problems related to segregation. Failure to maintain and market 
these properties properly makes the problems even worse.
    The Federal agencies responsible for overseeing the activities of 
banks, other investors and the GSEs have both the authority and 
obligation to ensure that they do not violate the Fair Housing Act in 
their maintenance and marketing of REO properties. Effective oversight 
can help stem this problem. To date, only the Federal Reserve Board has 
taken action in this area. It has provided guidance to the institutions 
it supervises about the liability to which they may be exposed for 
failure to ensure effective management of their REOs in communities of 
color. \10\ Further, the Board is incorporating this issue into the 
risk assessments it conducts for institutions in advance of an on-site 
examination. To NFHA's knowledge, none of the other Federal agencies 
with fair housing responsibilities have taken similar action.
---------------------------------------------------------------------------
     \10\ See Federal Reserve Board Supervision and Regulation Letter 
SR 12-10 / CA 12-9, Questions and Answers for Federal Reserve-Regulated 
Institutions Related to the Management of Other Real Estate Owned 
(OREO) June 28, 2012, available at http://www.federalreserve.gov/
bankinforeg/srletters/sr1210a1.pdf.
---------------------------------------------------------------------------
Recommendations
    Based on the results of our investigations into the management, 
maintenance, and marketing of REO properties, NFHA recommends that a 
number of steps be taken to prevent the kinds of problems we 
identified. These are detailed in our report, and I provide some 
highlights below.

  <bullet> Better Oversight From Federal Regulators and Congress--Many 
        of the entities that have engaged in discriminatory practices 
        in the REO market are federally regulated. Federal regulators, 
        including the Federal Housing Finance Agency, Federal Reserve 
        and others must be vigilant in their supervision to ensure that 
        banks and the GSEs do not implement practices that harm 
        neighborhoods of color or homeowners from protected classes 
        under the Fair Housing Act. The CFPB also has a role to play as 
        the key regulator of mortgage servicing. It does not have 
        authority under the Fair Housing Act, but does have authority 
        under the Equal Credit Opportunity Act. Congress must hold 
        hearings to investigate discrimination in the REO arena so that 
        neighborhoods of color and the businesses that support these 
        neighborhoods are not left behind in the economic recovery.

  <bullet> Sales Practices Should Help Stabilize Communities--banks and 
        other owners of REOs should not allow the homes to sell at 
        auction for prices significantly below the market value of 
        other homes in the neighborhood.

  <bullet> Selection and Management of REO Vendors--all of the vendors 
        selected to work on the disposition of REOs should receive 
        high-quality fair housing training, should not be the subject 
        of pending discrimination complaints, and should have resolved 
        any past complaints of discrimination successfully.

  <bullet> Marketing and Disposition Practices--brokers selected to 
        list REO properties for sale should have an office in close 
        proximity to the property, have the capacity to closely manage 
        and oversee the treatment of the REO, and should not have any 
        discrimination actions pending or any past complaints that were 
        not resolved satisfactorily. Further, banks and other REO 
        owners should implement better incentives for their brokers to 
        sell to owner-occupants rather than investors and should 
        severely restrict bulk sales. They should also make sure that 
        some of these homes are made available to nonprofit community 
        development organizations, community land trusts, and other 
        community-based and community-minded institutions that have a 
        vision for rebuilding healthy and vibrant neighborhoods.

  <bullet> Quality Control Measures--Banks and other owners must 
        implement better quality control measures across the board, 
        with swift and severe penalties for vendors who fail to do 
        their work in a professional manor. Special attention must be 
        directed to neighborhoods that have been found to be vulnerable 
        to poor work by vendors, including neighborhoods that are 
        predominantly African American, Latino, or Asian American, as 
        well as low- and moderate-income neighborhoods.

  <bullet> Transparent, Accurate, and Accessible Information About REO 
        Ownership--Every bank or REO owner should maintain a public 
        database containing all of its REO listings, including the name 
        and contact information of those responsible for the 
        maintenance or sale of the property. Neighbors and local 
        advocates must have access to clear ownership records that are 
        updated in an accurate and timely manner. Local governments 
        should continue to implement Vacant Property Registries, 
        monitor these registries, and routinely address any violations.

  <bullet> Create a Path Back to Home Ownership--Five million families 
        have lost their homes to foreclosure since September, 2008. 
        Evidence from Federal enforcement actions tells us that many of 
        these families were steered into loans that were more risky and 
        more costly than their financial qualifications should have 
        dictated. Others have been caught between record high levels of 
        sustained unemployment and falling home prices that have made 
        it impossible for them to sell or refinance their homes. 
        Offering these families a path back to home ownership is an 
        important component of rebuilding stable, vibrant communities. 
        Because so many of these families have been families of color, 
        it is also a fair housing issue.
Loss of Wealth Due to Foreclosures and Implications for the Future
    The foreclosure crisis has drained enormous wealth from communities 
across the country--an estimated $2.2 trillion, according to CRL. Half 
of that amount, $1.1 trillion, has been lost by communities of color. 
\11\ To be clear, this is not the direct cost to families who have lost 
their homes to foreclosure, but rather the loss to families in nearby 
homes due to the decline in the value of their homes. The Pew Research 
Center reached similar findings. Between 2005 and 2009, according to 
Pew, Blacks and Hispanics lost 53 percent and 66 percent of their 
household wealth, respectively, due to declining property values. In 
contrast, White households experienced a 16 percent loss in median 
household wealth. Thus, while the typical White household had $113,149 
in wealth in 2009, the typical Black household had only $5,677. For the 
typical Hispanic household, that figure was $6,325. \12\
---------------------------------------------------------------------------
     \11\ ``2013 Update: The Spillover Effects of Foreclosures'', 
Center for Responsible Lending, August 19, 2013, available at http://
www.responsiblelending.org/mortgage-lending/research-analysis/2013-crl-
research-update-foreclosure-spillover-effects-final-aug-19-docx.pdf.
     \12\ Kochhar, Rakesh, Richard Fry, and Paul Taylor, ``Twenty to 
One: Wealth Gaps Rise to Record Highs Between Whites, Blacks, and 
Hispanics'', Pew Research Center, July 26, 2011, available at http://
www.pewsocialtrends.org/files/2011/07/SDT-Wealth-Report_7-26-
11_FINAL.pdf.
---------------------------------------------------------------------------
    This loss of wealth has tremendous implications for the future. It 
limits the ability of families of color to tap the equity in their 
homes in the way that so many others have done: to send their kids to 
college, to start or expand a small business, to weather financial 
difficulties, to fund retirement, and to pass along wealth to the next 
generation. In other words, it limits their options and opportunities.
    This, in turn, has tremendous implications for the housing market 
and the economy as a whole. Seven out of ten new households formed over 
the next decade will be households of color. \13\ By 2025, people of 
color will make up nearly half of the typical first-time homebuyer 
population. \14\ If this group cannot afford to buy homes, the housing 
market may stall. Current homeowners may have difficulty selling their 
existing homes, whether to downsize as they age or to meet other needs. 
In order to maintain a robust housing market and a thriving economy, we 
must ensure that we address the lingering problems in communities hard 
hit by foreclosures and provide access to affordable, sustainable 
credit for borrowers of color.
---------------------------------------------------------------------------
     \13\ See The Joint Center for Housing Studies of Harvard 
University, ``The State of the Nation's Housing: 2013'', available at 
http://www.jchs.harvard.edu/sites/jchs.harvard.edu/files/son2013.pdf.
     \14\ See The Joint Center for Housing Studies of Harvard 
University, ``The State of the Nation's Housing: 2014'', available at 
http://www.jchs.harvard.edu/research/state_nations_housing.
---------------------------------------------------------------------------
Lessons for Other Policies and Programs
    NFHA's investigations into the management of REOs provide a window 
into the devastation caused by the foreclosure crisis, to the housing 
market, the overall economy, and especially to communities of color. It 
is a reminder of the importance of taking effective action to prevent 
abusive lending practices from causing this kind of devastation in the 
future. Full recovery will also require us to take affirmative steps to 
help people affected by foreclosure get back on their feet and to 
revitalize the hardest hit communities. Congress has an important role 
to play in this effort, as it shines a light on housing problems in 
hearings like this and as it oversees the work of relevant Federal 
agencies.
Reforming the Mortgage Market
    One way to prevent a recurrence of the foreclosure crisis is to 
ensure that the risky mortgage products and lending practices that 
characterized the subprime boom do not creep back into the mortgage 
market, either in the forms we saw during the 2000s or in new and 
different forms. By enacting the Dodd-Frank Wall Street Reform and 
Consumer Protection Act of 2010, with its prohibitions against the 
riskiest features of the types of mortgages and lending practices that 
caused the crash, Congress took an important step toward eliminating 
abusive mortgage lending practices. The regulations that the Consumer 
Financial Protection Bureau has issued to implement those statutory 
provisions will help ensure that Congressional intent is carried out. 
However, abusive practices can only be fully eliminated when strong 
regulations are accompanied by strong oversight and effective 
enforcement. In this, all of the Federal agencies with responsibilities 
for oversight of the mortgage market have important roles to play in 
policing the marketplace, as does Congress in its role as overseer.
    While it is important to shore up the regulatory system to prevent 
risky and abusive products and practices, it is critical to balance 
this risk reduction effort with the need to preserve access to 
affordable, sustainable credit for creditworthy borrowers. This means 
we should eliminate the features that, when layered together, made 
loans unsustainable--such as high points and fees, negative 
amortization, rapidly rising monthly payments, and the like. At the 
same time, we must be careful not to impose requirements, such as large 
downpayments, that bear little relationship to risk but have the effect 
of eliminating a great many creditworthy potential borrowers, 
particularly borrowers of color, from eligibility for a mortgage. 
Similarly, we must ensure that the pricing policies adopted by the GSEs 
and FHA do not unfairly and unnecessarily shut these borrowers out of 
the market.
    Another way to ensure that borrowers and communities are not 
further harmed by widespread foreclosures is to prevent those 
foreclosures that can be avoided, both now and in the future. This 
requires reforms to mortgage servicing. The CFPB has issued regulations 
to begin this process, and has further regulations in this area out for 
public comment now. The testimony of Julia Gordon, from the Center for 
American Progress, addresses these regulations and NFHA endorses her 
comments on this subject.
Sale of Nonperforming Loans
    There are a great many borrowers currently at risk of foreclosure, 
whose loans are in default. Many of these loans are owned or backed by 
entities under Federal control. The Federal Housing Administration has 
more than 311,000 mortgages that are 90 days delinquent, \15\ and the 
two GSEs have another $100 billion of seriously delinquent loans. \16\ 
Both are taking steps to minimize their losses by selling pools of 
these nonperforming loans to investors rather than putting them through 
the foreclosure process. FHA has created the Distressed Asset 
Stabilization Program (DASP), and this past summer, FHFA authorized a 
bulk sale of nonperforming loans by Freddie Mac, which is expected to 
be the first in a number of such sales by both GSEs. In theory, selling 
these loans for an amount below the unpaid principal balance creates 
the opportunity for a win-win-win situation. The agencies that own or 
back these loans get an immediate return on the sales and eliminate 
their exposure to future risk. The investors who purchase these loans 
get a bargain and the opportunity to restructure the loan and create a 
stream of income for the future. The homeowner gets a shot at a 
restructured loan, which may include a reduced loan balance, which is 
affordable and sustainable and allows them to stay in the home. This 
avoids a foreclosure, which is costly to all parties. It avoids the 
potential problems that NFHA's investigation into REO maintenance and 
marketing identified, and it helps to stabilize the community, 
preserving the value of other loans in the same area that are owned or 
backed by the agency.
---------------------------------------------------------------------------
     \15\ Annual Report to Congress Regarding the Financial Status of 
the FHA Mutual Mortgage Insurance Fund Fiscal Year 2014, U.S. 
Department of Housing and Urban Development, Federal Housing 
Administration, November 17, 2014.
     \16\ Chrisman, Rob, ``Non-Performing Loan Market on Fire; Rates 
Back to June 2013 Levels but Production May Drag'', Mortgage News 
Daily, August 18, 2014.
---------------------------------------------------------------------------
    In order to achieve this triple bottom line, however, the sales of 
loan pools must be structured to accomplish all of these goals. To the 
extent possible, pools should be sold to mission-driven nonprofits or 
mission-minded for-profits that are committed to preserving home 
ownership for the largest possible number of borrowers. The desired 
outcomes and program parameters should be explicit, and purchasers 
should be required to report on the outcomes they achieve. The programs 
should be transparent, with information about outcomes made available 
to the public. And steps must be taken to ensure that borrowers of 
color are treated fairly and have the same opportunity to save their 
homes as other borrowers.
    In addition, before any loan is sold, it is critical to ensure that 
all of the required loss mitigation steps have been taken. Servicers 
should document the steps they have taken, and the responsible agency 
should verify the accuracy of that documentation. Borrowers should be 
notified in advance that their loan may be sold, and should be informed 
of the loss mitigation steps their servicer says it has taken. In this 
way, the borrower can help with the verification process.
    HUD is moving in the right direction with its DASP program, but 
that program can and should be strengthened. Provisions like these were 
not built into the nonperforming loan sales that Freddie Mac conducted 
last summer, and to date, it is not clear whether or how FHFA will 
structure future sales by the GSEs to accomplish these goals. This is 
another area where Congressional oversight would be useful.
Conclusion
    We have made substantial progress in dealing with the foreclosure 
crisis, but there is more work to do to restore a robust housing market 
and ensure that all communities have an opportunity to share in the 
recovery. NFHA's investigation into the management of REO properties 
shines a spotlight on some of the persistent problems that remain to be 
solved. It also underscores the importance of using all of the 
Government's tools to their best effect to eliminate inequality and 
restore opportunity in our Nation's housing market.
    Thank you for the opportunity to testify here today. I will be 
happy to answer your questions, and look forward to working with you in 
the months ahead.
               RESPONSES TO WRITTEN QUESTIONS OF
             CHAIRMAN MENENDEZ FROM WAYNE T. MEYER

Q.1. For communities that are still struggling to recover from 
the downturn--for example, with high concentrations of 
distressed mortgage borrowers or homeowners with underwater 
mortgages--in your experience in the market, are there 
strategies to break the cycle of home price decline? What more 
can be done?

A.1. At New Jersey Community Capital (NJCC), we believe early 
intervention and meaningful mortgage modification through 
principal reduction are the keys to stabilizing neighborhoods 
and halting the downward spiral of home prices. Gaining control 
of the properties is the first step. NJCC acquires 
nonperforming mortgages in bulk and works with homeowners to 
modify their mortgages to affordable levels through meaningful 
principal reduction. Other loans in the pools provide an 
opportunity to create affordable for-sale and rental housing 
units. NJCC also takes positions in properties through the 
acquisition of tax liens and looks to aggressively assume first 
position in an effort to gain the property through tax 
foreclosure and return it to productive reuse. NJCC also 
acquires real estate owned (REO) properties in an effort to 
rehabilitate abandoned and vacant properties and create 
accurate comparable real estate listings and pricing. Together 
these efforts create a healthy, stable local real estate market 
with rational home prices.
    Additionally, we have been advocating with the FHFA to 
allow principal reduction as a modification strategy for FHA 
loans. We have also advocated with HUD to allow for changes to 
the Distressed Asset Stabilization Program (DASP), which we 
believe would bring about more positive neighborhood 
stabilization effects.

Q.2. As many of you noted in your testimony, the share of 
homeowners with negative or low equity on their homes has been 
improving, but it's still elevated and the rebound has not been 
uniform. In cities like Newark, Paterson, and Elizabeth in my 
State of New Jersey, for example, the underwater rates are much 
higher than the national average--and many in my State who were 
already struggling from the financial crisis then had to deal 
with an additional major hit from Superstorm Sandy.
    Can you please explain the impact on the housing market of 
homeowners who are still struggling with high debt burdens, 
particularly at the entry-level segment of the market?

A.2. Homeowners struggling with high debt burdens will 
typically forgo paying mortgage payments after reducing other 
nonessential household expenses. However, certain expenses are 
simply necessary to daily life. After falling behind and 
becoming delinquent, it is near-impossible for most homeowners 
in at-risk communities to cure default. Instead, these 
homeowners are served a notice of foreclosure. First-time 
homebuyers, who do not receive counseling, often struggle with 
budgeting when household finances decrease or cease and in many 
cases do not know where to turn for help.

Q.3. Are there particular populations or communities that were 
especially hard hit and continue to face challenges?

A.3. Firstly, this problem impacts minority populations and 
communities both disproportionately and more severely. A home 
often represents a large portion of the generational wealth for 
these families, making the threat of foreclosure that much more 
devastating. In New Jersey, the major urban corridors of 
Newark, Jersey City, Paterson, Passaic, Trenton, Camden, 
Plainfield, Asbury Park, and Atlantic City continue to 
experience the compounding negative effects of increased 
foreclosures and neighborhood disinvestment and decline. 
However, more and more communities along the shore and 
elsewhere face mounting challenges and realize the hard-hitting 
effects of foreclosure, including Toms River, Bridgeton, 
Vineland, Brick, and Egg Harbor.

Q.4. What is the impact for the broader economy of the 
continuing number of homeowners with distressed mortgages? To 
what extent are consumers still holding back spending because 
of outsized debt burdens?

A.4. NJCC works in at-risk communities throughout the State, 
which share a disproportionate burden of homeowners in default. 
Several of these households are faced with the impossible 
choice to forgo proper nutrition and wellness in an effort to 
save their homes. These budgeting tactics risk more than just 
their financial ruin. In Newark, for example, Dr. Hanaa Hamdi, 
Director of Health and Human Services for the City, while 
completing research for her dissertation, found that price 
gouging by corner stores and bodegas in certain communities 
takes place at the beginning of each month when at-risk 
families receive public assistance, SNAP and WIC benefits. Even 
if these struggling families had the means to stimulate the 
broader economy with retail purchases, some still fall victim 
to the malice of others. These homeowners simply lack the 
necessary disposable income to boost the broader economy.

Q.5. As our witnesses know, the Federal Housing Finance Agency 
currently prohibits Fannie Mae and Freddie Mac from engaging in 
mortgage modifications that involve principal reductions for 
homeowners--even when it would result in a positive net present 
value compared to the alternative of a foreclosure. Mr. Meyer, 
you testified that principal reductions can be one of the most 
effective forms of modification--a win for the mortgage 
investor, the homeowner, and the community. Can you please 
elaborate?

A.5. When NJCC purchases delinquent loans, we are now the 
mortgage holder. We have the ability to modify our investment 
as we see fit. Everyone's home in the mortgage pool is eligible 
for a mortgage modification and principal reduction. We do not 
face moral hazard issues. However, after a thorough analysis of 
the household's finances by a ReStart Specialist--our specially 
trained, local housing counseling agency partners--many 
homeowners will not qualify for a modification. Those families 
are provided transitional assistance and the counseling 
agencies assist them with finding a new, sustainable living 
situation. For those homeowners, who do qualify, their mortgage 
is right-sized, meaning it is resized to the current market 
value or as close as possible to the current market value of 
the home. The homeowner then enters into a trial modification 
period for a period of 3-18 months. Once the trial is 
concluded, the modification becomes permanent. By offloading 
distressed assets, the mortgage issuer or current investor 
receives fair value for the mortgages, removes liabilities from 
their ledger, and can use the sale proceeds to make further 
investments. NJCC, as the new mortgage holder, helps anchor 
residents remain in their homes, decreasing neighborhood 
delinquency, and stabilizing the local markets through 
continued home ownership or the rehabilitation and sale or 
rental of the underlying homes at rational prices and 
affordable levels. Struggling neighborhoods profit the most, 
followed by our organization, and then the seller of the 
mortgages. However, stabilizing a neighborhood then protects 
the other investments NJCC or the seller of the mortgages has 
in that neighborhood. The seller can then realize gains on 
these stable investments and perhaps profit more on future home 
sales.

Q.6. Mr. Meyer, you testified about New Jersey Community 
Capital's ReStart initiative, under which you raise funding to 
purchase distressed mortgages and, where possible, modify them 
to find a sustainable mortgage for the homeowner or convert the 
property to affordable rental housing.
    What impact do Hardest Hit Funds have on your ability to 
bid for, manage, and modify mortgages in these pools?

A.6. Senator Menendez, in Florida our ReStart program has 
benefited greatly from a set aside of Hardest Hit Funds. Not 
only do the Hardest Hit Funds allow us to write down mortgages 
to the current market value of the underlying property, but 
they are integral to amassing and leverage the large amounts of 
private capital needed to purchase these pools of delinquent 
notes. In New Jersey, for example, our economic model for 
purchasing the pools relies heavily on a blend of debt and 
equity, while in Florida our model can leverage a transaction 
comprised of almost all equity investment. The Hardest Hit 
Funds are this powerful in attracting private investment and 
giving private capital investors comfort. So much so, that as a 
nonprofit organization, which is able to access the Hardest Hit 
Funds for mortgage modifications, purchasers of delinquent 
pools eligible for Hardest Hit Funds, have come to us to be 
their loss mitigation manager for these pools. We use our 
ReStart model and the Hardest Hit Funding to write down the 
loans. We keep qualified homeowners in their homes and provide 
the mortgage holders with a right-sized, reperforming 
investment. Without a commitment of Hardest Hit Funds, our 
model is more difficult to administer, and our ability to 
manage pools for other investors is very limited.

Q.7. Your testimony discusses your work with loans sold by the 
Federal Housing Administration. Are you looking at ways to 
expand or pursue similar efforts, whether with FHA or other 
Government or private sector entities?

A.7. Yes, Senator. In fact, we are advocating and talking to 
Government-sponsored entities (GSEs), in an effort for them to 
allow the sale of delinquent loans via a program similar to the 
HUD DASP. We also continue to advocate for changes to DASP as 
well. While our ReStart model has shown the power of principal 
reduction and large-scale creation of affordable housing, we 
have had difficulty making headway with financial institutions 
in regards to direct purchases of pools of delinquent loans in 
their inventory. However, we hope to enter into due diligence 
for a mortgage pool transaction with one of the five major 
financial institutions in the country shortly.

Q.8. What lessons or recommendations would you make based on 
your experience with ReStart, whether for the FHA or other 
organizations like yours that might be interested in pursuing 
similar initiatives? For example, FHA and Freddie Mac have 
offered distressed asset sales. How could the terms and 
timelines for these offerings be improved to encourage more 
nonprofit and community lending organizations to participate?

A.8. This is perhaps the most important question and issue to 
address, Senator. It is very difficult for nonprofit 
organizations to participate in the loan sale programs. First, 
the size of the loan pools require a considerable amount of 
capital, which is difficult for nonprofits to raise in the time 
afforded. The size of the pools makes careful due diligence 
difficult to complete for nonprofits, and the period of time is 
also too short. Setting aside specific, smaller pools 
designated for nonprofits would help solve these two 
challenges. The other major challenge for nonprofits is the bid 
process itself. Bidding is highly competitive, and nonprofits 
are easily outbid by bigger capital players. Direct sales to 
nonprofits of these smaller, targeted pools are a simple and 
viable remedy. If the impetus for these loan sales is to 
stabilize neighborhoods, then nonprofit or proven, for-profit, 
mission-driven community builders are more likely to achieve 
the desired neighborhood stabilization outcomes. Private 
investors will continue to have a difficult time satisfying 
those neighborhood stabilization requirements. Other strategies 
could include giving nonprofit organizations and community 
lenders priority in winning bids. For example, if a qualified 
nonprofit does not win the bid, it could be given another, 
final opportunity to outbid the winning bidder, even if by one 
dollar, in an effort to effect more stabilization outcomes. 
More nonprofits and community lenders would be willing to 
participate in these transactions if the scale was not as 
large, the risk not as great, and the financial investment not 
as substantial. Although many nonprofits with substantial 
balance sheets exist, most community lenders do not belong to 
that category.

Q.9. Freddie Mac recently engaged in a bulk sale of 
nonperforming loans. How would you compare it with the FHA's 
program, in terms of neighborhood stabilization and avoiding 
unnecessary foreclosures?

A.9. We are aware of this pilot program in Detroit and Chicago, 
and we are very encouraged by it. In fact, we are advocating 
for the pilot program to be expanded to New Jersey. However, it 
would be premature to evaluate the outcomes and compare the 
pilot program to DASP.

Q.10. For the FHA's Distressed Asset Stabilization Program and 
similar initiatives, do you think neighborhood stabilization 
goals are in tension with the desire to maximize returns for 
taxpayers?

A.10. No, Senator, not at all. Preventing further delinquency 
and foreclosures is critical to halting falling home prices and 
greater disinvestment. Under DASP, FHA receives fair value for 
the delinquent assets. With additional changes to DASP, FHA 
could realize more neighborhood stabilization outcomes, which 
in turn stem further financial losses and prevent more 
delinquent assets from accumulating for the Government, 
financial institutions, and real estate investors.

Q.11. How can Federal programs like the Neighborhood 
Stabilization Program, borrower assistance programs like HAMP, 
HARP, and the Hardest Hit Fund be improved to spur the recovery 
in communities that are still struggling?

A.11. Senator, this is a great question. However, it requires a 
lengthy, detailed response.
    NSP did not achieve its intended outcomes due to many 
factors. One of the major challenges is the significant home 
repair requirements for NSP, which in turn necessitate the need 
for a large amount of NSP subsidy dollars to realize a 
rehabilitation project. These requirements drive up the total 
development costs of the project, usually well beyond the fair 
market sales price for the newly renovated home. Therefore, a 
project only becomes viable, if the total development budget 
gap is filled with even more NSP subsidy dollars. This makes 
the program extremely inefficient and unable to achieve the 
scale necessary to adequately spur the economic recovery. The 
only reason why our organization, NJCC, has been able to 
efficiently use lower amounts of NSP monies is that we are able 
to purchase properties in bulk at a severe discount, lowering 
the total development costs for each project. The scale we are 
able to generate is not typical for other nonprofit community 
builders.
    HAMP was structured to protect Fannie Mae and Freddie Mac 
loan assets. The program does not allow mortgages to be written 
down to the current appraised value of the home. Instead a 
balloon payment will become due at the end of 40 years, when 
homeowners will be looking to retire. So while HAMP loans can 
significantly reduce current monthly payments for the 
homeowner, in reality, the amount of the mortgage which remains 
underwater is exacerbated, since the ``amount due on sale or 
refinance'' will be substantially greater than the future worth 
of the home. Homeowners will simply be stuck, unable to sell or 
move to a new living situation, and can, in fact, be pursued by 
the GSEs for ``nonpayment of amounts due.'' Future generations 
will be the ones to actually realize the losses on these past 
investments.

Q.12. Several of you discussed the importance of extending tax 
relief for mortgage debt forgiveness. This is an issue about 
which I've heard a great deal from people in my State, where 
many homeowners are struggling not only from the financial 
crisis, but also from damage inflicted by Superstorm Sandy. And 
when they finally receive a lifeline to address mortgage debt 
they are unable to pay, they risk being hit with a tax bill on 
phantom income that may be many times in excess of the salary 
they make as, say, a teacher or other profession.
    Can you please describe why this tax relief is so important 
for families, communities, and the economy?

A.12. It is vitally important, Senator. As you say, the debt 
relief is not relief if taxes are assessed. If these struggling 
homeowners are taxed, the slight gain in disposable monthly 
income derived from the mortgage debt forgiveness cannot pay 
for the tax bill on this phantom income. In fact, we have had 
homeowners in our ReStart program refuse a modification, 
because of the uncertainty around the tax extender bill. And 
since our trial modification plans can last longer than 12 
months, we can inadvertently saddle these homeowners with a tax 
bill, should the relief not be reauthorized for another year. 
It is important that the extender bill be authorized for 
multiple years to provide reassurance to those homeowners lucky 
enough to receive mortgage debt forgiveness. Lastly, the gain 
or boon from the mortgage debt forgiveness should not be viewed 
as income for the individual, instead, I would argue, it is a 
boon to the local and regional economies. These homeowners can 
become consumers again, can address health concerns, and can 
provide quality food options to their children and family 
members. Their neighborhoods will be spared further 
disinvestment and decline, and the removal of the specter and 
fear of being forced out of your home by the sheriff eliminates 
a huge stress from these homeowners' lives, allowing them to 
regain a healthier quality of life. These are all things that 
should not be discounted, as they are interconnected and 
influence the economic recovery.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
              CHAIRMAN MENENDEZ FROM MABEL GUZMAN

Q.1. For communities that are still struggling to recover from 
the downturn--for example, with high concentrations of 
distressed mortgage borrowers or homeowners with underwater 
mortgages--in your experience in the market, are there 
strategies to break the cycle of home price decline? What more 
can be done?

A.1. Only a few markets across the country are currently 
experiencing declining prices, but tepid price growth has been 
an issue in more places. Price growth has been the defining 
difference between markets that were underwater, but have since 
restored equity and those that have not. Price growth is driven 
by demand relative to supply. This demand is driven by economic 
growth and job creation. In recent years, single family 
investors have also played an important role in supplementing 
demand, but have also removed affordable inventory for first 
time buyers in many areas of the country.

Q.2. As many of you noted in your testimony, the share of 
homeowners with negative or low equity on their homes has been 
improving, but it's still elevated and the rebound has not been 
uniform. In cities like Newark, Paterson, and Elizabeth in my 
State of New Jersey, for example, the underwater rates are much 
higher than the national average--and many in my State who were 
already struggling from the financial crisis then had to deal 
with an additional major hit from Superstorm Sandy.
    Can you please explain the impact on the housing market of 
homeowners who are still struggling with high debt burdens, 
particularly at the entry-level segment of the market?

A.2. Negative equity puts homeowners in a precarious situation, 
as it makes refinancing difficult, weakens owners' incentives, 
and makes owners more susceptible to events like an illness or 
loss of income/job that could push them into foreclosure.
    In addition, owners in negative equity are less likely to 
trade-up, which in turn constrains the supply of available 
homes for the next generation of first-time or trade-up buyers. 
This trend has exacerbated inventory shortages in some local 
markets.

Q.3. What is the impact for the broader economy of the 
continuing number of homeowners with distressed mortgages? To 
what extent are consumers still holding back spending because 
of outsized debt burdens?

A.3. Rising home values can boost consumer spending through a 
``housing wealth effect.'' It stands to reason that falling 
values or negative equity can weigh on homeowners' spending 
decisions. Thus, negative equity can impact regional economic 
performance through constrained consumer spending.
    Furthermore, the general negative equity environment 
creates uncertainty that weighs on consumers' demand for 
housing, builders' plans for construction, and lenders' 
willingness to originate. In turn, this can retard spending and 
hiring decisions.

Q.4. How can Federal programs like the Neighborhood 
Stabilization Program, borrower assistance programs like HAMP, 
HARP, and the Hardest Hit Fund be improved to spur the recovery 
in communities that are still struggling?

A.4. While the Neighborhood Stabilization Program and Hardest 
Hit Funds have largely played out in the States and localities, 
the principles of neighborhood stabilization are valid as we 
pursue other initiatives such as the Neighborhood Stabilization 
Initiative (NSI) now underway in Detroit and Chicago through 
the Federal Housing Finance Agency. The Chicago Association of 
Realtors, for example, has demonstrated a strong record of 
achievement in helping Chicago meet its NSP goals through 
helping to design strategies that make maximum use of limited 
resources to bring neighborhoods back.

Q.5. Several of you discussed the importance of extending tax 
relief for mortgage debt forgiveness. This is an issue about 
which I've heard a great deal from people in my State, where 
many homeowners are struggling not only from the financial 
crisis, but also from damage inflicted by Superstorm Sandy. And 
when they finally receive a lifeline to address mortgage debt 
they are unable to pay, they risk being hit with a tax bill on 
phantom income that may be many times in excess of the salary 
they make as, say, a teacher or other profession.
    Can you please describe why this tax relief is so important 
for families, communities, and the economy?

A.5. Today, more than 5 million families remain in a home with 
a mortgage that is ``underwater.'' If they hit a hardship and 
cannot pay their mortgage, or have to move due to a new job and 
sell their home, it is quite a trial to go through some kind of 
workout or short sale process. And even if they are successful 
with this process, they learn they can be subject to paying 
income tax on ``phantom income'' from their forgiven mortgage 
debt. This can come along at the very worst time possible, as 
families in this situation are very often struggling 
financially.
    Unfortunately, the expiration of the tax provision that 
exempts this income from taxation encourages families to simply 
walk away and accept a foreclosure on their home. This harms 
families, neighborhoods and entire communities, and is contrary 
to every policy designed to keep people in their homes and 
prevent foreclosures.
    Extending the income tax exemption on mortgage debt 
forgiven in a short sale or a workout for principal residences 
provides homeowners with certainty, allows them to make 
reasoned decisions about their mortgage, and provides stability 
to our housing markets and communities.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
            CHAIRMAN MENENDEZ FROM DEBORAH GOLDBERG

Q.1. During the housing boom, some originators steered prime 
borrowers into subprime, exotic products. Can you please 
explain how the concentration of certain types of mortgage 
products or securitizations has affected a community's recovery 
rate?

A.1. The extent and nature of the steering that occurred during 
the boom is illustrated by several fair lending lawsuits 
brought by the U.S. Department of Justice against major 
mortgage lenders. Evidence presented in the lawsuits against 
Wells Fargo and Bank of America's Countrywide unit, in 
particular, shows that these institutions placed thousands of 
African American and Latino borrowers who were qualified for 
prime loans into more expensive, riskier subprime mortgages. 
\1\ These subprime products had multiple risky features that 
made the loans unsustainable. Among these were high interest 
rates, high fees, frequent adjustments to the interest rate 
after an initial 2 or 3 year period which created rapidly 
escalating monthly payments, and negative amortization. As 
interest rates increased, many of the borrowers with such loans 
were faced with mortgage payments that had grown to a level 
they could no longer afford. Negative amortization resulted in 
an increase in the unpaid principal balance, despite making 
timely payments, and left many borrowers owing more than their 
homes were worth. This was exacerbated by declining home 
values. Selling the home, a traditional exit strategy for 
troubled borrowers, was not possible for those who were 
underwater because the sale would not bring enough money to 
enable them to pay off the outstanding mortgage. Some borrowers 
sought loan modifications, but for a variety of reasons many 
were unable to obtain affordable modifications and wound up in 
foreclosure. Five million families have lost their homes to 
foreclosure since 2008.
---------------------------------------------------------------------------
     \1\ Details of the Department of Justice lawsuit against 
Countrywide are available at http://www.justice.gov/usao/cac/
countrywide.html; details of the lawsuit against Wells Fargo are 
available at http://www.justice.gov/opa/pr/justice-department-reaches-
settlement-wells-fargo-resulting-more-175-million-relief.
---------------------------------------------------------------------------
    Residential segregation by race and ethnicity is widespread 
in this country. Thus, when African American and Latino 
borrowers were targeted for subprime and other exotic loans, 
the result was a concentration of such loans in communities of 
color, including high income communities of color such as 
Prince George's County, MD. According to the Federal Reserve 
Board, in 2005-2006, African American borrowers were three 
times more likely and Latino borrowers were 2.5 times more 
likely to receive a subprime home purchase loan than similarly 
qualified white borrowers. Borrowers of color were also much 
more likely to receive subprime refinance loans. \2\
---------------------------------------------------------------------------
     \2\ Robert B. Avery, Kenneth P. Brevoort, and Glenn B. Canner, 
``Higher-Priced Home Lending and the 2005 HMDA Data'', Federal Reserve 
Bulletin, 2006, available at http://www.federalreserve.gov/pubs/
Bulletin/2006/hmda/bull06hmda.pdf, and ``The 2006 HMDA data'', Federal 
Reserve Bulletin, 2007, available at http://www.federalreserve.gov/
pubs/bulletin/2007/pdf/hmda06final.pdf.
---------------------------------------------------------------------------
    Thus, while many neighborhoods have been affected by 
foreclosures, communities of color have been particularly hard 
hit due to the concentration in those communities of mortgage 
loans that were unsustainable from the outset. These 
foreclosures clearly have an enormous impact on the families 
who have lost their homes. They suffer significant financial 
losses, disruption to their lives and social networks, their 
children's performance in school may be affected, and a host of 
other problems may ensue.
    However, the foreclosures also have a tremendous negative 
impact on the families who remain in the neighborhood. Perhaps 
most significant in terms of the implications for recovery is 
the financial impact they suffer as the result of a decline in 
the value of their homes. Research shows that foreclosures 
depress the value of nearby homes, and the effect is amplified 
when there are multiple nearby foreclosures. In Newburgh, NY, 
which has an estimated 600 vacant and abandoned properties, 
officials have estimated that each vacant and abandoned 
building reduces the value of surrounding properties by $7,000. 
According to their estimate, a group of 13 such properties has 
reduced surrounding property values by $500,000. \3\ 
Collectively, across the many communities hit hard by the 
crisis, this loss of wealth is enormous. At the height of the 
crisis, the Federal Reserve Board estimated that declining 
property values had cost Americans $7 trillion in lost wealth. 
\4\ African American and Latino households, whose wealth is 
disproportionately tied up in home equity, suffered the 
greatest loss of wealth: 53 percent and 66 percent 
respectively, according to research from the Pew Research 
Center. This compared to a 16 percent loss for white 
households. \5\ The Center for Responsible Lending has 
estimated that the nearby foreclosures have drained $2.2 
trillion in wealth from American homeowners, with half of that 
loss--$1.1 trillion--lost by homeowners in communities of 
color. \6\
---------------------------------------------------------------------------
     \3\ Shantal Parris Riley, ``The Housing Market Fallout 
Continues'', Mid-Hudson Times, January 13, 2015. Available at http://
timesadmin.startlogic.com/wp/2015/01/the-housing-market-fallout-
continues/.
     \4\ Federal Reserve Board, ``The U.S. Housing Market: Current 
Conditions and Policy Considerations'', January 4, 2012.
     \5\ Kochhar, Rakesh, Richard Fry, and Paul Taylor, ``Twenty-to-
One: Wealth Gaps Rise to Record Highs Between Whites, Blacks, 
Hispanics'', Pew Research Center, July 26, 2011. Available at http://
www.pewsocialtrends.org/2011/07/26/wealth-gaps-rise-to-record-highs-
between-whites-blacks-hispanics//.
     \6\ Center for Responsible Lending, ``2013 Update: The Spillover 
Effects of Foreclosures'', August 19, 2013. Available at http://
www.responsiblelending.org/mortgage-lending/research-analysis/2013-crl-
research-update-foreclosure-spillover-effects-final-aug-19-docx.pdf.
---------------------------------------------------------------------------
    This loss of wealth places both individual households and 
communities in a precarious position. As illustrated in the 
recent series in the Washington Post, ``Dashed Dreams'', \7\ 
families whose mortgages are underwater as the result of 
foreclosure-related drops in property values are stuck. Unless 
the loans are owned by Fannie Mae or Freddie Mac and therefore 
eligible for a refinance under the Federal Home Affordable 
Refinance Program (HARP), the homeowners are unable to 
refinance their mortgages to take advantage of lower interest 
rates because their homes are worth less than the amount of the 
mortgage. They are unable to move to take advantage of job 
opportunities elsewhere because they cannot sell their homes. 
They no longer have home equity that they can tap to pay for 
unexpected medical expenses, their children's educations, or 
their own retirement. They are extremely vulnerable to any 
disruption of income or unanticipated expense, and if such 
events occur, these homeowners may find themselves facing 
foreclosure. The tremendous loss of wealth also means they are 
less likely to be able to pass wealth along to the next 
generation, leaving their children a step behind rather than 
being able to offer them a leg up. This loss of 
intergenerational wealth means that the foreclosure crisis will 
have very long-lasting effects in communities of color.
---------------------------------------------------------------------------
     \7\ ``Dashed Dreams'' a three-part series by Washington Post 
reporters Michael A. Fletcher, Kimbriell Kelly, John Sullivan, and 
Steven Rich, appeared on January 24-26, 2015. It is available at http:/
/www.washingtonpost.com/sf/investigative/2015/01/24/the-american-dream-
shatters-in-prince-georges-county/.
---------------------------------------------------------------------------
    At the community level, the effects of concentrated 
foreclosures are also felt in many ways. One is the increased 
burden on municipal resources to deal with the problems 
associated with vacant, abandoned homes. The Mid-Hudson Times 
story on Newburgh, NY, cited above, provides ample illustration 
of this problem. In Newburgh and many other places, city 
officials have been called on to perform a variety of duties on 
a more frequent basis than usual. These include cleaning out 
trash that is dumped on the premises of vacant homes, 
responding to criminal activity that takes place at those 
homes, putting out fires, boarding up or demolishing damaged 
and deteriorated properties that have become safety hazards, 
monitoring vacant properties on an ongoing basis, tracking down 
the parties responsible for upkeep, assessing fines for 
violations of city ordinances, and trying to collect those 
fines. All of these activities are expensive. At the same time, 
the concentrated foreclosures have brought down property values 
and reduced the in-flow of tax revenues that pay for these and 
other municipal services. This creates a drag on the 
community's recovery.

Q.2. As many of you noted in your testimony, the share of 
homeowners with negative or low equity on their homes has been 
improving, but it's still elevated and the rebound has not been 
uniform. In cities like Newark, Paterson, and Elizabeth in my 
State of New Jersey, for example, the underwater rates are much 
higher than the national average--and many in my state who were 
already struggling from the financial crisis then had to deal 
with an additional major hit from Superstorm Sandy.
    Can you please explain the impact on the housing market of 
homeowners who are still struggling with high debt burdens, 
particularly at the entry-level segment of the market?

A.2. As the Washington Post series cited above describes so 
clearly, homeowners who are burdened with high debt--whether 
they are underwater on their mortgages and struggling to make 
those payments; have high levels of student, medical or other 
debt; or both--are vulnerable to foreclosure, unable to sell 
their homes, and unable to purchase other homes. Rather than 
contributing to a well-functioning housing market, they are 
kept on the sidelines and their exposure to foreclosure risk 
can contribute to the destabilization of the housing market. In 
many cases, they have had their home equity stripped away by 
abusive mortgage practices and declines in home values. This 
makes it difficult for them to sell their homes because they 
cannot sell for a high enough price to enable them to pay off 
the existing mortgage. The inability to sell their home means 
they cannot purchase another home, either to gain more space, 
relocate to pursue job opportunities, or for any other reason. 
Their high level of debt and lack of home equity also means 
that they may not be able to make major repairs to their homes, 
potentially undermining the home's long term value. Nor can 
they make improvements to their homes, dampening the home 
improvement segment of the housing market with the jobs that it 
creates and its positive impact on housing values.

Q.3. You testified that minority communities were especially 
hard hit and continue to face challenges in this regard. Can 
you please elaborate?

A.3. As I stated in my testimony, communities of color were 
targeted for subprime and other unsustainable mortgage loans. 
These loans contributed to inflated housing prices in many of 
these neighborhoods, followed by a particularly large drop in 
housing prices when the bubble burst. According to Black 
Knight's November Mortgage Monitor, in States that have been 
the slowest to recover from the housing crisis, price recovery 
for homes in the bottom 20 percent in terms of value is lagging 
well behind that of homes in the top 20 percent. The report 
notes that, in California, properties in the top 20 percent 
price bracket are currently a little more than 3 percent below 
their precrisis peak, compared to a 32 percent lag for homes in 
the bottom 20 percent price bracket. Similar patterns exist in 
other States, as well. \8\
---------------------------------------------------------------------------
     \8\ Garrison, Trey, ``Black Knight: Affordable Homes Lagging 
Behind in Price Recovery'', HousingWire, January 12, 2015.
---------------------------------------------------------------------------
    In NFHA's work, we have observed that homes in communities 
of color tend to be priced lower than comparable homes in white 
communities. Based on the numbers above, it appears that the 
recovery is slowest is communities of color, and many 
homeowners of color may still be underwater on their mortgages, 
keeping them on precarious financial footing. This is likely 
exacerbated by the continuing high unemployment rates for 
people of color. According to the Bureau of Labor Statistics, 
at the end of 2014 the unemployment rate for whites 16 years of 
age and older was 4.6 percent. For Hispanics in the same age 
bracket, the rate was 6.5 percent and for African Americans it 
was 10.5 percent. \9\ The combination of loss of income due to 
sustained unemployment and the fall-out from abusive mortgage 
practices creates particularly difficult challenges for these 
families.
---------------------------------------------------------------------------
     \9\ See ``Labor Force Statistics From the Current Population 
Survey, Table E-16, `Unemployment Rates by Age, Sex, Race, and Hispanic 
or Latino Ethnicity' '', available at http://www.bls.gov/web/empsit/
cpsee_e16.htm.

Q.4. What is the impact for the broader economy of the 
continuing number of homeowners with distressed mortgages? To 
what extent are consumers still holding back spending because 
---------------------------------------------------------------------------
of outsized debt burdens?

A.4. This excerpt from the Washington Post series cited above, 
``Dashed Dreams'', captures clearly the dilemma of homeowners 
who are underwater and struggling to keep up with their 
mortgage payments. It describes a family in Prince George's 
County, MD, the Bryants. They bought a house in 2001 and later 
refinanced into a loan with terms that would no longer be 
permissible under the new Qualified Mortgage (QM) regulations. 
While the initial loan payments were affordable, the payments 
have more than doubled and the Bryants are struggling to keep 
up. Here is how the article described the impact of these 
unaffordable payments:

        The problem is not their income but their home. Once a 
        source of wealth, it is now their biggest financial 
        burden.

        The Bryants owe just over $560,000 on their house, 
        which they estimate is worth about $80,000 less than 
        that. Since they moved in 2001, their monthly payment 
        has more than doubled to nearly $3,900 a month--a 
        predicament that arose because of an ill-advised 
        refinancing into a loan whose terms the Federal 
        Government now deems predatory.

        The couple have never missed a mortgage payment. But 
        now they are struggling to hold on. They have pulled 
        their two preteen daughters out of private school. They 
        bought inexpensive used cars. Instead of going on 
        vacation last summer, they took the girls to Six Flags 
        America, a nearby amusement park. They have little 
        saved for college or retirement.

    Multiply this by thousands of homeowners who are in the 
same situation and it is clear that this ongoing fall-out from 
unsustainable mortgage lending continues to undermine the 
broader economic recovery. It underscores the need for 
continuing assistance to borrowers who are at risk of default 
and foreclosure, and the importance of making principal 
reduction available to those whose mortgages are both 
unsustainable and underwater. Freeing these families from the 
burden of outsized, unaffordable debt would not only restore 
their economic security, it would speed the country's overall 
economic recovery and help ensure that it reaches those 
communities that were hardest hit by the crisis, including 
communities of color.

Q.5. As you know, the Federal Housing Administration and GSEs, 
like many private sector entities, are responsible for managing 
inventories and have engaged in sales of nonperforming loans 
and foreclosed properties. What policies or practices should be 
applied to these assets to ensure that their disposition best 
helps families, neighborhoods, and the overall recovery?

A.5. My testimony described the problems indentified through 
NFHA's investigation into the management and marketing of 
foreclosed properties in communities of color as compared to 
other communities. That investigation focused on bank-
controlled foreclosures. Some of these are managed by various 
banks for Fannie Mae, Freddie Mac, or FHA, and some for other 
investors. In some cases the bank is the trustee, and is not 
directly involved in the day to day management of the 
properties, but is ultimately responsible to ensure that they 
are properly maintained and marketed on behalf of the 
investors. NFHA's investigation found that foreclosed 
properties in communities of color were much more likely to 
have multiple deficiencies, including unsecured doors and 
windows, holes in the structure, damaged or missing gutters and 
downspouts, accumulated trash and overgrown yards, and the 
like. These conditions depress the value of the individual home 
and the surrounding homes. They lower the municipalities' 
revenues from property taxes at the same time as they increase 
the demand for municipal services such as police, fire, health 
care, and others. They create a host of health and safety 
problems for the community.
    NFHA's report, which was attached to my testimony, outlines 
a series of policy recommendations to improve the maintenance 
and marketing of these properties and minimize their negative 
impact on the communities in which they are located. Freddie 
Mac has adopted many of these recommendations, and the benefits 
can be seen in the good condition of the foreclosed properties 
it owns. Some banks also have effective systems for managing 
their foreclosed properties, but many do not. FHA's protocols 
require their asset managers to maintain the yards of FHA's 
foreclosed properties, but prohibit them from making repairs to 
the structures themselves, which can result in deterioration of 
those properties. The lack of industrywide standards and strong 
oversight by the Federal regulators means that, in too many 
cases, foreclosed properties in communities of color are 
blighted, linger on the market too long, and end up in the 
hands of investors rather than owner-occupants. The Federal 
Housing Finance Agency, Fannie Mae, FHA, and many banks have 
not yet taken the necessary steps to institute the kind of REO 
management policies that will help ensure that communities of 
color are not left behind in the recovery from the foreclosure 
crisis.
    Similarly, Fannie Mae, Freddie Mac, and FHA all control 
sizeable portfolios of nonperforming loans. These are loans 
that are seriously delinquent but have not yet gone through 
foreclosure. The GSEs have some $100 billion of such loans 
between them, \10\ and as of year-end 2014, FHA had more than 
500,000 such loans. \11\ From one perspective, these 
nonperforming loans are a drag on the balance sheets of FHA and 
the GSEs, and they have an interest in disposing of these loans 
in order to shore up their financial condition and protect 
American taxpayers. Experience to date suggests that there is 
considerable investor interest in the bulk purchase of these 
loans, which are being offered below par.
---------------------------------------------------------------------------
     \10\ Chrisman, Rob, ``Non-Performing Loan Market on Fire; Rates 
Back to June 2013 Levels but Production May Drag'', Aug. 18, 2014, 
available at http://www.mortgagenewsdaily.com/channels/pipelinepress/
08182014-interest-rates-mortgages.aspx.
     \11\ See U.S. Department of Housing and Urban Development, Office 
of Risk Management and Regulatory Affairs, Office of Evaluation, 
Reporting and Analysis Division, ``FHA Single Family Loan Performance 
Trends: Credit Risk Report'', December, 2014. Available at http://
portal.hud.gov/hudportal/documents/huddoc?id=FHALPT_Dec2014.pdf.
---------------------------------------------------------------------------
    The disposition of these nonperforming loans has a broader 
impact, however. In addition to affecting the bottom line for 
FHA and the GSEs, the way they are handled also affects the 
homeowners who have been struggling to make their mortgage 
payments, the value of the surrounding homes, and the 
likelihood of default of other loans in those communities, some 
of which are also guaranteed or insured by FHA and the GSEs. 
Given these larger impacts, it makes sense to approach the 
disposition of these nonperforming loans with two goals: 
reducing potential losses and stabilizing communities. Both of 
these are of equal importance, and in order to accomplish both 
goals, both must be built into the design of the asset 
disposition programs.
    To date, FHA has taken modest steps toward this second goal 
in a small subset of the sales conducted through its Distressed 
Asset Stabilization Program, or DASP, launched in 2010. As FHA 
notes in the May 30, 2014, quarterly report on the program, its 
single family loan sales program, ``maximizes recoveries to the 
MMI funds, reduces claims costs, minimizes the time that the 
assets are held by FHA, and helps keep borrowers--otherwise 
headed to foreclosure--in the home. The program also serves as 
part of FHA's effort to target relief to areas experiencing 
high foreclosure activities. For purchasers, the program is an 
opportunity to acquire assets at competitive prices with the 
flexibility to service the assets while providing borrowers an 
opportunity to avoid costly foreclosures.'' \12\ In other 
words, FHA expects that the purchasers of the distressed loans, 
who have purchased the loans at a significant discount, have 
the financial incentive and opportunity to offer affordable 
loan modifications under terms not otherwise permitted by FHA 
regulations, such as principal reduction. The reports from the 
field mentioned below indicate that this objective is not being 
met.
---------------------------------------------------------------------------
     \12\ U.S. Department of Housing and Urban Development, Federal 
Housing Administration, ``Quarterly Report on FHA Single Family Loan 
Sales'', available at http://portal.hud.gov/hudportal/documents/
huddoc?id=report082814.pdf.
---------------------------------------------------------------------------
    As of May 30, 2014, FHA had sold 71,231 loans through the 
DASP program, with an approximate aggregate unpaid principal 
balance of $12,263,325,938. Many of these loans are still 
unresolved. Of those where an outcome has been reached, 31 
percent have gone through foreclosure, 35 percent have been 
sold to other investors and no information about their current 
status is available, and the remaining 34 percent have been 
resolved in a manner that avoided foreclosure. Eleven percent 
of the loans in this last category are reperforming, the rest 
have had short sales, deeds-in-lieu or similar outcomes. In 
other words, this part of the program has had minimal success 
in helping homeowners save their homes.
    Beginning in 2012, FHA instituted the sale of so-called 
Neighborhood Stabilization Outcome (NSO) pools of loans. In 
these pools, the terms of the sale specify that, for at least 
50 percent of the loans in each NSO pool, the investor must 
resolve the delinquency through one of a series of allowable 
nonforeclosure outcomes. Among these are reperformance, rental 
to a borrower, gift to a land bank, or payoff of the loan. As 
of May 30, 2014, FHA had sold 17,828 loans with an approximate 
aggregate unpaid principal balance of $3,164,052,483 in NSO 
pools. The experience with these loans is more limited than 
with the national pools, both because of their fewer numbers 
and the shorter time since the launch of the program. So far, 
however, the outcomes appear significantly more promising than 
those of the other sales. FHA has reported results on three of 
the NSO pools, and for those three, of the loans that have been 
resolved, 27.7 percent, 20.6 percent, and 17 percent 
respectively are reperforming, meaning that the borrower is 
once again making mortgage payments. These are substantially 
better outcomes than those achieved by the national pools.
    FHA should build on the early successes of the NSO pools to 
ensure that more of the borrowers in its defaulted loans are 
able to save their homes or otherwise avoid foreclosure. To 
accomplish this, it should adopt the following measures:

  <bullet> Ensure that loans are not sold through the DASP 
        program before all required loss mitigation steps have 
        been completed. There have been reports from housing 
        counselors and borrowers' attorneys in the field about 
        clients who were in the middle of loss mitigation only 
        to be told that their loans had been sold, were no 
        longer FHA insured, and that their pending loan 
        modification could not move forward. FHA should expand 
        its oversight on this issue to confirm, prior to 
        including a loan in the DASP pool, the accuracy of the 
        servicers' certification that they have complied with 
        all loss mitigation requirements. In addition, FHA 
        should conduct more extensive quality assurance on 
        loans that will be included in DASP pools to ensure 
        that servicers have completed the waterfall analysis 
        required under FHA's loss mitigation rules. Further, to 
        aid FHA in its quality assurance protocol, before any 
        loans are sold through the DASP program, the homeowners 
        should receive a notice of the impending sale. The 
        notice should inform them of the servicer's 
        determination that all FHA loss mitigation options have 
        been exhausted and give them an opportunity to rebut 
        the servicer's certification, provide information about 
        the process and the obligations of the servicer, and 
        include an explanation of their rights.

  <bullet> Apply neighborhood stabilization requirements to all 
        pools. The early experience with the NSO pools suggests 
        that many more homeowners are able to save their homes 
        when this program goal is made explicit. This outcome 
        benefits benefit of the homeowner, the community and 
        the investor. It is important to note that 
        incorporating neighborhood stabilization outcome 
        requirements into the program has not resulted in any 
        negative impact on the price for which the loans were 
        sold. In other words, there is no conflict between 
        stabilizing neighborhoods and shoring up the FHA 
        insurance fund. It makes sense, therefore, to adopt 
        neighborhood stabilization requirements for all of the 
        DASP pools.

  <bullet> Strengthen the requirements for neighborhood 
        stabilization outcomes for loans sold through DASP. 
        This should include setting out standards for what 
        constitutes an affordable loan modification--including 
        the use of principal reduction, and increasing the 
        percentage of loans in any pool that should receive 
        sustainable modifications. In cases where no 
        modification is possible, the priorities should be 
        selling the home to another owner-occupant or making it 
        available as affordable rental housing for low- and 
        moderate-income households.

  <bullet> Take steps to make it possible for mission-driven 
        community-based organizations to purchase more loans 
        through DASP. This may mean creating smaller pools that 
        are more affordable for organizations with limited 
        access to capital, including in the bidder 
        qualifications a requirement that the bidder 
        demonstrate capacity and commitment to meeting 
        neighborhood stabilization objectives, and helping to 
        develop additional sources of capital available to 
        qualified community-based organizations for the 
        purchase of nonperforming loans.

  <bullet> Increase program transparency. To facilitate 
        oversight and accountability, FHA should collect and 
        publish information on program outcomes on a regular 
        basis. This should include loan-level data on borrower 
        demographics, the geographic location of the loans, and 
        more detail on post-sale resolutions. In particular, it 
        is important to capture information on the current 
        status of the loans and any changes to the loan terms, 
        including interest rate reductions, principal 
        forgiveness or forbearance and term extensions, along 
        with post-modification debt-to-income ratios. There 
        have been reports from the field of DASP borrowers 
        being required to become current before being eligible 
        for a loan modification, being required to make an 
        upfront payment of thousands of dollars, and being 
        offered modifications that do not result in affordable 
        monthly payments. Such modifications are not affordable 
        or sustainable, and having more detailed information 
        about the terms that borrowers are being offered will 
        help to weed out such practices. In addition, it is 
        important to track any differences in the modifications 
        offered or outcomes achieved based on borrower 
        characteristics or geographic location in order to 
        ensure that the program is operating in a fair and 
        nondiscriminatory fashion.

    As noted in my testimony, Freddie Mac conducted one sale of 
nonperforming loans this past summer. To date, Fannie Mae has 
not followed suit, but between them, the GSEs have some $100 
billion of nonperforming loans on their books and indications 
are that they are likely to conduct more sales in the future. 
Little information is available publicly about the details of 
the Freddie Mac sale, but it does not appear that the terms of 
the sale incorporated any of the principals described above. If 
there are further sales of nonperforming loans by either GSE, 
they should adopt the kinds of neighborhood stabilization goals 
outlined here.

Q.6. Several of you discussed the importance of extending tax 
relief for mortgage debt forgiveness. This is an issue about 
which I've heard a great deal from people in my State, where 
many homeowners are struggling not only from the financial 
crisis, but also from damage inflicted by Superstorm Sandy. And 
when they finally receive a lifeline to address mortgage debt 
they are unable to pay, they risk being hit with a tax bill on 
phantom income that may be many times in excess of the salary 
they make as, say, a teacher or other profession.
    Can you please describe why this tax relief is so important 
for families, communities, and the economy?

A.6. Mortgage debt forgiveness is particularly important for 
creating sustainable mortgages for families who are not only 
delinquent on their mortgages or at imminent risk of default, 
but who are also underwater (that is, they owe more on their 
mortgages than their homes are worth). These families are 
highly vulnerable financially. A loan modification that reduces 
their interest rate and/or mortgage payment may not be enough 
to restore their financial stability. As long as they remain 
underwater, they remain at risk of default and foreclosure if 
they face future financial difficulties, such as the loss of a 
job, reduction in hours or income, or medical or other 
unexpected expenses. A family in this situation cannot sell its 
home to move for a job opportunity, to get a bigger house as 
the family grows or for any other reason. Nor can it sell its 
home to get out from under the debt burden, because the home 
cannot be sold at a price high enough to pay off the existing 
mortgage. Such families face extremely limited geographic and 
economic mobility. For them, a loan modification that includes 
principal forgiveness is a lifeline that can secure their 
financial stability and economic mobility. However, if they 
incur significant tax liability on that principal forgiveness, 
it may be impossible for them to afford to accept the loan 
modification. They remain vulnerable and financially stressed.
    Communities with significant numbers of families in this 
situation may have a harder time recovering from the recession. 
The economy also suffers when such families and communities are 
economically constrained.
    Congress has an important role to play in solving this 
problem. To date, it has only provided limited and temporary 
relief from tax liability associated with principal forgiveness 
obtained through 2014. More families would be able to take 
advantage of loan modification offers that include principal 
forgiveness, and thereby regain their financial footing, if the 
relief were made permanent, and if it applied to all mortgage 
debt rather than only debt that was incurred to ``buy, build, 
or substantially improve'' the borrower's principal residence. 
This limited definition of debt in the Mortgage Forgiveness 
Debt Relief Act does not include loan modifications on 
investment properties, such as those offered in the Home 
Affordable Modification Program (HAMP Tier 2). Nor does it 
cover all refinance debt for a primary residence--debt that was 
often incurred in predatory loan transactions. In addition, 
most homeowners are not aware that debt forgiven in a short 
sale, deed in lieu of foreclosure, or an uncollected deficiency 
after foreclosure can also give rise to potential taxable 
income. Thus, the foreclosure prevention options that can help 
stabilize communities, such as modifications, short sales and 
deeds in lieu of foreclosure that involve principal 
forgiveness, can ultimately harm borrowers who believe they 
have made a fresh start but later learn that they face a 
significant income tax liability despite having resolved the 
mortgage matter. Congress should move quickly to pass the Act 
on a permanent basis, expanding the range of loans to which it 
applies, as described above.
</pre></body></html>
